1a
PRECEDENTIAL
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
No. 18-2574
SHARONELL FULTON; CECELIA PAUL;
TONI LYNN SIMMS-BUSCH;
CATHOLIC SOCIAL SERVICES,
v.

Appellants

CITY OF PHILADELPHIA; DEPARTMENT OF HUMAN SERVICES FOR THE CITY OF PHILADELPHIA; PHILADELPHIA COMMISSION ON HUMAN
RELATIONS
SUPPORT CENTER FOR CHILD ADVOCATES;
PHILADELPHIA FAMILY PRIDE
(Intervenors in D.C.)
Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-18-cv-02075)
District Judge: Honorable Petrese B. Tucker
Argued November 6, 2018
Before: AMBRO, SCIRICA, and RENDELL,
Circuit Judges
(Opinion filed: April 22, 2019)
Stephanie H. Barclay
Nicholas R. Reaves

2a
Mark L. Rienzi
Lori H. Windham (Argued)
Becket Fund for Religious Liberty
1200 New Hampshire Avenue, N.W., Suite 700 Washington, DC20036
Nicholas M. Centrella
Conrad O’Brien
1500 Market Street
West Towers, Suite 3900
Philadelphia, PA19102
Counsel for Appellants
Marvel S. Bratt
City Solicitor
Diana Cortes
Chair, Litigation Group
Jane Lovitch Istvan (Argued)
Chief Deputy Solicitor, Appeals
Eleanor N. Ewing
Chief Deputy City Solicitor
Affirmative & General Litigation
Elisa Bruhl
Benjamin H. Field
Schaundra Oliver
Michael W. Pfautz
City of Philadelphia, Law Department 17th Floor
1515 Arch Street
Philadelphia, PA19102
Counsel for Appellees
David J. Hacker
Office of Attorney General of Texas
Office of Special Litigation
P.O. Box 12548 Austin, TX 78711

3a
Counsel for Amicus Appellants
State of Missouri, State of Nebraska,
State of Oklahoma, State of Alabama,
State of Arkansas, State of Louisiana,
State of Texas, Commonwealth of Kentucky
John J. Bursch
Bursch Law
9339 Cherry Valley Southeast, Suite 78
Caledonia, MI49316
David A. Cortman
Rory T. Gray
John M. Sharp
Kristen K. Waggoner
Alliance Defending Freedom
1000 Hurricane Shoals Road, N.E.
Building D, Suite 1100
Lawrenceville, GA30043
Counsel for Amicus Appellants
Alliance Defending Freedom, Ethics and Religious
Liberty Commission of the Southern Baptist Convention, Family Research Council, Focus on the
Family
William Haun
Shearman & Sterling
401 9th Street, N.W., Suite 800
Washington, DC20004
Counsel for Amicus Appellant
Jewish Coalition for Religious Liberty
Miles Coleman
Nelson Mullins Riley & Scarborough
104 South Main Street, Suite 900
Greenville, SC29601

4a
Counsel for Amicus Appellants
Mike Enzi, Roy Blunt, John Boozman, Tom Cotton,
Ted Cruz, Steve Daines, Tim Scott, James M. Inhofe, James Lankford, James E. Risch, Mike Kelly,
Robert Aderholt, Jim Banks, Lou Barletta, Diane
Black, Kevin Brady, Kevin Cramer, Jeff Duncan,
Neal P. Dunn, Matt Gaetz, Glenn Grothman, Andy
Harris, Jody B. Hice, Randy Hultgren, Walter B.
Jones, Steve King, Doug Lamborn, Billy Long,
Barry Loudermilk, Tom Marino, Mark Meadows,
Ralph Norman, Pete Olson, John Ratcliffe, Dana
Rohrabacher, Todd Rokita, Keith Rothfus, Steve
Russell, Steve Scalise, Christopher Smith, Randy
K. Weber, Roger Williams
Andres M. Picciotti-Bayer
Catholic Association Foundation
3220 N Street, N.W., Suite 126
Washington, DC20007
Counsel for Amicus Appellants
Former Foster Children & Foster Parents; Catholic
Association Foundation
Leslie Cooper (Argued) James D. Esseks
American Civil Liberties Union
125 Broad Street, 18th Floor
New York, NY10004
Fred T. Magaziner
Catherin V. Wigglesworth
Dechert
2929 Arch Street, Cira Center 18th Floor
Philadelphia, PA19104
Mary Catherine Roper
Molly M. Tack-Hooper
American Civil Liberties Union of Pennsylvania

5a
P.O. Box 60173
Philadelphia, PA19106
Counsel for Intervenor-Appellees
Philadelphia Family Pride, Support Center for
Child Advocates
Alexander J. Luchenitser
Richard B. Katskee
Americans United for Separation of Church & State
1310 L Street, NW, Suite 200
Washington, DC20005
Counsel for Amicus Appellee
Americans United for Separation of
Church & State
Steven M. Freeman
David L. Barkey
Melissa Garlick
Amy E. Feinman
Anti-Defamation League
605 Third Avenue
New York, NY10158
M. Duncan Grant
Alexander L. Harris
Pepper Hamilton
3000 Two Logan Square
18th and Arch Streets
Philadelphia, PA 19103
Counsel for Amicus Appellees
Anti-Defamation League of Philadelphia, Asian
Pacific American Advocates, Bend the Arc a Jewish
Partnership for Justice, Hindu American Foundation, Interfaith Alliance Foundation, Japanese
American Citizens League, Jewish Social Policy

6a
Action Network, Jewish Women International,
Keshet, Muslim Advocates, National Council of
Jewish Women, People for the American Way
Foundation, Sikh Coalition, South Asian Americans Leading Together, Rabbinic Call for Human
Rights
Julie Wilensky
Shannon P. Minter
Catherine Sakimura
National Center for Lesbian Rights
870 Market Street, Suite 370
San Francisco, CA94102
Counsel for Amicus Appellees
National Center for Lesbian Rights, Civil Rights
Education and Enforcement Center, Disability
Rights Advocates, Disability Rights Education and
Defense Fund Inc., Equal Justice Society, GLBTQ
Legal Advocates and Defenders, Legal Aid at Work,
Impact Fund, National Association of the Deaf, National Federation of the Blind, Transgender Law
Center
Cathren I. Cohen
Marshall Currey Cook
Karen Loewy
Lambda Legal
120 Wall Street, 19th Floor
New York, NY10005
Counsel for Amicus Appellees
Fosterclub, Garden State Equality, Gender and
Sexuality Development Clinic of Children’s Hospital of Philadelphia, Human Rights Campaign,
Lambda Legal Defense & Education Fund Inc.,
Mazzoni Center, National LGBTQ Task Force,

7a
Pennsylvania Youth Congress Foundation, The
Trevor Project, True Colors Fund
Maura Healey
Attorney General of the
Commonwealth of Massachusetts
Elizabeth N. Dewar
State Solicitor
Abigail B. Taylor
Angela R. Brooks
Genevieve C. Nadeau
Office of Attorney General of Massachusetts
One Ashburton Place, McCormack Building
20th Floor
Boston, MA02108
Counsel for Amicus Appellees
State of California, State of Connecticut, State of
Delaware, District of Columbia, State of Hawaii,
State of Illinois, State of Iowa, State of Maine,
State of Maryland, State of Minnesota, State of
New Jersey, State of New York, State of Oregon,
Commonwealth of Pennsylvania, State of Rhode Island, State of Vermont, State of Washington, Commonwealth of Massachusetts
Jeffrey S. Trachtman
Norman C. Simon
Tobias B. Jacoby
Jason M. Moff
Elise Funke
Kramer Levin Naftalis & Frankel
1177 Avenue of the Americans
New York, NY10036
Counsel for Amicus Appellees
Rev. Lavonne Althouse, Dr. Kharma Amos, Rev.

8a
Robert Burke, Dr. Randy Bush, Central Atlantic
Conference of United Church of Christ, Central Atlantic Conference of American Rabbis, Covenant
Network of Presbyterians, Dr. Beverly Dale, Dr.
Janet Edwards, Rev. Jean Erb, Evangelical Lutheran Church in American, Rev. Margaret Diane
Fisher, Friends for Lesbian Gay Bisexual
Transgender and Queer Concerns, Rev. Phillip
Geliebter, Rev. Michael Giansiracusa, Rev. Hilary
Greer, Rev. Sara Hale, Erin Hirsh, Melford
Holldand, Rev. Rebecca Irwin-Diehl, Dr. Elizabeth
Kaeton, Rev. Catherin Kerr, Mary Kisner, Dr. Vincent Kolb, Lutherans for Full Participation; Men of
Reform Judaism, Rev. Jeffrey Miller, More Light
Presbyterians, Muslims for Progressive Values,
Rev. Bill Neely, Linda Noonan, Penn Central Conference of United Church of Christ, Penn Northeast
Conference of the United Church of Christ, Penn
West Conference of United Church of Chris, Pennsylvania Southeast Conference of United Church of
Christ, David Pickett, Rev. William Podobinski,
Reconciling Works, Reconstructionist Rabbinical
Association, Religious Institute, Serena Rice, Rev.
Michael Ruk, Michele Schenk, Rev. Matthew Simpson, Stated Clerk of the General Assembly of Presbyterian Church, Megan Sutker, Stephanie Anne
Thompson, Union for Reform Judaism, Unitarian
Universalist Association, Rev. Naomi WashingtonLeapheart, Amy Welin, Dr. Traci West, Women of
Reform Judaism, Rev. Joan Wylie
Justin Goodyear
Wilmer Cutler Pickering Hale and Dorr
7 World Trade Center
250 Greenwich Street

9a
New York, NY10007
Elizabeth Mitchell
Emily L. Stark
Lauren J. Schreur
Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, N.W.
Washington, DC20006
Counsel for Amicus Appellees
Child Welfare League, National Association of Social Workers, North American Council of Adoptable
Children, Voice for Adoption
Joshua A. Martz
Kaplan Hecker & Fink
350 Fifth Avenue, Suite 7110
New York, NY 10118
Counsel for Amicus Appellees
Caroline Mala Corbin, Frederick Gedicks, Richard
C. Shragger, Micah Schwartzman, Elizabeth Sepper, Nelson Tebbe
Kendyl T. Hanks
Greenberg Traurig
300 West 6th Street, Suite 2050
Austin, TX 78701
Counsel for Amicus Appellees
Children’s Rights, Barton Child Law & Policy Center, Emory Law School, Center for Children &
Youth Justice, Center for Children’s Advocacy,
Center for the Study of Social Policy, Center on
Children and Families, Children and Family Justice Center, Children’s Action Alliance, Children’s
Advocacy Institute, Children’s Defense Fund-New

10a
York, Children’s Law Center of California, Children’s Law Center of Kentucky, Children’s Law
Center of Minnesota, Coalition for Juvenile Justice, Columbia Legal Services; First Star, Inc., Florida’s Children First, Inc., Harvard law School Child
Advocacy Program, Juvenile Law Center, Lawyers
For Children, Legal Counsel for Youth and Children, Legal Services for Children, Professor Bruce
A. Boyer, Professor Michael J. Dale, National Center for Youth Law, Nebraska Appleseed, New Mexico Child Advocacy Network, Partners for Our Children, Pegasus Legal Services for Children, Rutgers
School of Law Children’s Justice Clinic, University
of Miami Children & Youth Law Clinic, Youth Law
Center
Philip E. Karmel
Bryan Cave Leighton Paisner
1290 Avenue of the Americans
New York, NY 10104
Counsel for Amicus Appellees
Family Equality Council, COLAGE
OPINION OF THE COURT
AMBRO, Circuit Judge
A reporter from the Philadelphia Inquirer informed
the City of Philadelphia’s Department of Human Services in March 2018 that two of its agencies would not
work with same- sex couples as foster parents. Human
Services investigated this allegation, which it considered a violation of the City’s anti-discrimination laws.

11a
When the agencies confirmed that, because of their religious views on marriage, they would not work with
gay couples, Human Services ceased referring foster
children to them. One of those agencies, Catholic Social Services (sometimes abbreviated to “CSS”),
brought this action claiming that the City has violated
its rights under the First Amendment’s Free Exercise,
Establishment, and Free Speech Clauses, as well as
under Pennsylvania’s Religious Freedom Protection
Act. It seeks an order requiring the City to renew their
contractual relationship while permitting it to turn
away same-sex couples who wish to be foster parents.
CSS sought preliminary injunctive relief to this effect
from the District Court. When it denied the request
after a three-day hearing, Fulton v. City of Philadelphia, 320 F. Supp. 3d. 661 (E.D. Pa. 2018), CSS appealed.
Our question is not whether the City or CSS has
behaved reasonably. Nor is our task to mediate a mutually agreeable compromise between the parties. 1
It is to determine whether the City’s actions were
lawful. Did it have the authority to insist, consistent
with the First Amendment and Pennsylvania law,
that CSS not discriminate against same-sex couples as
a condition of working with it to provide foster care
services? Or, inversely, has CSS demonstrated that
the City transgressed fundamental guarantees of religious liberty?
That being said, District Judge Tucker commented that she
“would prefer that the [p]arties seek* * * some compromise to
their current dispute without court intervention.” Id. at 667. We
agree, especially given the long and constructive relationship between the parties.

1

12a
At this stage and on this record, we conclude that
CSS is not entitled to a preliminary injunction. The
City’s non- discrimination policy is a neutral, generally applicable law, and the religious views of CSS do
not entitle it to an exception from that policy. See
Emp’t Div. v. Smith, 494 U.S. 872, 877-78 (1990). It
has failed to make a persuasive showing that the City
targeted it for its religious beliefs, or is motivated by
ill will against its religion, rather than sincere opposition to discrimination on the basis of sexual orientation. Thus we affirm.
I. Background
Catholic Social Services is a religious non-profit organization affiliated with the Archdiocese of Philadelphia that provides foster care services in Philadelphia.
Created in 1917 as the Catholic Children’s Bureau, it
is part of a tradition of caring for children in need that
stretches back even further, to the yellow fever outbreak of 1797. As an affiliate of the Catholic Church,
CSS sees caring for vulnerable children as a core value
of the Christian faith and therefore views its foster
care work as part of its religious mission and ministry.
When the Catholic Children’s Bureau was founded,
foster care was handled on a private basis, but over
the following century that changed. Today that care is
comprehensively regulated both by the Commonwealth of Pennsylvania and by the City of Philadelphia.
The Commonwealth, the City, and the private foster care agencies each play a role in the Philadelphia
foster care system. State regulations set the criteria
people or families must meet to become foster parents,
as well as the duties of both foster parents and foster
care agencies. See 55 Pa. Code § 3700.62 et seq. Those

13a
agencies then develop relationships with individual
foster families, which begin when a family approaches
an agency seeking to become foster parents. It must
evaluate the applicants under the Commonwealth’s
criteria to determine whether they would be suitable
candidates. See 23 Pa. Cons. Stat. § 6344(d); 55 Pa.
Code § 3700.64. One criterion concerns the “[e]xisting
family relationships, attitudes and expectations regarding the applicant’s own children and parent/child
relationship, especially as they might affect a foster
child.” 23 Pa. Cons. Stat. § 6344(d)(2)(iv); 55 Pa. Code
§ 3700.64(b)(1).
When a child in need of foster care comes into the
City’s custody, Human Services refers that child to one
of the foster care agencies with which it has a contractual relationship. Once the City refers a child to an
agency, that agency selects an appropriate foster parent for the child, although Human Services can oppose
a child’s placement with a particular foster parent if
necessary.
At the outset of this litigation, the City of Philadelphia had contracts with 30 foster care agencies, including CSS. These are one-year contracts renewed on an
annual basis. Agencies are compensated by the City
for their services; CSS’s contract provided for a per
diem rate for each child placed in one of its affiliated
foster homes. This payment did not cover its full expenses, meaning that CSS operated at a loss. The contract required it to certify its foster parents in accord
with state regulations, but did not otherwise impose
conditions on the certification process. It did, however,
include language prohibiting CSS from discriminating
due to race, color, religion, or national origin, and it
incorporated the City’s Fair Practices Ordinance,

14a
which in part prohibits sexual orientation discrimination in public accommodations.
This last requirement, and the parties’ differing
understandings of it, led to this controversy. CSS
takes the position that it cannot certify a same-sex
married couple as foster parents consistent with its religious views. As an affiliate of the Catholic Church,
CSS adheres to the belief that marriage is between a
man and a woman. It is not unwilling to work with
LGBTQ individuals as foster parents. However, state
regulations require it to consider an applicant’s “existing family relationships” as part of the certification
process. In applying this criterion, CSS will only certify foster parents who are either married or single; it
will not certify cohabitating unmarried couples, and it
considers all same-sex couples to be unmarried. So far
as the record reflects, no same-sex couples have approached CSS seeking to become foster parents.
On March 9, 2018, a reporter from the Philadelphia
Inquirer called Human Services and stated that two of
the City’s foster care agencies, CSS and Bethany
Christian Services, would not work with same-sex couples as foster parents. The Inquirer published an article to this effect on March 13, 2018. In response, the
Commissioner of Human Services, Cynthia Figueroa,
called officials at both CSS and Bethany Christian
asking if this report was true. Both organizations confirmed the report. James Amato, the Secretary of CSS,
told Commissioner Figueroa that his agency would not
certify same-sex couples because it was against the
Church’s views on marriage and, when told this was
discrimination, replied that he was merely following
the teachings of the Catholic Church. Commissioner
Figueroa then called a number of other foster care

15a
agencies asking whether they had similar policies;
none did. All but one of the other agencies Figueroa
called were religiously affiliated. As for the one secular
agency, she testified that she had a “good relationship”
with its CEO.
Shortly thereafter, Amato attended a meeting with
Figueroa in an unsuccessful attempt to resolve the impasse. At this meeting, Amato invoked CSS’s hundredyear history of providing services to the City. Figueroa
responded by noting that times had changed over the
course of that relationship, that women and AfricanAmericans did not have the same rights when it
started, and that she herself would likely not have
been in her position a century earlier. Figueroa, who
is Catholic and Jesuit-educated, also remarked to Amato that it would be great if CSS could follow the teachings of Pope Francis. Amato later testified that
Figueroa specifically stated that CSS should follow
Pope Francis as opposed to the Archdiocese of Philadelphia or its Archbishop Charles J. Chaput; Figueroa
denied mentioning anyone other than Pope Francis.
Figueroa also indicated to Amato that the matter had
the attention of the highest levels of City government,
by which she testified she meant herself, her chain of
command, and ultimately Mayor James Kenney. She
also testified that prior to this meeting she spoke
briefly with the Mayor; she told him that she was
working to address the issue and would brief him after
more decisions had been made.
Immediately after his meeting with Figueroa, Amato received a phone call from a representative of Human Services who informed him that it would no

16a
longer refer new foster children to CSS, a policy known
as an “intake freeze.” 2
Figueroa testified that she implemented the freeze
because of her serious concern that CSS’s relationship
with Human Services might end in the near future.
Given the preference for stability in placing foster care
children, she did not want to send any new children to
an agency they might well have to leave in a matter of
months. This was not the first time Human Services
had instituted an intake freeze out of a concern that it
might not be able to continue working with a given
agency. The freeze nonetheless did not affect children
already placed with CSS.
Nor did it affect other aspects of CSS’s relationship
with the City. Family foster care is only one component of Philadelphia’s framework for at-risk children.
The City also employs private agencies to operate “congregate care” facilities, or group homes, for children in
state custody who have not been assigned to a foster
family for one reason or another. And it partners with
“Community Umbrella Agencies” that work with children in the community to address problems in their
home environment that might prevent them from remaining at home. CSS operates as a congregate care
provider and a Community Umbrella Agency, and its
services in those capacities were not affected by the intake freeze or any subsequent developments in this
dispute pertaining to foster care. Indeed, in each unrelated area it continues working with the City to this
day.
This intake freeze also affected Bethany Christian, although,
as noted below, Bethany has since worked out an agreement
with the City and has resumed receiving foster care referrals.
2

17a
On several occasions Human Services granted exceptions to the intake freeze where there were particularly strong reasons why CSS would be the best
placement for an individual child—for example, if one
of that child’s siblings had already been placed with a
CSS family. It does not appear that any exemption requests were denied.
Meanwhile, on March 15, 2018, two days after the
Inquirer article, the City Council passed a resolution
authorizing the Philadelphia Commission on Human
Relations to “investigate Department of Human Services’ policies on contracting with social services agencies that * * * discriminate against prospective
LGBTQ foster parents.” The resolution stated that
“the City of Philadelphia has laws in place to protect
its people from discrimination that occurs under the
guise of religious freedom,” and declared that any
“agency which violates City contract rules in addition
to the Fair Practices Ordinance should have their contract with the City terminated with all deliberate
speed.” The following day (March 16), lawyers for the
Commission wrote to CSS with a battery of questions
regarding its policies about working with same-sex
couples or LGBTQ individuals. It responded on
April 16, 2018, challenging both the legal basis for
what it termed the “City’s unlawful suspension” of its
contract and the Commission’s jurisdiction over the
matter. Centrally, CSS argued that its screening of
would-be foster parents was not a public accommodation and hence not subject to the Fair Practices Ordinance.
Lawyers from the City wrote back separately on
the jurisdictional and substantive points on May 7,

18a
2018. As to substance, the City asserted that its contract with CSS had not been formally suspended, and
that it did not require any referrals to that agency.
Therefore the City could not possibly have breached
the contract by suspending referrals. The letter noted
several provisions of the contract that, it argued, forbade CSS’s policy of discrimination.
After setting out the City’s legal interpretation of
the contract, the letter stated its plan going forward:
Please also note that CSS’s current contract expires on June 30, 2018, and the City is under no
legal obligation to enter into a new contract for
any period thereafter. We are hopeful that we
can work out any differences before then, but
please be advised that—except where the best
interests of a child demands otherwise—the
City does not plan to agree to any further referrals to CSS, and the City intends to assist with
the transition of foster families to other agencies, absent assurances that CSS is prepared to
adhere to its contractual obligations and, in implementing its City contract, to comply with all
applicable laws, including those related to nondiscrimination. We believe our current contract
with CSS is quite clear that this is our right, but
please be advised that any further contracts
with CSS will be explicit in this regard.
The letter underscored “respect [for CSS’s] sincere
religious beliefs, but your freedom to express them is
not at issue here where you have chosen voluntarily to
partner with us in providing government-funded, secular social services.” It stressed the importance of
equality as “both a legal requirement, and an important City policy and value that must be embodied

19a
in our contractual relationships.” In addition, the City
reaffirmed that it did not want to see its “valuable relationship with CSS * * * come to an end,” but instead
hoped that CSS would agree to comply going forward
with the terms of the Fair Practices Ordinance.
As to jurisdiction, the City further asserted that
foster care is a public accommodation, triggering both
the Ordinance’s mandate and the Commission’s jurisdiction. The City requested a response to the questions
in its March 16 letter within 10 days and threatened
subpoenas if CSS did not comply. The latter responded
by filing this lawsuit, alleging 16 causes of action
against the City, Human Services, and the Human Relations Commission. Three individuals who had
worked with CSS as foster parents—Sharonell Fulton,
Cecilia Paul, 3 and Toni Lynn Simms-Busch—were
also listed as plaintiffs. 4 On June 5, 2018, plaintiffs
3 Ms. Paul died during the pendency of this action. She fostered
children for over 40 years, taking into her home more than 100
children, and personally adopting six. In 2015, the City of Philadelphia recognized her as the “Outstanding Foster Parent of the
Year.” Thomas Paul, adopted son of Ms. Paul, “believes he was
raised by a living saint.” Brief of Amici Curiae Former Foster
Children and Foster Parents and the Catholic Association Foundation at 4.

We have doubts whether the individual plaintiffs have standing
to bring this complaint, as the City took no direct action against
them. Any harms to the individual plaintiffs were the consequence of the City’s actions against CSS. See Kowalski v. Tesmer,
543 U.S. 125, 130 (2004) (party seeking to assert the rights of
others must show (1) a “close” relationship with the one who possesses the right, and (2) some “hindrance” to the possessor’s ability to assert its own rights). But the issue of standing was not
raised, and the limits on third- party standing are not a matter
of our constitutional jurisdiction under Article III but rather
“stem from a salutary ‘rule of self- restraint.’” Craig v. Boren, 429
4

20a
moved for a temporary restraining order and preliminary injunction. Their proposed order would have required the City to “resume providing foster care referrals to [CSS] and permitting children to be placed with
the foster families it has certified without delay,” to
“rescind its prior directive prohibiting any foster care
referrals to [CSS,] * * * to resume all dealings with [it]
on the same terms as they had proceeded prior to
March 2018,” and also to “resume and to continue operating under the current Contract, without breach,
termination, or expiration, or to enter into a new Contract identical in all material respects to the current
Contract, while this matter remains pending.” Doc.
#13-1 to Fulton et al. v. City of Philadelphia et al., No.
2:18-cv-02075- PBT (E.D. Pa. 2018). (As noted below,
that contractual arrangement has lapsed in any
event.)
The District Court promptly held a hearing on
plaintiffs’ motion for preliminary injunctive relief. The
hearing, which spanned three days, included testimony from plaintiffs Simms- Busch, Paul, and Fulton,
as well as from Amato, 5 Deputy Commissioner of Human Services Kimberly Ali, Commissioner Figueroa,
U.S. 190, 193 (1976) (quoting Barrows v. Jackson, 346 U.S. 249,
255 (1953)). In any event, the individual plaintiffs claim only that
the City violated the Constitution by taking action against CSS.
Hence we may safely analyze this case solely in terms of whether
CSS’s rights have been violated.
At the hearing, Amato mentioned a CSS policy of which the City
had been previously unaware, namely that CSS required wouldbe foster parents to submit a so-called “pastoral letter” from a religious figure (of any faith or denomination) certifying that they
were actively religious, regularly attended services, etc. The City
took issue with this policy, arguing that it violated both CSS’s
contract with the City and the Establishment Clause of the First
5

21a
and Frank Cervone, a child advocate who testified as
an expert witness. 6 (It was after this hearing that lawyers for the City informed the Court that it had resumed foster care operations with Bethany Christian
when the latter agreed to cease discriminating against
same-sex couples.)
The District Court denied the application for preliminary injunctive relief in a memorandum opinion,
and plaintiffs appealed the same day. They argue to us
that the District Court wrongly held that they were
not likely to succeed on the merits of their Free Exercise, Establishment Clause, and Freedom-of-Speech
claims, as well as under the Pennsylvania Religious
Freedom Protection Act. Plaintiffs asked the District
Court for injunctive relief pending appeal the following day, which it denied.
Plaintiffs—now appellants—also sought from our
Court emergency injunctive relief pending appeal under Federal Rule of Appellate Procedure 8. We denied
the motion by order.
Finally, appellants filed an emergency application
to the Supreme Court for an injunction pending appeal
Amendment to the federal Constitution. CSS then informed the
Court that, while it did not believe the “pastoral letter” requirement violated any applicable laws, it would abandon that requirement going forward “in order to eliminate any potential issue regarding how the parties would operate under a preliminary injunction.”
6 Plaintiffs contested the propriety of Cervone’s testimony, as he
had signed legal papers in the case on behalf of the Center for
Child Advocates, an organization seeking to intervene in the case
(ultimately successfully), and Cervone had not yet withdrawn
that appearance. In any event his testimony is not important to
the issues on appeal.

22a
or an immediate grant of certiorari. Justice Alito referred the application to the full Court, which denied
it. Fulton v. City of Philadelphia, No. 18A-118, 2018
WL 4139298 (U.S. Aug. 30, 2018).
II. Jurisdiction and Standard of Review
The District Court had jurisdiction under 28 U.S.C.
§ 1331.Our jurisdiction to review the District Court’s
denial of a preliminary injunction stems from 28
U.S.C. § 1292(a)(1).
Ordinarily, when reviewing a district court’s ruling
on a motion for preliminary injunctive relief, we review findings of fact for clear error, conclusions of law
de novo, and the ultimate decision to grant or deny
preliminary relief for abuse of discretion. Reilly v. City
of Harrisburg, 858 F.3d 173, 176 (3d Cir. 2017). Because this case implicates First Amendment interests,
however, we do not rely on the normal clear-error
standard for factual review, but instead conduct an independent examination of the record as a whole.
Brown v. City of Pittsburgh, 586 F.3d 263, 268–69 (3d
Cir. 2009). Thus we defer to the District Court’s factual findings only insofar as they concern witness
credibility. Tenafly Eruv Ass’n, Inc. v. Borough of
Tenafly, 309 F.3d 144, 156–57 (3d Cir. 2002).
When evaluating a motion for preliminary injunctive relief, a court considers four factors: (1) has the
moving party established a reasonable likelihood of
success on the merits (which need not be more likely
than not); (2) is the movant more likely than not to
suffer irreparable harm in the absence of preliminary
relief; (3) does the balance of equities tip in its favor;
and (4) is an injunction in the public interest? Winter
v. Natural Res. Def. Council, Inc., 555 U.S. 7, 20

23a
(2008); Reilly, 858 F.3d at 179. If a plaintiff meets the
first two requirements, the District Court determines
in its sound discretion whether all four factors, taken
together, balance in favor of granting the relief sought.
Id.
III.Discussion
A. The Free Exercise Clause
CSS principally contends that the City’s actions violated its rights under the Free Exercise Clause. The
First Amendment provides that “Congress shall make
no law respecting an establishment of religion, or prohibiting the free exercise thereof.” This prohibition applies to the States through the Fourteenth Amendment. See Cantwell v. Connecticut, 310 U.S. 296, 303
(1940). Per Employment Division v. Smith, 494 U.S.
872, 877 (1990), the Free Exercise Clause “means, first
and foremost, the right to believe and profess whatever religious doctrine one desires.”
Thus, the First Amendment obviously excludes
all governmental regulation of religious beliefs
as such. The government may not compel affirmation of religious belief, punish the expression
of doctrines it believes to be false, impose special disabilities on the basis of religious views of
religious status, or lend its power to one or the
other side in controversies over religious authority or dogma.
Id. (internal citations and question marks omitted)
(emphasis in original). Likewise, it forbids government
acts specifically designed to suppress religiously motivated practices or conduct. Id. at 877–78.

24a
The Free Exercise Clause does not, however, “relieve an individual of the obligation to comply with a
‘valid and neutral law of general applicability on the
ground that the law proscribes (or prescribes) conduct
that his religion prescribes (or proscribes).’” Id. at 879
(quoting United States v. Lee, 455 U.S. 252, 263 n.3
(1982) (Stevens, J., concurring in the judgment)). As
Justice Felix Frankfurter stated nearly eighty years
ago, “[c]onscientious scruples have not, in the course
of the long struggle for religious toleration, relieved
the individual from obedience to a general law not
aimed at the promotion or restriction of religious beliefs.” Id. at 879 (quoting Minersville Sch. Dist. Bd. of
Educ. v. Gobitis, 310 U.S. 586, 594–95 (1940) (Frankfurter, J.)). Among other things, this means that religious or conscientious objections do not supersede the
basic obligation to comply with generally applicable
civil rights laws provided those laws are applied neutrally. See Masterpiece Cakeshop, Ltd. v. Colo. Civil
Rights Comm’n, 138 S. Ct. 1719, 1727 (2018) (“Nevertheless, while * * * religious and philosophical objections [to same-sex marriage] are protected, it is a general rule that such objections do not allow business
owners and other actors in the economy and in society
to deny protected persons equal access to goods and
services under a neutral and generally applicable public accommodations law.”); see also Christian Legal
Soc'y Chapter of the Univ. of Cal., Hastings Coll. of the
Law v. Martinez, 561 U.S. 661, 694 n.24 (2010) (observing that, under Smith, the Free Exercise Clause
did not require public law school to grant religious exemption to its “all-comers” policy forbidding discrimination by student organizations).

25a
CSS contends that the City’s enforcement of its
laws and policies was neither neutral nor generally applicable. It first argues that the City’s reliance on the
Fair Practices Ordinance, which prohibits discrimination on the basis of sexual orientation in public accommodations, is misplaced because evaluating prospective foster parents is not a public accommodation. 7 The
District Court disagreed and held that the Ordinance
did apply to CSS. We need not address this issue, however, as the contract between CSS and the City expired
on June 30, 2018. As a result, requiring the City to
comply with the terms of that agreement is now moot.
What remains is whether it may insist on the inclusion
of new, explicit language forbidding discrimination on
the ground of sexual orientation as a condition of contract renewal, or whether it must offer CSS a new contract that allows it to continue engaging in its current
course of conduct. 8
7 CSS makes a similar argument toward what it calls the City’s
“must-certify” policy, which it claims was the second basis for the
City’s actions in addition to the Fair Practices Ordinance. CSS
asserts that the City had never enforced such a policy before this
dispute. The City, meanwhile, disclaims the policy’s existence,
and says that it was solely enforcing its longstanding rules
against discrimination. But as noted above, because the existing
contract between CSS and the City has expired, we need not address whether any “must-certify” policy was a sufficiently neutral, general rule to support the City’s actions. (See below for a
fuller discussion of the dispute over the “must-certify” policy as it
relates to the City’s motivation.).

It should be noted that the remedy CSS seeks—an injunction
forcing the City to renew a public services contract with a particular private party—would be highly unusual. CSS cites several
affirmative action cases where courts granted equitable relief to
government contractors, such as Adarand Constructors, Inc. v.
Pena, 515 U.S. 200 (1995). But the injunctions in those cases
8

26a
To support its claim that the City’s proposed antidiscrimination clause is not permissible under Smith,
CSS invokes cases where courts have found ostensibly
neutral government action unconstitutional because it
was motivated by ill will toward a specific religious
group or otherwise impermissibly targeted religious
conduct. See, e.g., Masterpiece Cakeshop, 138 S. Ct.
1719; Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520 (1993). These cases, and similar
decisions by our Court, clarify Smith by reaffirming
that the government may not conceal an impermissible attack on religion behind a cloak of neutrality and
general application. Thus, a challenger under the Free
Exercise Clause must show that it was treated differently because of its religion. Put another way, it must
show that it was treated more harshly than the government would have treated someone who engaged in
the same conduct but held different religious views.
The focus on different treatment of religious and
secular conduct is clear in Lukumi, the font of this doctrine. There the City of Hialeah, Florida had adopted
an ordinance prohibiting the slaughtering of animals
except in certain recognized circumstances. The history of the law’s adoption made plain, however, that
this was no earnest piece of animal welfare legislation
but rather an attempt to suppress the practice of Santeria, a fusion of traditional African religion and Catholicism that developed in Cuba in the Nineteenth
merely forbade government entities from enforcing their express
affirmative action policies going forward. See id. at 210. We have
some doubt, therefore, that CSS could be entitled to the relief it
seeks. We do not rest our decision on that ground, however, as it
involves novel and complex questions of remedies law, and instead address the merits of CSS’s claims.

27a
Century and incorporates animal sacrifice in many of
its rituals. Lukumi, 508 U.S. at 524. The emergency
sessions that led to the ordinance, held immediately
after a Santeria church first tried to open in town,
were rife with unrestrained hostility. Council members referred to supposed Biblical prohibitions on animal sacrifice except for consumption and asked “What
can we do to prevent the Church from opening?” Id. at
541. The audience cheered these remarks and taunted
the president of the Church, plus the chaplain of the
city police department called Santeria “an abomination to the Lord.” Id. at 541-42.
Moreover, the ordinance itself, though ostensibly
concerned with animal welfare, plainly reflected this
hostility. Its restriction on animal killing was limited
to “sacrifice,” and was further limited to the context of
“a public or private ritual or ceremony.” Id. at 527. Although it did not apply if the killing was “for the primary purpose of food consumption,” or if the animals
were “specifically raised for food purposes,” the ordinance did apply to ritual sacrifice even if the animal
was eaten during the ritual, as would often happen in
Santeria rituals. Id. at 527–28. As the Court noted, the
“net result” of these definitions was that “few if any
killings of animals are proscribed other than Santeria
sacrifice. . . . Indeed, careful drafting ensured that, although Santeria sacrifice is prohibited, killings that are
no more necessary or humane in almost all other circumstances are unpunished.” Id. at 536. This “gerrymander” of the ordinance, id., along with the striking
hostility at the public meetings, left the Court with
only “one conclusion: The ordinances had as their object the suppression of religion.” Id. at 542.

28a
Masterpiece Cakeshop featured similar demonstrations of religious animosity and differing treatment of
religious conduct. 9 Denver baker Jack Phillips refused
to make a cake for a gay couple’s wedding reception,
citing his religious conviction that marriage is only the
union of a man and a woman. Phillips believed that,
were he “to create a wedding cake for an event that
celebrates something that directly goes against the
teachings of the Bible, [it] would have been a personal
endorsement and participation in the ceremony and
relationship that they were entering into.” Masterpiece
Cakeshop, 138 S. Ct. at 1724. The couple sued under
Colorado’s public accommodations statute. The case
was referred to the state’s Civil Rights Commission,
which concluded that Phillips had engaged in prohibited discrimination and that neither Phillips’s religious free exercise nor his free speech rights were violated by applying this anti- discrimination law to him.
The Supreme Court ultimately reversed; while Colorado generally had the right to enforce its civil rights
laws against Phillips, it was bound under the First
Amendment to afford him a “neutral and respectful
consideration.” Id. at 1729. Instead, the Commission
expressed open hostility toward Phillips and his religion and treated him differently from others similarly
situated because of that religion. The Court noted ambiguous expressions from commissioners that could be
taken either as reflecting resentment toward Phillips’s
religious views or simply the uncontroversial principle
that “a business cannot refuse to provide services
Unlike Lukumi, where the impermissible hostility toward Santeria was apparent during the adoption of the animal sacrifice
ordinance, in Masterpiece it came out in the conduct of the officials charged with executing the law.

9

29a
based on sexual orientation, regardless of” those
views. Id. (“One commissioner suggested that Phillips
can believe ‘what he wants to believe,’ but cannot act
on his religious beliefs ‘if he decides to do business in
the state.’ A few moments later, the commissioner restated the same position: ‘If a businessman wants to
do business in the state and he’s got an issue with
the—the law’s impacting his personal belief system,
he needs to look at being able to compromise.’”) (internal citations omitted).
These ambiguous statements were more sinister,
however, in the context of another commissioner’s naked hostility toward religion.
Freedom of religion and religion ha[ve] been
used to justify all kinds of discrimination
throughout history, whether it be slavery,
whether it be the Holocaust, whether it be—I
mean, we—we can list hundreds of situations
where freedom of religion has been used to justify discrimination. And to me it is one of the
most despicable pieces of rhetoric that people
can use to—to use their religion to hurt others.
Id. This, the Court noted, disparaged Phillips’s religion “in at least two distinct ways: by describing it as
despicable, and also by characterizing it as merely rhetorical—something insubstantial and even insincere.”
Id. By calling religion the “most despicable” way to justify hurting others, the comment also suggested that
the commissioner thought Phillips’s actions were
worse specifically because of their religious character.
The inference that Phillips was treated worse because of his religion was bolstered by the Commission’s different treatment of other bakers who refused

30a
to bake cakes bearing homophobic expressions. The
state Civil Rights Division found that these actions did
not violate the state’s civil rights laws because the requested message was offensive in nature. Id. at 1730–
31. Thus it appeared that the state had “treated the
other bakers’ conscience-based objections as legitimate, but [Phillips’s] as illegitimate—thus sitting in
judgment of his religious beliefs themselves.” Id. at
1730.
Our Court’s Free Exercise Clause jurisprudence in
the wake of Smith and Lukumi likewise asks whether
challengers have been treated worse than others who
engaged in similar conduct because of their religious
character. For example, in Fraternal Order of Police
Newark Lodge No. 12 v. City of Newark, 170 F.3d 359
(3d Cir. 1999), we held unconstitutional the Newark
Police Department’s policy that officers could not have
facial hair. The Department had granted exceptions to
this policy due to medical need, but would not grant
similar exceptions to Sunni Muslims whose religion
forbade them to shave their beards. Id. at 360. This
was “sufficiently suggestive of discriminatory intent * * * to trigger heightened scrutiny[,]” id. at 365,
which the policy could not survive.
Similarly in Tenafly Eruv Association v. Borough of
Tenafly, 309 F.3d 144 (3d Cir. 2002), the Borough of
Tenafly had on its books an ordinance prohibiting the
affixing of “any sign or advertisement, or other matter
upon,” among other things, telephone poles. Id. at 151.
In practice, this ordinance was almost never enforced,
and it was common to see house number signs, lost animal signs, commemorative ribbons, holiday displays,
wreaths, and various other fixtures on the town’s telephone poles. But when Orthodox Jewish residents

31a
sought to erect an eruv by placing lechis on utility
poles, 10 the Borough refused to grant them a similar
exemption and sought to enforce the ordinance. We
held that the Borough thereby violated the Free Exercise Clause. Although the ordinance itself was general
and neutral, such that Smith might apply, it had not
been enforced evenhandedly. Instead, the Borough
had an apparent practice of granting ad hoc exceptions
but refused to make one for the Orthodox Jews’ religious practice. This system of discretionary exemptions called for strict scrutiny (meaning they must be
justified by a compelling government interest and narrowly tailored to achieve that compelling interest), and
the Borough’s actions could not survive.
These cases have in common that religiously motivated conduct was treated worse than otherwise similar conduct with secular motives. The ordinance in
Lukumi was pretzeled to prohibit only Santeria ritual
sacrifices and no other animal killings, even those no
more humane or necessary. In Fraternal Order of Police the City of Newark granted exemptions to its facial
hair policy for medical reasons but not for religious
ones. In Tenafly an ordinance virtually never enforced
was exacted exclusively on the religious practice of Orthodox Jews. And in Masterpiece the comments of
Commission members, along with the disparate treatment of other bakers’ secular claims of conscience,
An eruv is a ceremonially created space outside of the home
wherein Orthodox Jews may engage in the otherwise proscribed
activities of pushing and carrying objects on the Sabbath. This
can be done by placing lechis, thin black strips made of hard plastic and nearly identical to the coverings on ordinary ground wires,
on utility poles to mark the boundaries of the eruv. 309 F.3d at
152.

10

32a
raised suspicion that Phillips had been treated more
harshly because the Commission found his religious
views offensive.
The question in our case, then, is whether CSS was
treated differently because of its religious beliefs. Put
another way, was the City appropriately neutral, or
did it treat CSS worse than it would have treated another organization that did not work with same-sex
couples as foster parents but had different religious
beliefs? Based on the record before us, that question
has a clear answer: no. The City has acted only to enforce its non-discrimination policy in the face of what
it considers a clear violation.
As evidence that the City acted out of religious hostility, CSS first points to the City Council’s resolution
authorizing the Commission on Human Relations’ inquiry, which stated that “Philadelphia has laws in
place to protect its people from discrimination that occurs under the guise of religious freedom.” But this
comment falls into the grey zone identified by the Supreme Court in Masterpiece—a remark that could express contempt for religion or could merely state the
well- established legal principle that religious belief
will not excuse compliance with general civil rights
laws. Unlike the commissioner in Masterpiece who
suggested that religious justifications for discrimination are merely rhetorical, here City officials repeatedly emphasized that they respected CSS’s beliefs as
sincere and deeply held. The Commission’s May 7,
2018 letter, for instance, stated that “[w]e respect your
sincere religious beliefs, but your freedom to express
them is not at issue here where you have chosen voluntarily to partner with us in providing government-

33a
funded, secular social services.” This is the kind of respectful consideration found lacking in Masterpiece,
and nowhere in the record did the City depart from
this respectful posture.
CSS next points to Commissioner Figueroa’s statements during her meeting with Amato that “it would
be great if we could follow the teachings of Pope Francis.” Taken out of context, some might think this remark improper, as it has clear religious overtones. But
context is important: the comment was made during a
negotiation attempting to find a mutually agreeable
solution to this controversy. In that light, Figueroa’s
statement is best viewed as an effort to reach common
ground with Amato by appealing to an authority
within their shared religious tradition. The First
Amendment does not prohibit government officials
working with religious organizations in this kind of
partnership from speaking those organizations’ language and making arguments they may find compelling from within their own faith’s perspective. And
though these attempts to persuade CSS were ultimately unsuccessful, the record does not suggest that
the City then sought to punish it for this disagreement.
CSS also argues that Commissioner Figueroa’s decision to call mostly religious foster care agencies to
ask if they had a similar policy is evidence that the
City impermissibly targeted religion. But focusing her
inquiries on religious agencies made sense: the only
agencies Figueroa knew that refused to work with
same-sex couples—CSS and Bethany Christian—did
so for religious reasons. She had little reason to think
that nonreligious agencies might have a similar policy.

34a
In fact, no other religious agency besides the two mentioned by the reporter had this policy, and Figueroa
did call one secular agency as well.
Finally, CSS points to several public statements
(the most recent of which occurred in 2015) made by
Mayor Kenney critical of the Archdiocese of Philadelphia and of Archbishop Chaput. No doubt the Mayor
expressed concerns toward the local Catholic Church,
with a particular focus on the Church’s stance on gay
rights. But CSS’s claim that he “prompted” Human
Services’ 2018 inquiry in this case misstates the record. Figueroa testified that she discussed the issue
with the Mayor prior to meeting with Amato and told
the Mayor she would brief him once a decision had
been made. There is nothing in the record before us
suggesting that he played a direct role, or even a significant role, in the process.
The evidence CSS offers of religious bias or hostility appears significantly less than what was present in
Lukumi or even in Masterpiece. Nor is there much to
suggest that the City treated CSS differently because
of its religion. It argues that it has been subject to selective enforcement, akin to that in Tenafly and Fraternal Order of Police, because the City adopted what
CSS sees as novel legal arguments invented during
this controversy to justify its actions against CSS.
First, it claims that the City had never previously
taken the position that the Fair Practices Ordinance
applies to the screening of foster parents. But nothing
before us suggests that the City took this position disingenuously or as a pretext for persecuting CSS. Its
interpretation of the Ordinance, with which the District Court agreed, was hardly frivolous. Nor is it suspicious that the City had never previously taken this

35a
position: the record contains no evidence of any foster
care agencies discriminating in ways that would violate the Fair Practices Ordinance prior to this controversy. The issue simply seems not to have come up previously.
Second, CSS argues that the City created what
CSS calls a “must-certify policy” as a justification for
the actions against it. The City’s position, according to
CSS, is that foster agencies must at least evaluate any
applicants who come to them seeking to become foster
parents rather than referring them to a different
agency—although agencies would retain their discretion whether to certify an applicant as fit after evaluation. CSS perceives that the City would object to any
referral, and it argues that this was a novel position
adopted during this controversy. Amato testified that
referrals from one agency to another are a routine way
of finding the best fit for a given applicant. But the
record here is unclear, both as to the City’s current position and as to its policy prior to this case. The former
is not necessarily an objection to any referrals at all so
much as an objection to referrals made for an improper
basis, i.e., that the referring agency refuses to work
with members of a protected class. As to the latter, the
referrals Amato described may have only involved an
agency suggesting that a family might prefer a different agency rather than refusing to work with a particular applicant outright. It would be consistent for the
City to insist that, while agencies are free to inform
applicants if they believe a different agency would be
a better fit, they must leave the ultimate decision up
to the applicants. In any case, this dispute does not indicate improper religious hostility on the City’s part,
only a routine regulatory disagreement.

36a
Third, CSS argues that the City has acted inconsistently because Human Services will consider factors
such as race or disability when placing foster children
with foster parents. But there are many differences between CSS’s behavior and the City’s consideration of
race or disability when placing a foster child. Most significantly, unlike CSS, Human Services never refuses
to work with individuals because of their membership
in a protected class. Instead it seeks to find the best fit
for each child, taking the whole of that child’s life and
circumstances into account. 11 And there is no instance
in the record of Human Services knowingly permitting
any other foster agency to discriminate against members of a protected class.
In sum, at the preliminary injunction stage CSS
shows insufficient evidence that the City violated the
Free Exercise Clause. The Fair Practices Ordinance
has not been gerrymandered as in Lukumi, and there
is no history of ignoring widespread secular violations
as in Tenafly or the kind of animosity against religion
found in Masterpiece. Here the City has been working
with CSS for many decades fully aware of its religious
character. It continues to work with CSS as a congregate care provider and as a Community Umbrella
Agency even to this day despite CSS’s religious views
regarding marriage. And the City has expressed a constant desire to renew its relationship with CSS as a

The issue of race in foster care and adoption is notoriously
thorny and complex, and is the subject of considerable scholarly
literature. See, e.g., PACT: An Adoption Alliance, Biracial, Multiracial, Interracial Identity in Adoption (accessed March 11,
2019), http://www.pactadopt.org/resources/biracial-multiracialadoption-identity.html (collecting scholarly articles).
11

37a
foster care agency if it will comply with the City’s nondiscrimination policies protecting same-sex couples.
CSS sees the City’s non-discrimination policy as a
pretext to exclude it from public life because of its religious character, and invokes Trinity Lutheran
Church of Columbia v. Comer, 137 S. Ct. 2012 (2017),
in which the Supreme Court held unconstitutional
rules excluding religious organizations from a public
grant program. CSS’s counsel at oral argument described the proposed contract language expressly forbidding discrimination on the basis of orientation as a
“poison pill.” Tr. of Oral Arg. at 61. CSS likewise states
in its brief that “[t]he City thus proposes to change its
foster care contract specifically to prohibit [CSS’s] religious exercise.” Appellant’s Reply Br. at 3. But it can
point to no specific evidence demonstrating that the
City acted other than out of a sincere commitment to
equality and non-discrimination.
CSS’s theme devolves to this: the City is targeting
CSS because it discriminates against same-sex couples; CSS is discriminating against same-sex couples
because of its religious beliefs; therefore the City is
targeting CSS for its religious beliefs. But this syllogism is as flawed as it is dangerous. It runs directly
counter to the premise of Smith that, while religious
belief is always protected, religiously motivated conduct enjoys no special protections or exemption from
general, neutrally applied legal requirements. That
CSS’s conduct springs from sincerely held and
strongly felt religious beliefs does not imply that the
City’s desire to regulate that conduct springs from antipathy to those beliefs. If all comment on religiously
motivated conduct by those enforcing neutral, gener-

38a
ally applicable laws against discrimination is construed as ill will against the religious belief itself, then
Smith is a dead letter, and the nation’s civil rights
laws might be as well. As the Intervenors rightly state,
the “fact that CSS’s non- compliance with the City’s
non-discrimination requirements is based on its religious beliefs does not mean that the City’s enforcement of its requirements constitutes anti-religious
hostility.” Intervenor’s Br. at 22.
We thus believe the District Court did not abuse its
discretion in finding that CSS has failed to demonstrate a sufficient likelihood of success on the merits
of its Free Exercise Clause claim.
B. The Establishment Clause
CSS argues that the City’s actions violated not only
the First Amendment’s Free Exercise Clause but also
its Establishment Clause. “The clearest command of
the * * * [Establishment] Clause is that one religious
denomination cannot be officially preferred over another.” Larson v. Valente, 456 U.S. 228, 244 (1982). In
this case, the two Religion Clauses largely run together: insofar as CSS alleges that it has been blacklisted for its religious beliefs, it is alleging both a Free
Exercise violation (persecution for its religious views)
and an Establishment Clause violation (the City declaring some religious viewpoints favored and others
disfavored).
Insofar as the Establishment claim here is analytically independent of the Free Exercise claim, CSS
contends the City has dictated its preferred religious
viewpoint—that religious institutions should recognize the marriage of same-sex couples—and has conditioned CSS’s future contract on adherence to that

39a
perspective. See, e.g., Lee v. Weisman, 505 U.S. 577,
588 (1992) (prayer at public high school graduation violated the First Amendment, in part because the government not only chose the clergyman but imposed
guidelines on the composition of his prayer). To support this claim it focuses primarily on Commissioner
Figueroa’s statement in her meeting with Amato that
“it would be great if we could follow the teachings of
Pope Francis.” CSS sees this as the City telling it
which religious leaders to follow and how to interpret
their teachings, and then “punishing” it when it refused to comply. See Appellant’s Br. at 38–40.
If the City truly were punishing CSS for refusing
to adopt its preferred view of Catholic teaching, no
doubt that would be an impermissible establishment
of religion. But that is not what happened here. Human Services still works with CSS as a congregate
care provider and a Community Umbrella Agency. It
still works with Bethany Christian as a foster care
agency, even though Bethany also maintains its religious opposition to same-sex marriage. This supports
the view that CSS is not being excluded due to its religious beliefs. Indeed, the City has maintained its
other relationships with CSS and has merely insisted
that, if CSS wants to continue providing foster care, it
must abide by the City’s non-discrimination policy in
doing so. There is simply no evidence that this is a
veiled attempt to coerce or impose certain religious beliefs on CSS.
The District Court thus did not abuse its discretion
in finding that CSS has not shown a likelihood of success on the merits of its Establishment Clause claim.

40a
C. Freedom of Speech
In addition to its claims under the First Amendment’s Religion Clauses, CSS also claims that the City
has violated its freedom-of-speech rights in two different ways: by compelling it to speak in ways it finds
disagreeable and by retaliating against it for engaging
in protected speech.
i. Compelled Speech
For over 70 years it has been axiomatic that the
Free Speech Clause also protects the right not to
speak. See W. Va. Bd. of Educ. v. Barnette, 319 U.S.
624, 634 (1943) (“To sustain the compulsory flag salute
we are required to say that a Bill of Rights which
guards the individual’s right to speak his own mind,
left it open to public authorities to compel him to utter
what is not in his mind.”). CSS claims it has been compelled to speak because Pennsylvania law imposes a
requirement that, after evaluating prospective foster
parents, an agency must “give written notice to foster
families of its decision to approve, disapprove or provisionally approve the foster family.” 55 Pa. Code §
3700.69. Because the City forbids CSS from finding an
applicant unqualified for a “discriminatory reason,” including their sexual orientation or same-sex relationship, it is therefore forcing CSS “to make written endorsements that violate its sincere religious beliefs.”
Appellant’s Br. at 53.
The problem with this argument is that the ostensibly compelled speech occurs in the context of CSS’s
performance of a public service pursuant to a contract
with the government. In Rust v. Sullivan, 500 U.S. 173
(1991), the Supreme Court upheld conditions on gov-

41a
ernment grants under Title X of the Public Health Service Act preventing grant programs from providing to
their patients not only abortion services but also counseling or information about abortion. Id. at 193–200.
The Court held that this was not an impermissible restriction on speech or viewpoint discrimination because the government is free to fund only those programs that comport with its own view on matters such
as abortion.
Agency for International Development v. Alliance
for Open Society International, 570 U.S. 205 (2013)
(“AOSI”), clarified this rule by holding that, while the
government may place conditions on the use of public
grant monies, it may not require grant recipients to
adopt the government’s views as their own. Thus, the
requirement that organizations receiving money to
combat HIV/AIDS not use that money “to promote or
advocate the legalization or practice of prostitution or
sex trafficking,” 22 U.S.C. § 7631(e), was acceptable
under Rust. But the rule that no funds could be used
by any organization “that does not have a policy explicitly opposing prostitution and sex trafficking,” id.
§ 7631(f) (emphasis added), unconstitutionally compelled speech. It did not simply tell grant recipients
how to use the government’s money, but required
them to affirm their own agreement with the government’s policy—not unlike the requirement in Barnette
that schoolchildren recite the Pledge of Allegiance.
CSS argues that it has been required to adopt the
City’s views about same-sex marriage and to affirm
these views in its evaluations of prospective foster parents, and that this violates the rule of AOSI. It contends that the speech in question is beyond the scope
of its contract with the City because the requirement

42a
of performing evaluations comes from state law rather
than from the contract itself, and because the compensation formula in the contract is not tied to the number
of evaluations performed. We disagree. The speech
here only occurs because CSS has chosen to partner
with the government to help provide what is essentially a public service. The exact allocation of responsibility between the Commonwealth and the City, or
the funding structure in the contract, does not change
that. Neither Rust nor AOSI, nor any other relevant
precedent, focused on the precise funding structure of
the government contracts at issue. Instead, the cases
focus on whether the condition pertains to the program receiving government money, as the City’s nondiscrimination requirements do here.
The City would violate AOSI if it refused to contract with CSS unless it officially proclaimed its support for same- sex marriage. But to the contrary, the
City is willing to work with organizations that do not
approve of gay marriage, as its continued relationship
with Bethany Christian, its continued relationship
with CSS in its other capacities, and its willingness to
resume working with CSS as a foster care agency attest. It simply insists that CSS abide by public rules of
non- discrimination in the performance of its public
function under any foster-care contract. Therefore
CSS’s compelled speech claim does not at this time
have a reasonable likelihood of success, and the District Court did not abuse its discretion in so holding.
ii. Speech Retaliation
To prevail on a speech retaliation claim, a plaintiff
must show that it engaged in constitutionally protected activity, that the government responded with
retaliation, and that the protected activity caused the

43a
retaliation. See Eichenlaub v. Township of Indiana,
385 F.3d 274, 282 (3d Cir. 2004). This rule is a
straightforward application of the First Amendment’s
basic command that the government may not punish
those who utter protected speech. Where the plaintiff
is a government employee, additional considerations
come into play, and the plaintiff’s speech is only protected if it occurred in his or her capacity as a citizen
rather than as a public employee. See Garcetti v. Ceballos, 547 U.S. 410, 421 (2006).
CSS argues that it provides foster care services as
a religious ministry protected by the First Amendment
and that it “engages in protected speech when it evaluates families” as potential foster parents. Id. It also
asserts retaliation against it for statements made to
the Inquirer, and for its subsequent statements to Human Services confirming that it would not work with
same-sex couples as foster parents.
This claim is unlikely to succeed because the City’s
actions were regulatory rather than retaliatory in nature. The speech retaliation doctrine is implicated
where the government has taken some action against
an individual ostensibly unrelated to that individual’s
protected speech yet motivated by a desire to retaliate.
See, e.g., Eichenlaub, 385 F.3d at 282– 85 (approving
retaliation claim alleging that the Township denied
building permit applications to punish a landowner’s
speech at a public meeting). Here, on the contrary, the
City has directly regulated the very conduct CSS
claims is constitutionally protected: its refusal to evaluate or work with same-sex couples. Thus the City has
“retaliated” against CSS only in the same way enforcement of any government regulation “retaliates”
against those who violate it.

44a
Insofar as CSS claims it was subject to retaliation
for its statements to the Inquirer and to Human Services confirming that it engages in the discriminatory
conduct to which the City objects, this too cannot support a valid retaliation claim. We do not read the City’s
actions as punishing CSS for those statements rather
than for the discriminatory conduct itself. Once again,
the District Court did not abuse its discretion in ruling
that CSS has failed to establish a reasonable likelihood of success on its speech retaliation claim.
D. The Pennsylvania Religious Freedom Protection Act
CSS’s final claim is under the Pennsylvania Religious Freedom Protection Act (RFPA), 71 Pa. Stat.
Ann. § 2401 et seq. Similar in some ways to the federal
Religious Freedom Restoration Act, 42 U.S.C.
§ 2000bb et seq., the RFPA generally provides that “an
agency shall not substantially burden a person’s free
exercise of religion, including any burden which results from a rule of general applicability.” It may do so,
however, if it proves by a preponderance of the evidence that the burden both is “(1) [i]n furtherance of a
compelling interest of the agency” and is “(2) [t]he
least restrictive means of furthering the compelling interest.” 71 Pa. Stat. Ann. § 2404. “Substantially burden” is defined as an action that does any of the following:
(1) Significantly constrains or inhibits conduct
or expression mandated by a person’s sincerely
held religious beliefs[;]
(2) Significantly curtails a person’s ability to express adherence to the person’s religious faith[;]

45a
(3) Denies a person a reasonable opportunity to
engage in activities which are fundamental to
the person’s religion[;]
(4) Compels conduct or expression which violates a specific tenet of a person’s religious faith.
Id. § 2403. CSS argues that all four forms of substantial burden exist here. Its argument as to each prong
ultimately rests on this: CSS’s foster care work is part
of its religious ministry, its religious convictions prevent it from “endorsing” same-sex marriage, and under the City’s policies it may not engage in its foster
care ministry while abiding by its convictions. Thus,
CSS must choose either endorsing a viewpoint that violates the tenets of its faith or ceasing its religious
ministry of providing foster care.
Pennsylvania courts applying the RFPA scrutinize
claims of religious burden to see whether the burdened
activity is truly “fundamental to the person’s religion.”
See, e.g., Commonwealth v. Parente, 956 A.2d 1065,
1074 (Pa. Commw. Ct. 2008)(“Parente never testified
that his activities * * * constitute ‘activities which are
fundamental to his religion’ * * *. Rather, at best,
Parente’s testimony merely establishes that he engaged in these activities based upon his religious beliefs or that they flowed from a religious mission.”). 12

This is different than the federal Religious Freedom Restoration Act and Supreme Court jurisprudence, which does not delve
into investigating a person’s religious beliefs. See, e.g., Burwell v.
Hobby Lobby Stores, Inc., 573 U.S. 682, 724 (2014) (“Arrogating
the authority to provide a binding national answer to this religious and philosophical question, HHS and the principal dissent
in effect tell the plaintiffs that their beliefs are flawed. For good
reason, we have repeatedly refused to take such a step.”).
12

46a
In Ridley Park United Methodist Church v. Zoning
Hearing Board Ridley Park Borough, 920 A.2d 953
(Pa. Commw. Ct. 2007), for instance, the Pennsylvania
Commonwealth Court held that a church was not entitled to a RFPA exemption from a local zoning code in
order to operate a daycare center on its property.
While the daycare center “aided in carrying out the
Church’s religious mission,” it was not a “fundamental
religious activity of a church.” Id. at 960. By analogy,
“ministering to the sick can flow from a religious mission, but it is not a fundamental religious activity of a
church because a hospital may be built to satisfy that
mission.” Id. Thus it appears that Pennsylvania courts
consider an activity “fundamental to a person’s religion” if it is an inherently religious activity as opposed
to something that could be done either by a religious
person or group or by a secular one. The parallel here
is direct: caring for vulnerable children can flow from
a religious mission, but it is not an intrinsically religious activity under Pennsylvania law.
It thus seems unlikely that the Pennsylvania
courts would recognize a substantial burden on CSS’s
exercise of religion in this case. We have noted before,
however, that this facet of RFPA jurisprudence “appears to create some tension between state and federal
law,” as the “Supreme Court has cautioned against
making religious interpretations in the First Amendment context.” Combs v. Homer-Center Sch. Dist., 540
F.3d 231, 258 (3d Cir. 2008) (Scirica, J., concurring);
see also Smith, 494 U.S. at 886–87 (“It is no more appropriate for judges to determine the ‘centrality’ of religious beliefs * * * in the free exercise field * * * than
it would be for them to determine the ‘importance’ of
ideas * * * in the free speech field.”).

47a
Thus we make clear that even if we were to assume
there is a substantial burden here, CSS is not likely to
prevail on its RFPA claim because the City’s actions
are the least restrictive means of furthering a compelling government interest. It is black-letter law that
“eradicating discrimination” is a compelling interest.
See Roberts v. U.S. Jaycees, 468 U.S. 609, 623 (1984).
And mandating compliance is the least restrictive
means of pursuing that interest. See Hobby Lobby, 573
U.S. at 733 (“The Government has a compelling interest in providing equal opportunity to participate in the
workforce without regard to race, and prohibitions on
racial discrimination are precisely tailored to achieve
that critical goal.”); see also E.E.O.C. v. R.G. & G.R.
Harris Funeral Homes, Inc., 884 F.3d 560, 594 (6th
Cir. 2018) (denying several alternative means of enforcing the government’s interest in preventing discrimination against transgender employee in favor of
simply enforcing the ban on that discrimination). 13
FN13 Note that this “strict scrutiny” test under
RFPA is different from the strict scrutiny that would
Note that this “strict scrutiny” test under RFPA is different
from the strict scrutiny that would apply under Lukumi, Fraternal Order of Police, and Tenafly if Catholic Social Services were
able to demonstrate religious targeting or enforcement disparities. In the latter case, we would examine not the general interest
behind the City’s anti-discrimination laws but the specific interest in the different enforcement of those laws against religious
and secular groups. See Tenafly, 309 F.3d at 172 (applying strict
scrutiny to the Town’s justifications for treating lechis differently
from those violations of the ordinance it had long tolerated). That
would be a more difficult burden for the City to bear than under
the RFPA, where the question is simply the weight of the government’s interest in enforcing its anti-discrimination laws generally.
13

48a
apply under Lukumi, Fraternal Order of Police, and
Tenafly if Catholic Social Services were able to demonstrate religious targeting or enforcement disparities.
In the latter case, we would examine not the general
interest behind the City’s anti-discrimination laws but
the specific interest in the different enforcement of
those laws against religious and secular groups. See
Tenafly, 309 F.3d at 172 (applying strict scrutiny to
the Town’s justifications for treating lechis differently
from those violations of the ordinance it had long tolerated). That would be a more difficult burden for the
City to bear than under the RFPA, where the question
is simply the weight of the government’s interest in
enforcing its anti-discrimination laws generally.
CSS offers several reasons why the City has no
compelling interest in enforcing the Fair Practices Ordinance here. First, it asserts that evaluating potential foster parents is not a public accommodation. Second, it calls the harm the City seeks to prevent speculative, citing Brown v. Entertainment Merchants Association, 564 U.S. 786, 799–800 (2011), for the principle
that “ambiguous proof” of speculative harms will not
suffice to provide a compelling interest. Finally, it argues that the City cannot have a compelling interest
in preventing it from discriminating because doing so
will not increase the number of foster agencies willing
to work with same-sex couples: either the City allows
CSS to continue discriminating, in which case there
are 29 agencies willing to work with those applicants,
or it ceases operation altogether, in which case there
will still be 29 agencies willing to work with those applicants.
These arguments miss the mark entirely. The government’s interest lies not in maximizing the number

49a
of establishments that do not discriminate against a
protected class, but in minimizing—to zero—the number of establishments that do. And that interest is by
no means limited to public accommodations as defined
by the Fair Practices Ordinance. Thus, even if we were
to assume that evaluating potential foster parents is
not a public accommodation, the City would still have
a compelling interest in adding a non- discrimination
provision to future contracts.
Nor is the harm the City seeks to prevent speculative. Brown held that a law restricting violent video
games, on the theory that they would make children
become more violent, could not be sustained, in part
due to the lack of sound empirical support for this theory. See 564 U.S. at 800–01. This has no application
here, where the mere existence of CSS’s discriminatory policy is enough to offend the City’s compelling
interest in anti-discrimination. CSS notes that no
same-sex couples have ever—so far as the record reflects— approached it seeking to become foster parents. This is not surprising given the Philadelphia
Archdiocese’s well-known opposition to gay marriage.
But this is beside the point. The harm is not merely
that “gay foster parents will be discouraged from fostering.” Appellant’s Br. at 63. It is the discrimination
itself.
So even if CSS could show a substantial burden on
its religious exercise as defined by the RFPA, the
City’s actions appear to survive strict scrutiny. Thus
the District Court did not abuse its discretion in determining that CSS has not established a reasonable likelihood of success on the merits of its RFPA claim.

50a
E. Other Preliminary Injunction Considerations
We conclude, as the District Court did, that at the
preliminary injunction stage and on the record before
us, CSS is not reasonably likely to succeed on the merits of any of its claims. This alone defeats the request
for a preliminary injunction. See Reilly, 858 F.3d at
179. In any event, we also agree with the District
Court that CSS has not met the other factors considered for a preliminary injunction.
To prevail, CSS must show not only a reasonable
likelihood of success but also that it is more likely than
not to suffer irreparable harm without an injunction.
It identified several alleged irreparable harms before
the District Court, but on appeal it wisely focuses on
the prospect that, without a contract from the City, it
will go out of business. Arguably even this would be
compensable through money damages. Cf. Lehigh Valley Cmty. Mental Health Ctrs., Inc. v. Pa. Dep’t of Human Servs., 2015 WL 6447171 at *3(E.D.Pa.2015)
(finding that the threat of going out of business did not
qualify as an irreparable injury). In any case, CSS has
not met its burden of demonstrating that it is more
likely than not to suffer this injury. Its congregate care
and Community Umbrella Agency functions are unaffected, it has other foster care contracts with neighboring counties, and even as to its foster care services in
Philadelphia CSS cites only to Amato’s self- professed
“guess” that it would have to cease those operations
within months.
Even if CSS could establish both of the gatekeeping
factors—likelihood of success on the merits and irreparable harm—neither the balance of the equities nor
the public interest would favor issuing an injunction
here. The District Court set out at length the City’s

51a
interests in requiring CSS to abide by its nondiscrimination policy, see Fulton v. City of Philadelphia, 320 F.
Supp. 3d. at 703–04, and we agree that the City’s interests weigh substantially in its favor— particularly
in ensuring that government services are open to all
Philadelphians. Placing vulnerable children with foster families is without question a vital public service,
no doubt why there are 29 other foster care agencies,
including Bethany Christian, that provide this service.
Deterring discrimination in that effort is a paramount
public interest.
F. Conclusion
The City stands on firm ground in requiring its contractors to abide by its non-discrimination policies
when administering public services. Under Smith, the
First Amendment does not prohibit government regulation of religiously motivated conduct so long as that
regulation is not a veiled attempt to suppress disfavored religious beliefs. And while CSS may assert that
the City’s actions were not driven by a sincere commitment to equality but rather by antireligious and antiCatholic bias (and is of course able to introduce additional evidence as this case proceeds), the current record does not show religious persecution or bias. Instead it shows so far the City’s good faith in its effort
to enforce its laws against discrimination.
Hence we hold that the District Court did not abuse
its discretion in denying the motion for preliminary injunctive relief and affirm its thorough and well-reasoned decision.

52a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
SHARONELL FULTON, et
al.,
Plaintiffs,
v.
CITY OF PHILADELPHIA,
et al.,

CIVIL
ACTION
NO. 18-2075

Defendants.
MEMORANDUM
Tucker, J.

July 13, 2018

The gratitude we owe to all those working to better
the lives of Philadelphia’s most vulnerable children is
too great to convey in words. While our gratitude is ultimately ineffable, the Court still begins by recognizing the Parties in this case for their many years of sacrifice and labor. The Court thanks Sharonell Fulton,
Cecelia Paul, Toni Lynn Simms-Busch, Catholic Social
Services (“CSS”), the City of 7.5Philadelphia, the Department of Human Services (“DHS”), and the Commission on Human Relations for their individual sacrifices and contributions in service of Philadelphia’s
children and its families. As witnesses called to testify
in this case have made clear, fostering children is challenging work, but challenging work that can form part
of a full and good life.
Until recent events, the Parties have had a fruitful
relationship; a relationship that has benefited Philadelphia’s children in immeasurable ways. For this reason, the Court would prefer that the Parties seek out

53a
some compromise to their current dispute without
court intervention. Creative problem solving through
concerted and thoughtful discourse without court intervention is often the best method to avoid what may
appear to the parties, or to other persons in the public,
to be harsh legal results. Still, when parties place a
matter before the Court, the Court must act pursuant
to its obligations under the law. Accordingly, the Court
turns to the legal matter presented in this case.
Before the Court are Plaintiffs’ Motion For A Temporary Restraining Order And Preliminary Injunction
(“Injunction Motion”) (ECF No. 13), 1 The City Of Philadelphia’s Memorandum Of Law In Opposition To
Plaintiffs’ Motion For Temporary Restraining Order
And Preliminary Injunction (ECF No. 21), Proposed
Intervenors’ Memorandum of Law, Or, In The Alternative, Amicus Brief, In Opposition To Plaintiffs’ Motion For A Temporary Restraining Order And Preliminary Injunction (“Amicus Brief”) (ECF No. 34); 2 Defendants’ Proposed Findings Of Facts And Conclusions
On June 7, 2018, Plaintiffs filed an Amended Motion for Temporary Restraining Order and Preliminary Injunction because of
the Parties’ concern that the initial Motion may not have adequately protected the privacy interests of certain minor children
identified in the initial Motion. See Jun. 20, 2018 Order, ECF No.
32 (dismissing as moot and sealing the initial Motion). Accordingly, unless otherwise noted, the Court’s references to the Injunction Motion are references to Plaintiffs’ Amended Motion for
Temporary Restraining Order and Preliminary Injunction (ECF
No. 13).

1

On June 18, 2018, the Court accepted the Intervenors’ Opposition Brief as an amicus brief. The Court’s acceptance of the Amicus Brief is memorialized by order dated June 20, 2018. Jun. 20,
2018 Order, ECF No. 33.

2

54a
Of Law (ECF No. 45), and Plaintiffs’ Proposed Findings Of Fact And Conclusions of Law (ECF No. 46).
Upon careful consideration of the foregoing and all the
evidence presented by the Parties in their written submissions and the evidentiary hearing held on June 18,
2018, June 19, 2018, and June 21, 2018, for the reasons explained below, Plaintiffs’ Injunction Motion
(ECF No. 13) is DENIED.
I. PROCEDURAL BACKGROUND
On May 17, 2018, Plaintiffs asserted sixteen causes
of action against Defendants related to, among other
things, Defendants’ suspension of referrals of new children to Plaintiffs’ care and Defendants’ alleged violations of Plaintiffs’ religious and free speech rights. See
generally Compl., ECF No. 1; but see Mem. of Law
Supp. Pl.s’ Injunction Mot. 8 (asserting that CSS “filed
a complaint in this Court on May 16, 2018”). Nineteen
days later, 3 on June 5, 2018, Plaintiffs filed their Injunction Motion seeking a court order to compel Defendants to resume referrals of children to Plaintiffs’
care in advance of the June 30 expiration of Plaintiffs’
current services contract with Defendants under
which Plaintiffs provide various professional services
in exchange for public funds. In view of the urgency of
the matter, the Court set an expedited briefing schedule and ordered an evidentiary hearing. Jun. 6, 2018
Order, ECF No. 11. Less than two weeks later, on June

If the Court accepts Plaintiffs’ asserted date of May 16, 2018 as
the filing date for the Complaint, then Plaintiffs’ Injunction Motion was filed twenty days after first filing suit.

3

55a
18, 2018, the Court held an evidentiary hearing. The
hearing concluded on June 21, 2018. 4

During the evidentiary hearing, testimony by James Amato,
Secretary and Executive Vice President of CSS, revealed that it
is CSS policy to refuse to certify any prospective foster parent
without a “clergy letter” from a religious minister. See Jun. 19,
2017 Hearing Tr. 34–35 (Amato) (testifying to Amato’s title and
responsibilities at CSS); Jun. 19, 2017 Hearing Tr. 95–96 (Amato)
(explaining that a clergy letter is required for certification by CSS
because the letter “is a very good indication of [a prospective foster parent’s] commitment to their faith” and explaining that CSS
will not, to Amato’s knowledge, certify a prospective resource parent without a clergy letter). While the religious affiliation of the
minister writing the clergy letter does not matter, Amato explained that the receipt of a clergy letter on behalf of a prospective foster parent is an absolute condition to CSS’s certification of
that prospective foster parent. Jun. 19, 2017 Hearing Tr. 95:12–
16, 95:21–23 (Amato). It appears, therefore, that CSS will not certify prospective foster parents who are religious but whose religious exercise does not include a relationship with a minister,
prospective foster parents who choose not to associate with any
religious tradition, or prospective foster parents who associate
with a religious tradition that does not have religious ministers
willing or able to provide a clergy letter.
4

This evidence is disconcerting to the Court because it raises serious constitutional as well as contractual questions. Among
other things, this policy appears to contravene CSS’s contractual
obligations under its contract with DHS under Section 4.1(k).
Section 4.1(k) prohibits CSS from discriminating against individuals based on the individuals’ religious beliefs. Section 4.1(k) provides that CSS:
shall inform all individuals to whom Services are provided, whether directly or indirectly, of the following:
“The Philadelphia Department of Human Services’ selection of a faith-based provider of social services is not an
endorsement of the Provider’s religious character, prac-

56a
II. FACTUAL BACKGROUND 5
A. CSS’s Services Contract With DHS and
Philadelphia
It is an intractable tragedy that children in our
community are sometimes unable to remain in their
own homes. Pennsylvania has, in response to this
tragic reality, charged individual county agencies with
the duty of establishing a system to address the wellbeing of these children consistent with the best interests of each child. Jun. 19, 2018 Hr’g Tr. 152:18–24
(Figueroa). In Philadelphia County, the county agency
charged with this duty is DHS. In performing its duty,
DHS contracts with a number of private foster care

tices or beliefs. No Provider of social services may discriminate against you on the basis of religion, a religious
belief or your refusal to actively participate in religious
practices.”
Decl. of James Amato Ex. B, ECF p. 29 of 39, ECF No. 13-4. Indeed, on June 25, 2018, Counsel for CSS delivered a letter to the
Court representing that CSS “will agree not to require pastoral
letters.” Letter from Mark Rienzi, Attorney for Plaintiffs, to
Chambers of Judge Petrese B. Tucker (Jun. 25, 2018), ECF No.
40.
Still, as the questions CSS’s pastoral letter requirement poses are
not squarely before the Court, the Court will, for purposes of the
Injunction Motion, refrain from further discussion of the matter.
The following findings of facts are set forth pursuant to Fed. R.
Civ. P. 52(a)(2)(requiring that “[i]n granting or refusing an interlocutory injunction, the court must []state the findings and conclusions that support its action.”).

5

57a
agencies. Jun. 18, 2018 Hr’g Tr. 87:2–4 (Ali). Presently, DHS has contracts with thirty private foster
care agencies. Jun. 19, 2018 Hr’g Tr. 155:14–16
(Figueroa). Each of these private foster care agencies
is expected to provide foster care services consistent
with a services contract with DHS. See, e.g., Jun. 19,
2018 Hr’g Tr. 162:2 – 12 (Figueroa) (indicating that
CSS’s services, as a foster agency, are provided under
contract with DHS and Philadelphia); Jun. 21, 2018
Hr’g Tr. 12:15–16 (Figueroa) (indicating that Bethany
Christian Services, another foster agency, has a contract similar to the services contract between DHS and
CSS).
In November 2015, DHS and CSS entered into Contract Number 16-20030 (“Services Contract”) for certain professional services. Decl. of James Amato Ex. A,
ECF p. 13 of 52, ECF No. 13-3 (showing that the original contract was executed in November 2015 and recounting the various amendments since initial execution); see also Decl. of James Amato Ex. A, ECF p. 39
of 52, ECF No. 13-3 (identifying the Services Contract
as a “Professional Services Contract . . . for Department of Human Services Contracts”). As provided in
the Statement of Purpose section of the Services Contract, the Services Contract was:
made and entered into between Catholic Social
Services (the Provider) and the Philadelphia
Department of Human Services (DHS), and sets
forth the services for general, kinship, and teen
parent/baby resource home care.
Decl. of James Amato Ex. A, ECF p. 27 of 52, ECF No.
13-3. Under the Scope of Services section of the Services Contract, CSS was to ensure that, among other
things, resource caregivers (foster parents) would be

58a
“screened, trained, and certified by the Provider
[CSS].” 6 Decl. of James Amato Ex. A, ECF p. 28–29 of
52, ECF No. 13-3. The Services Contract reiterates
that “[t]he specific issue to be addressed by [CSS] is to
recruit, screen, train, and provide certified resource
care homes.” Decl. of James Amato Ex. A, ECF p. 28 of
52, ECF No. 13-3.
CSS was to provide the services set forth under the
Scope of Services section of the Services Contract in
accordance with certain criteria, including criteria under Section 3.21 of the Services Contracts’ General
Provisions and Article XV: Additional Representations
and Covenants of Provider Relating to Certain Applicable Laws.
Section 3.21 limits the reasons that CSS may refuse to provide the services required under the Services Contract. Section 3.21 provides that CSS:
shall not reject a child or family for Services
based upon the location or condition of the family’s residence, their environmental or social
condition, or for any other reason if the profiles
of such child or family are consistent with Provider’s Scope of Services or DHS’s applicable
standards as listed in the [Services Contract],
Certification of prospective foster parents requires a licensed
foster family care agency to evaluate prospective foster parents
using the criteria set forth under 55 Pa. Code § 3700.64. See e.g.,
Hinnerschitz v. Dep’t of Pub. Welfare, No. 1977 C.D.2014, 2015
WL 5457824 (Pa. Commw. Ct. 2015) (not precedential) (concluding that Berks County Children and Youth Services’ denial of prospective foster parents’ application to become kinship foster parents was appropriate given the lower administrative courts’
proper consideration of the § 3700.64 factors).
6

59a
unless an exception is granted by the Commissioner or the Commissioner’s designee, in
his/her sole discretion.
Decl. of James Amato Ex. B, ECF p. 14 of 39, ECF No.
13-4.
Article XV of the Services Contract further limits
the reasons that CSS may refuse to provide the services required under the Services Contract by incorporating into the Services Contract various laws, ordinances, regulations, and executive orders. In particular, Article XV incorporates provisions of the Philadelphia Fair Practices Ordinance relating to non- discrimination and serving all-comers who might seek
services from CSS. Article XV stipulates that:
. . . Provider further represents, warrants and
covenants that . . . Provider is in compliance
with the laws, ordinances, regulations and executive orders described below.
15.1 Non-Discrimination; Fair Practices. This
Contract is entered into under the terms of the
Charter, the Fair Practices Ordinance (Chapter
9-1100 of the Code) . . . Provider shall not discriminate or permit discrimination against any
individual because of race, color, religion or national origin. Nor shall Provider discriminate or
permit discrimination against individuals
in . . . public accommodation 7 practices whether
7

The term “public accommodation” is defined under
the Philadelphia Fair Practices Ordinance as:
Any [] provider, whether licensed or not, which
solicits or accepts patronage or trade of the public

60a
by direct or indirect practice of exclusion, distinction, restriction, segregation, limitation, refusal, denial, differentiation or preference in the
treatment of a person on the basis of . . . sex,
sexual orientation, gender identity, marital status familiar [sic] status . . . or engage in any
other act or practice made unlawful under the
Charter . . .
Decl. of James Amato Ex. C, ECF p. 18–19 of 39, ECF
No. 13-5 (emphasis added). In the event of CSS’s
breach of its covenant under Article XV, DHS and
Philadelphia would be permitted “in addition to any
other rights or remedies available under this Contract,
at law or in equity, [to] suspend or terminate this Contract forthwith.” Decl. of James Amato Ex. C, ECF p.
19 of 39, ECF No. 13-5.
In exchange for “the Services and Materials being
provided under” the Services Contract, DHS and Philadelphia agreed to “set the amount of compensation
payable to [CSS] for the current contract term at
[$19,430,999.00].” Decl. of James Amato Ex. A, ECF p.
15 of 52, ECF No. 13-3. Despite this lump sum amount,
as a matter of practice, payment to CSS was made on
a per diem basis pegged to the number of children under its care. See Jun. 21, 2018 Hr’g Tr. 11:4–7
or whose . . . services, facilities . . . are extended,
offered [] or otherwise made available to the public; including all . . . services provided by any public agency or authority; any agency, authority or
other instrumentality of . . . the City, its departments, boards and commissions.
Philadelphia Fair Practices Ordinance § 9-1102
(Definitions) at 4, Chapter 9-1100 of the Philadelphia Code.

61a
(Figueroa) (testifying that many contractors are paid
on a per diem basis); Jun. 21, 2018 Hr’g Tr. 139:20–24
(same) (Figueroa). That CSS was receiving significant
public funds to perform its public service functions under the Services Contract is underscored by Section
3.30 of the General Provisions that provides “[CSS]
shall identify the Department as a funding source in
all literature, documents[,] reports or pamphlets
which Provider publishes develops or produces in connection with this Contract.” Decl. of James Amato Ex.
B, ECF p. 21 of 39, ECF No. 13-4.
CSS and DHS proceeded under the Services Contract without dispute until March 2018, when DHS
learned that it is CSS policy to not serve all-comers. In
particular, it is CSS policy to refuse service to samesex couples CSS services under the Services Contract.
B. March 2018: DHS Learns Of CSS’s And Another Foster Agency’s Refusal To Comply
With Services Contract’s All-Comers Provisions
On or about March 9, 2018, DHS Commissioner
Figueroa came to believe that two of the foster care
agencies with which DHS contracts, CSS and Bethany
Christian Services, have policies that deny their publicly-funded services to married same-sex couples.
Jun. 21, 2018 Hr’g Tr. 3 (Figueroa) (testifying that on
March 9, 2010, a reporter contacted Figueroa and that
Figueroa’s discussions with the reporter led Figueroa
to believe that CSS and Bethany Christian Services
had certain policies of refusing service to same-sex
couples). Jun. 19, 2018 Hr’g Tr. 164 (Figueroa). Commissioner Figueroa formed this belief after discussions
with a Philadelphia Inquirer reporter who called
Figueroa seeking comment ahead of the publication of

62a
an article on two DHS foster care agencies that reportedly maintained policies that would effectively permit
these agencies to refuse services to same-sex couples.
Jun. 19, 2018 Hr’g Tr. 164 (Figueroa). After Commissioner Figueroa’s discussion with the reporter,
Figueroa contacted Bethany Christian Services, CSS,
various DHS’s faith-based foster care agencies, and a
nonfaith-based agency to determine what those agencies’ policies are in connection with serving same-sex
couples. Jun. 19, 2018 Hr’g Tr. 164:16–165:4
(Figueroa); Jun. 21, 2018 Hr’g Tr. 103:6–9 (testifying
that Figueroa contacted a nonfaith-based foster care
agency).
Commissioner Figueroa’s phone call with James
Amato at CSS provided greater clarity regarding what
services CSS refused to provide to same-sex couples
and why CSS refused to provide those services. Jun.
21, 2018 Hr’g Tr. 3:18–24 (Figueroa). James Amato explained that there were two services that CSS would
not provide to same-sex couples: (1) CSS would not certify same-sex couples as prospective foster parents
even if the couples were otherwise eligible foster parents under state regulations, and (2) CSS would not
provide a same-sex couple with a home study as part
of a same-sex couple’s application for adoption. Jun.
21, 2018 Hr’g Tr. 3:18–24 (Figueroa); see also Jun. 19,
2018 Hr’g Tr. 55:7–20 (Amato) (testifying that Commissioner Figueroa and another DHS officer asked
Amato whether CSS would complete a home study for
“a same-sex couple or individual” and that Amato confirmed that CSS would not complete such a home
study for a couple and would only provide a home
study for an individual if that individual was committed to living single). Amato explained that CSS would

63a
not provide these services on religious grounds. Jun.
21, 2018 Hr’g Tr. 3:18–24 (Figueroa). Amato recalled
that DHS “said to me that you are discriminating. I
said that I am following the teachings of the Catholic
Church.” Jun. 19, 2018 Hr’g Tr. 55:22–25 (Amato).
On March 13, 2018, the Philadelphia Inquirer published an article titled Two Foster Agencies in Philly
Won’t Place Kids with LGBTQ People. 8 The article recounted an incident in which a married same-sex couple traveled to a Bethany Christian Services informational event for prospective foster parents. On arrival,
a Bethany Christian Services employee told the couple
their attendance at the event would be a waste of time
because Bethany Christian Services maintained a policy of refusing to serve same-sex couples. See also Jun.
19, 2018 Hr’g Tr. 164:5–10 (Figueroa). In the same
story, the Inquirer reported that a representative for
CSS confirmed that CSS maintained similar policies
of refusing to serve same-sex couples.
On March 15, 2018, after meeting with James Amato and CSS’s legal counsel in person, Commissioner
Figueroa “decided that it was in the best interest [of
children] to close intake, so that [Figueroa] could look
more deeply into” CSS’s and Bethany Christian Services’s policies. Jun. 19, 2018 Hr’g Tr. 166:6–21
(Figueroa); Figueroa Decl. ¶ 32, ECF No. 20-6; see also
Jun. 18, 2018 Hr’g Tr. 96:2–3 (Ali) (testifying that, to
Ali’s knowledge, Commissioner Figueroa herself decided to close CSS’s intake of new referrals). That day,
Julia Terruso, Two Foster Agencies in Philly Won’t Place Kids
with LGBTQ People, Philly.com (Mar. 13, 2018, 9:05 AM),
http://www.philly.com/philly/news/foster-adoption-lgbtq- gaysame-sex-philly-bethany-archdiocese-20180313.html.
8

64a
Philadelphia City Council separately passed its own
resolution authorizing the Committee on Public
Health and Human Services to “investigate [DHS] policies on contracting with social services agencies that
either discriminate against prospective LGBTQ foster
parents and allow non-LGBTQ foster parents to discriminate against children.” City Council Resolution
No. 180252 at 2, ECF No. 10-9.
On March 27, 2018, Deputy Commissioner Ali
emailed various community umbrella agencies—responsible for case management activities—to communicate that foster agencies should “refrain from
making any foster care referrals to Bethany Christian
Services and [CSS],” but “[i]f you have questions about
a case, please contact me by phone or email.” Ex. 1-E
3, ECF No. 10-12. Deputy Commissioner Ali further
communicated that DHS is:
Committed to the safety and stability of children in our care and must consider the needs of
the children and youth currently served by foster families licensed by these organizations.
Our goal is to minimize placement disruptions,
and to ensure that a child’s ability to reunify or
to continue an adoption process is not delayed
because of placement disruption.
Ex. 1-E 3, ECF No. 10-12.
C. Doe Foster Child #1
Plaintiffs spent some time at the evidentiary hearing exploring a situation involving a minor child identified as Doe Foster Child #1. Plaintiffs point to the
situation involving Doe Foster Child #1 as an “example of the harm that has resulted from the City’s in-

65a
take closure.” Pls.’ Proposed Findings of Fact and Conclusions of Law 27, ECF No. 46. The circumstances
surrounding Doe Foster Child #1 are, as is often the
case for children in foster care, complex. The Court
notes, however, that by the time of the evidentiary
hearing, DHS and CSS, working together, successfully
obtained a Philadelphia Family Court order permitting Doe Foster Child #1’s removal from a different living situation and then placement with a CSS-certified
foster parent. Ali Decl. ¶ 60, ECF No. 20-1. Through
the concerted efforts of DHS and CSS staff, the situation involving Doe Foster Child #1 is now resolved.
Still, Plaintiffs contend that the situation with Doe
Foster Child #1 would not have occurred but for DHS’s
closure of CSS’s intake of new referrals, while DHS
and Philadelphia contend that Doe Foster Child #1’s
unique situation was resolved in a timely manner considering the complexity of the case. As a factual matter, the situation with Doe Foster Child #1 is unlikely
to occur again given that DHS and CSS are both now
fully aware that exemptions from the intake closure
have been and continue to be granted consistent with
the best interests of individual children. See, e.g., Jun.
19, 2018 Hr’g Tr. 84:2–9 (Amato) (testifying that he is
aware that DHS will grant exceptions in some cases
for placements with Catholic Social Services when
such placements are in the best interests of the child);
Jun. 19, 2018 Hr’g Tr. 86:8 – 11 (Amato) (testifying
that CSS has, in fact, sought out and received placements for children despite the intake closure when
placements were in the best interests of the child).

66a
D. Current Effects Of Closure Of CSS Intake
Of New Referrals
In response to Plaintiffs’ claims that CSS’s intake
closure has and will continue to negatively affect foster children, DHS offered evidence showing that the
closure of CSS’s intake of new referrals has had little
or no effect on the operation of Philadelphia’s foster
care system. DHS Commissioner Figueroa testified
that CSS’s intake closure “has not resulted in a rise in
children placed in congregate care.” 9 Jun. 21, 2018
Hr’g Tr. 86:4–87:9 (Figueroa). Further, Figueroa testified that CSS’s intake closure “has not resulted in a
rise in children staying in DHS’s childcare room.” Jun.
21, 2018 Hr’g Tr. 86:4–87:9 (Figueroa). Figueroa’s testimony was based on her review of “weekly data” that
Figueroa receives from DHS’s “performance and technology team that . . . have . . . detailed data.” Jun. 21,
2018 Hr’g Tr. 86:16–87:11 (Figueroa).
That the effects of closing CSS’s intake have been
small relative to size and breadth of the Philadelphia
foster care system is, unfortunate, but unsurprising
given Commissioner Figueroa’s explanation that:
Kids are abused every day. They are neglected
every day. They end up in [DHS’s] placement,
in [DHS’s] care, because their families can’t
care for them. We are incredibly fortunate that
we have foster care agencies, but it’s not a one
to one.

Congregate care is a broad term used to describe a variety of
“nonfamily-like [foster care] settings.” Jun. 18, 2018 Hearing Tr.
93:6 (Ali).
9

67a
Jun. 21, 2018 Hr’g Tr. 93:23–94:7 (Figueroa). The
number of cases and idiosyncrasies of each child involved in each case means that the mere fact that
there are empty, available foster homes does not
equate to fewer children in congregate care. Figueroa
explained that assuming that “availability [at any one
foster agency] [will] reduce the [use of] congregate care
is an over [simplification] of the complication of our
work.” Jun. 21, 2018 Hr’g Tr. 93:23–94:7 (Figueroa).
That the negative effects of closing CSS’s intake have
been relatively slight is also supported by the reality
that, as of the evidentiary hearing date, at least three
foster agencies had intake closures in place and the
foster system nevertheless remained stable. See Jun.
21, 2018 Hr’g Tr. 5:14–15 (Figueroa) (testifying that “I
have closed intake in other circumstances for other
providers.”); Jun. 21, 2018 Tr. 8:24-25–9:1 (Figueroa)
(testifying that the week before, DHS also closed intake for another agency); Jun. 21, 2018 Hr’g Tr. 12:9–
21 (Figueroa) (testifying that Bethany Christian Services’s intake remained closed as of June 21).
E. Defendants’ Preference To Continue Work
With CSS And Offer Of New Contracts
DHS and Philadelphia have explicitly stated a
preference for continuing their relationship with CSS,
despite CSS’s religious nature, so long as CSS complies with its contract responsibilities. See, e.g., Jun.
21, 2018 Hr’g Tr. 9:18–24 (Figueroa) (indicating that
DHS would prefer to continue contracting with CSS);
Jun. 19, 2018 Hr’g Tr. 120:7 – 11 (Amato) (testifying
that DHS and Philadelphia were clear that they did
“not plan to agree to any further referrals to CSS . . .
absent assurances that CSS is prepared to adhere to

68a
contractual obligations). Indeed, DHS and Philadelphia manifested their preference to continue working
with CSS by offering CSS two different renewal services contracts. See, e.g., Jun. 21, 2018 Hr’g Tr. 10:1–
10 (Figueroa). The first contract would be a renewal on
the same terms as CSS’s current Services Contract.
The second contract would be an alternate services
contract to provide financial support to CSS even if
CSS could not agree to certify same-sex couples consistent with the all- comers provisions of the standard
services contract. See, e.g., Jun. 21, 2018 Hr’g Tr. 10:5–
10. Such alternate contracts have been provided to
other foster care agencies in the past to ensure the best
interest of foster children. See,e.g., Jun. 21, 2018 Hr’g
Tr. 10:20–11:16 (Figueroa). That Defendants have offered two contracts to CSS despite the Parties’ present
dispute shows Defendants’ strong desire to keep CSS
as a foster care agency.
III. STANDARD OF REVIEW
A. Temporary Restraining Order and Preliminary Injuctive Relief Factors
A preliminary injunction is “an extraordinary remedy never awarded as of right.” Groupe SEB USA, Inc.
v. Euro-Pro Operating LLC, 774 F.3d 192, 197 (3d Cir.
2014) (citing Winter v. Natural Res. Def. Council, Inc.,
555 U.S. 7, 24 (2008)). Preliminary injunctive relief is
appropriate only “upon a clear showing that the plaintiff is entitled to such relief.” Id. (citing Winter, 555
U.S. at 22). Ultimately, “the decision to grant or deny
a preliminary injunction is committed to the sound
discretion of the district court.” United States v. Price,
688 F.2d 204, 210 (3d Cir. 1982) (citing Stokes v. Williams, 226 F. 148, 156 (3d Cir. 1915)). In deciding

69a
whether to grant injunctive relief, the Court must consider whether: (1) Plaintiffs have demonstrated a likelihood of success on the merits; (2) Plaintiffs will be
irreparably harmed by the denial of injunctive relief;
(3) the balance of equities favors Plaintiffs; and (4) the
public interest favors granting the injunction. See, e.g.,
Del. Strong Families v. Att’y Gen. of Del., 793 F.3d 304,
308 (3d Cir. 2015). 10
The Third Circuit has explained that the first two
factors of this analysis—likelihood of success on the
merits, and irreparable harm—act as “gateway factors.” Reilly v. City of Harrisburg, 858 F.3d 173, 180
(3d Cir. 2017). Accordingly, when confronted by a motion for preliminary injunctive relief, a court must first
determine whether the movant has met these two
gateway factors before considering the remaining two
factors—balance of harms, and public interest. Id. at
179. In short, “[i]f these gateway factors are met, a
court then considers the remaining two factors and determines in its sound discretion if all four factors,
taken together, balance in favor of granting the requested preliminary relief.” Id.
Esteemed jurists have acknowledged that the existence of complex questions of law and disputed matters of fact at the preliminary injunction phase of a
case may create “doubt about the probability of [a]

The standard for issuing a temporary restraining order is the
same as that for ordering a preliminary injunction. Ride the
Ducks, LLC v. Duck Boat Tours, Inc., No. CIV. A. 04-CV- 5595,
2005 WL 670302, at *4 (E.D. Pa. Mar. 21, 2005).
10

70a
plaintiff’s success to justify denying a preliminary injunction.” Transcon. Gas Pipe Line Co. v. Permanent
Easements for 2.14 Acres & Temp. Easements for 3.59
Acres in Conestoga Twp., Lancaster Cty., Pa., No. 5:17CV-00715, 2017 WL 1283948, at *5 (E.D. Pa. Apr. 6,
2017) (citing St. John of Jerusalem-Knights of Malta
v. Messineo, 572 F. Supp. 983, 990 (E.D. Pa. 1983)).
Indeed, in Transcon. Gas Pipe Line Co., the district
court collected a number of cases supporting this general proposition. 2017 WL 1283948, at *5 (citing La
Chemise Lacoste v. General Mills, Inc., 53 F.R.D. 596,
605 (D. Del. 1971) for the proposition that “[a] Court
should not decide doubtful and difficult questions on a
motion for a preliminary injunction.”); see also id. (citing Coffee Dan’s, Inc. v. Coffee Don’s Charcoal Broiler,
305 F. Supp. 1210, 1213 (N.D. Cal. 1969) for the proposition that “[o]n an application for a preliminary injunction the court is not bound to decide doubtful and
difficult questions of law or disputed questions of
fact.”).
Although there exists, in this case, a myriad of complex questions of law and a great number of disputed
facts such that the Court could justifiably deny injunctive relief on these grounds alone, the Court nevertheless engages in the preliminary injunction analysis below to ensure that the reasons for the Court’s decision
are sufficiently articulated for the Parties.

71a
IV. DISCUSSION
LAW 11

AND

CONCLUSIONS

OF

A. Factual Precedent: Faith-Based Foster
Agencies In Other Jurisdictions
At the outset, the Court notes that while precise legal precedent on the issues raised in this case is absent, there exists some factual precedent. In 2006, for
example, in the wake of Massachusetts’s legalization
of same-sex marriages, Catholic Charities in Boston
shut down its foster care agency after it unsuccessfully
sought permission from Massachusetts to withhold its
services from legally married same-sex couples. 12
In 2010, Catholic Charities in Washington, DC,
like Catholic Charities in Boston, ended its foster care
program in response to Washington, DC’s legislation
to legalize same-sex marriage. 13 As a result, “Catholic
Charities’ caseload of 43 children and 35 foster families was transferred, along with seven staffers, to the
Bethesda, Md.-based National Center for Children
and Families so as not to disrupt client care.” 14

The following discussion and conclusions of law are set forth
pursuant to Fed. R. Civ. P. 52(a)(2).
11

Patricia Wen, Catholic Charities Stuns State, Ends Adoptions,
boston.com Mar. 11, 2006), http://archive.boston.com/news/local/articles/2006/03/11/catholic_charities_stuns_state_ends_ad
options/.
12

Julia Duin, Catholics End D.C. Foster-Care Program, (Feb. 18,
2010), https://www.washingtontimes.com/news/2010/feb/18/dcgay-marriage-law-archdiocese-end- foster-care/.
13

14

Id.

72a
In 2011, Catholic Charities in Illinois sued, among
others, the State of Illinois after the State indicated
that it would not renew its foster care contract with
Catholic Charities because Catholic Charities’ “failure
to provide services to unmarried cohabiting couples
was in direct violation of” state law. Summary Judgment Order 2, Catholic Charities of the Diocese of
Springfield v. Madigan, No. 2011-MR-254 (Ill. Cir. Ct.
Aug. 18, 2011). The Sangamon County Circuit Court
granted the State’s Cross Motion for Summary Judgment on grounds that Catholic Charities had no cognizable right to a state government services contract.
The court reasoned that Catholic Charities did “not
have a legally recognized protected property interest
in the renewal of its contracts for foster care and adoption services . . . [and] [t]he fact that [Catholic Charities] have contracted with the State to provide foster
care and adoption services for over forty years does not
vest the Plaintiffs with a protected property interest.”
Id. After the Sangamon County Circuit Court’s decision, Catholic Charities in Illinois ended its foster care
and adoption services and agreed to transfer “more
than 1,000 foster care children and staff to other agencies in their regions.” 15
In 2006, in contrast to the decisions by Catholic
Charities in Boston, Washington, DC, and Illinois to
Manya A. Brachear, 3 Dioceses Drop Foster Care Lawsuit—
Catholic Charities To End Service Rather Than Work With Parents In Civil Unions, ChicagoTribute.com (Nov. 15, 2011),
http://articles.chicagotribune.com/2011-11-15/news/ct-met-catholic-charities-foster-care20111115_1_civil-unions-act-catholiccharities-religious-freedom-protection.
15

73a
end its foster care services, Catholic Charities in San
Francisco chose to end its full service adoption agency
to avoid providing services to same sex couples, but
otherwise planned to “provide staff and financial resources to connect needy children to adoptive parents,”
and formally collaborate with other adoption agencies
who can provide full services to all-comers without violating San Francisco’s anti-discrimination efforts. 16
Against this backdrop, the Court turns to the Parties’ legal arguments.
B. Services Contract Requires Contractors
To Provide Services Consistent With Fair
Practices Ordinance
1. The Unambiguous Terms Of The Services Contract Evinces The Parties’ Intent That The Fair Practices Ordinance
Apply to CSS’s Services
As a threshold matter, the Parties disagree on
whether the Services Contract requires CSS to provide
its services to all-comers in accordance with the Fair
Practices Ordinance because such services may or may
not constitute a “public accommodation.” While briefing on this issue is scant, the Parties expended significant time arguing this issue at the evidentiary hearing. See, e.g., Jun. 18, 2018 Hr’g Tr. 9:17–12:14 (Plain-

Elizabeth Fernandez, Catholic Agency Finds Way Out Of Adoption Ban/Alliance With other Groups Gets Around Same-Sex Parent Issue, SFGate.com (Aug. 27, 2006, 4:00 AM),
https://www.sfgate.com/bayarea/article/SAN-FRANCISCOCatholic-agency-finds-way-out-of- 2470402.php.
16

74a
tiffs’ Opening Statement); see also Pls.’ Proposed Findings of Fact and Conclusions of Law ¶¶ 61–65. In view
of the plain terms of CSS’s covenant to be bound by the
Fair Practices Ordinance as set forth in the Services
Contract, and in view of the expansive, but plain, definition of “public accommodations” under the Fair
Practices Ordinance, the Court concludes that the Fair
Practices Ordinance applies to CSS’s provision of services under the Services Contract.
It is well-established that:
[c]ontract interpretation is a question of law
that requires the court to ascertain and give effect to the intent of the contracting parties as
embodied in the written agreement. Courts assume that a contract’s language is chosen carefully and that the parties are mindful of the
meaning of the language used. When a writing
is clear and unequivocal, its meaning must be
determined by its contents alone.
Old Summit Mfg., LLC v. Pennsummit Tubular, LLC
(In re Old Summit Mfg., LLC), 523 F.3d 134, 137 (3d
Cir. 2008) (citing Dep’t of Transp. v. Pa. Indus. for the
Blind and Handicapped, 886 A.2d 706, 711 (Pa.
Commw. Ct. 2008)); see also D&M Sales, Inc. v. Lorillard Tobacco Co., No. CIV.A.09-2644, 2010 WL
786550, at *3 (E.D. Pa. Mar. 8, 2010) (providing that
“the court’s goal is ‘to ascertain and give effect to the
intent of the contracting parties,’” and “[w]hen the
words of an agreement are clear and unambiguous, the
court will ascertain the intent of the parties from the
language used in the agreement.”).
In this case, the Parties’ intent that the Fair Practices Ordinance apply to CSS’s services is manifest by

75a
the clear and unequivocal terms of the Services Contract. In entering into the Services Contract, CSS
agreed to the provisions enumerated under Article XV.
CSS explicitly “represent[ed], warrant[ed], and covenant[ed] that . . . [CSS was] in compliance with . . . the
Fair Practices Ordinance.” Decl. of James Amato Ex.
C, ECF p. 18–19 of 39, ECF No. 13-5. Accordingly, the
plain terms of the Services Contract manifest the Parties’ intent that CSS be bound by the Fair Practices
Ordinance by expressly incorporating the Fair Practices Ordinance into the Services Contract.
Having concluded that the Services Contract
evinces the Parties’ intent that the Fair Practices Ordinance apply to CSS’s services rendered under the
Services Contract, the Court turns to the issue of
whether the Fair Practices Ordinance would require
CSS to provide foster parent certifications and home
visits for prospective parents in accordance with the
all- comers/nondiscrimination provisions of the Fair
Practices Ordinance. The resolution of this issue turns
on two questions: (1) whether CSS’s scope of services
includes the provision of certification and home visits
in connection with certification in the first instance,
and (2) if so, whether those services fall within the
meaning of a public accommodation under the Fair
Practices Ordinance.
2. CSS’s Scope Of Services Requires CSS
To Recruit, Screen, Train, And Certify
Resource Caregivers
Here, as with all questions of parties’ obligations
under a contract, the Court must look to the intent of
the parties as embodied in the plain and ambiguous
terms of the contract. In agreeing to perform the Scope
of Services under the Services Contract, CSS agreed to

76a
“recruit, screen, train, and provide certified resource
care homes.” Decl. of James Amato Ex. A, ECF p. 28 of
52, ECF No. 13-3. Indeed, CSS’s obligation to recruit,
screen, train, and certify resource caregivers is emphasized elsewhere in the Scope of Services. Decl. of
James Amato Ex. A, ECF p. 28–29 of 52, ECF No. 133 (providing that “resource caregivers are screened,
trained, and certified by [CSS]”); see also Decl. of
James Amato Ex. A, ECF p. 27 of 52 n.1, ECF No. 133 (providing under the “Statement of Purpose” that
“Provider Staff is responsible for recruiting and certifying foster and kinship homes”). The Court concludes
that CSS’s certification of prospective foster parents
and CSS’s provision of home studies “to assure [that
prospective foster parents] are qualified and well prepared for the responsibility of foster care” 17 are services that CSS agreed to provide under the Services
Contract.
Having determined that certification and home
studies are services that CSS was hired to provide under the Services Contract, the Court turns to whether
these services constitute “public accommodations” under the Fair Practices Ordinance such that CSS’s provision of these services must be rendered in accordance with the all-comers, anti-discrimination provision of the Fair Practices Ordinance.

Foster Care & Adoption Services, https://cssphiladelphia.org/adoption/ (last visited Jul. 1, 2018).

17

77a
3. The Services That CSS Provides Are
Public Accommodations Within The
Meaning Of The Fair Practices Ordinance
In interpreting a municipal ordinance, a court
must employ the same analysis that the court employs
when interpreting a statute. Tri-Cty. Landfill, Inc. v.
Pine Twp. Zoning Hearing Bd., 83 A.3d 488, 509 (Pa.
Commw. Ct. 2014); see also Diehl v. City of McKeesport, 432 A.2d 288, 290 (Pa. Commw. Ct. 1981) (providing that “[t]he rules of statutory construction are applicable to statutes and ordinances alike”). Accordingly, when interpreting an ordinance, a court must
determine, as it must when interpreting a statute, the
intent of the legislative body that enacted the ordinance. See Tri-Cty. Landfill, Inc., 83 A.3d at 509 (citing 1 Pa. Cons. Stat. § 1921). Generally, the best indicator of the legislative body’s intent is the plain language of the ordinance. Id.
The Fair Practices Ordinance provides an expansive, but plain definition of the term “public accommodation.” Under the Fair Practices Ordinance, a public
accommodation is:
Any [] provider, whether licensed or not, which
solicits or accepts patronage or trade of the public or whose . . . services, facilities . . .are extended, offered [] or otherwise made available to
the public; including all . . . services provided by
any public agency or authority; any agency, authority or other instrumentality of . . . the City,
its departments, boards and commissions.
Philadelphia Fair Practices Ordinance § 9-1102 (Definitions) at 4, Chapter 9-1100 of the Philadelphia Code.

78a
In this case, CSS’s provision of services meets the
definition of public accommodations and, therefore,
CSS must provide its services in accordance with the
Fair Practices Ordinance as incorporated by Article
XV, § 15.1 of the Services Contract. CSS is a “licensed”
“provider” under the Services Contract. CSS publicly
solicits prospective foster parents and advertises to attract new foster parents. 18 CSS provides professional
“services” to the public. In return for its services, CSS
receives public funds and the source of those funds are
to be disclosed to the public when CSS disseminates
information relating to its services under the Services
Contract. 19 CSS operates and maintains facilities that
are used by staff and members of the public to carry
out CSS’s work under the Services Contract. Jun. 19,
2018 Hr’g Tr. 36:18–22 (Amato). The Court concludes,
therefore, that CSS’s services are public accommodations to be provided consistent with CSS’s covenant
under Article XV, § 15.1, which requires CSS to serve
all Philadelphians who seek out its services.
C. Likelihood of Success on the Merits
Having determined that the terms of the Services
Contract, including the all-comers, nondiscrimination
See Jun. 18, 2018 Hearing Tr. 65:17 (Fulton) (testifying to seeing a television commercial about foster care); Foster Care &
Adoption Services, https://cssphiladelphia.org/adoption/ (last visited Jul. 1, 2018) (soliciting prospective foster parents through a
website).
18

Decl. of James Amato Ex. B, ECF p. 35 of 39, ECF No. 13-4
(Services Contract providing that “[CSS] shall identify the Department as a funding source in all literature, documents reports
or pamphlets which Provider publishes develops or produces in
connection with this Contract.”).
19

79a
provisions of the Fair Practices Ordinance incorporated into the Services Contract under Article XV, §
15.1, apply to CSS’s provision of services, the Court
turns to CSS’s argument that it nevertheless need not
comply with these all-comers, nondiscrimination provisions because compliance would violate CSS’s rights
under the Free Exercise and Establishment Clauses of
the First Amendment, the Pennsylvania Religious
Freedom Act (“RFPA”), and the Free Speech Clause of
the First Amendment.
1. Free Exercise Clause Claim
i. The Services Contract And Fair
Practices Ordinance Incorporated
In The Services Contract Is A Neutral Law Of General Applicability
Subject To Rational Basis Review
The First Amendment to the United States Constitution provides that “Congress shall make no law . . .
prohibiting the free exercise [of religion].” Tenafly
Eruv Ass’n, Inc. v. Borough of Tenafly, 309 F.3d 144,
165 (3d Cir. 2002) (quoting U.S. Const. amend. I.) (alteration in original). The strictures of the Free Exercise Clause apply to state and local government under
the Fourteenth Amendment. See Cantwell v. Connecticut, 310 U.S. 296, 303 (1940) (holding the religious
protections under the First Amendment apply to the
states through the Due Process Clause of the Fourteenth Amendment). “Depending on the nature of the
challenged law or government action, a free exercise
claim can prompt either strict scrutiny or rational basis review.” Tenafly Eruv Ass’n, Inc., 309 F.3d at 165.

80a
When a challenged law “is ‘neutral’ and ‘generally
applicable,’ and burdens religious conduct only incidentally, the Free Exercise Clause offers no protection.” Id. at 165 (citing Employment Div. v. Smith, 494
U.S. 872, 879 (1990)); see also Fraternal Order of Police Newark Lodge No. 12 v. City of Newark, 170 F.3d
359, 364 (3d Cir. 1999) (explaining that in cases involving state laws affecting religious freedoms, Smith
is the appropriate framework for analysis because the
federal Religious Freedom Restoration Act of 1993,
passed by Congress in response to Smith, does not apply to state actions). Thus, the constitutionality of a
neutral and generally applicable state or local law under the Free Exercise clause is evaluated using the rational basis standard. 20
By contrast, “if a law is not neutral . . . or is not
generally applicable . . . strict scrutiny applies and the
burden on the religious conduct violates the Free Exercise Clause unless it is narrowly tailored to advance
a compelling government interest.” Tenafly Eruv
Ass’n, Inc., 309 F.3d 144 at 165 (citing Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S.
520, 532, 542 (1993)). “A law is not neutral if it has as
its ‘object . . . to infringe upon or restrict practices because of their religious motivation.’” Lighthouse Inst.
for Evangelism, Inc. v. City of Long Branch, 510 F.3d
253, 275 (3d Cir. 2007) (citing Lukumi, 508 U.S. at
533). “A law is not generally applicable when it ‘pro-

“[R]ational basis review requires merely that the action be rationally related to a legitimate government objective.” Tenafly
Eruv Ass’n, Inc., 309 F.3d 144 at 165 n.24.
20

81a
scribes particular conduct only or primarily when religiously motivated.’” Id. at 275 (citing Tenafly, 309 F.3d
at 165).
Even if a law is neutral and generally applicable on
its face, if “government officials exercise discretion in
applying a facially neutral law, so that whether they
enforce the law depends on their evaluation of the reasons underlying a violator’s conduct, they contravene
the neutrality requirement if they exempt some secularly motivated conduct but not comparable religiously
motivated conduct.” Tenafly Eruv Ass’n, Inc., 309 F.3d
144 at 165–66. Unless there is evidence of government
targeting of religious conduct “for distinctive treatment” then the framework for analysis under Smith,
494 U.S. 872, will govern the review of a challenged
law or action. Tenafly Eruv Ass’n, Inc., 309 F.3d 144 at
167 (quoting Lukumi, 508 U.S. at 534).
In the absence of case law directly addressing the
factual circumstances presented in this case, the
Court finds the Supreme Court’s decision in Christian
Legal Soc’y Chapter of the Univ. of California, Hastings Coll. of the Law v. Martinez, 561 U.S. 661, 698
(2010) instructive. In Martinez, the Supreme Court reviewed a law school’s policy requiring student groups
who wished to take advantage of the benefits of official
recognition by the law school to comply with an allcomers/nondiscrimination policy. A faith-based student group argued that the University’s insistence
that the student group comply with the all-comers policy violated, among other things, the group’s right to
the free exercise of religion. Id.
A group of law students at a public law school
formed a chapter of the Christian Legal Society

82a
(“CLS”) that required its members to sign a “Statement of Faith” and adhere to bylaws that would “exclude from affiliation anyone who engages in ‘unrepentant homosexual conduct.’” Id. at 672. CLS applied
for registered student organization (“RSO”) status
with the law school. RSO status would confer on CLS
various benefits including subsidies of CLS’s events
with funds originating from the school-wide mandatory student-activity fee, use of certain law school facilities, and the ability to advertise events to the student body using the law school’s communication channels and the use of the law school’s name and logo in
advertising. Id. at 669–70. To qualify for RSO status,
the law school required applicants to agree to a nondiscrimination policy that would prohibit the applicant from discriminating against prospective members
on the basis of “race, color, religion, national origin,
ancestry, disability, age, sex or sexual orientation.” Id.
at 671. CLS would not adopt the nondiscrimination
policy and, accordingly, the school withheld RSO status and its attending benefits from CLS. Id. at 673.
In upholding the law school’s conditioning of RSO
status and attending benefits on CLS’s acceptance of
the nondiscrimination policy, the Supreme Court reasoned that the law school’s policy was, in essence, a
neutral “all comers” policy and that the law school,
“caught in the crossfire between a group’s desire to exclude and students’ demand for equal access, may reasonably draw a line in the sand permitting all organizations to express what they wish but no group to discriminate in membership.” Id. at 694. The Supreme
Court continued stating that:
[t]he question here . . . is not whether [the law
school] could, consistent with the Constitution,

83a
provide religious groups dispensation from the
all-comers policy by permitting them to restrict
membership to those who share their [sincerely
held religious belief]. It is instead whether [the
law school] must grant that exemption. This
Court’s decision in Employment Div., Dept. of
Human Resources of Ore. v. Smith, . . . unequivocally answers no to that latter question.
Martinez, 561 U.S. at 694 n.24. The Supreme Court
further considered the fact that RSOs “are eligible for
financial assistance drawn from mandatory studentactivity fees . . . the all-comers policy ensures that no
[law] student is forced to fund a group that would reject her as a member.” Id. at 688. Ultimately, the Supreme Court held that the law school’s policy was constitutional despite its incidental effect on CLS and its
ability to receive RSO benefits, including financial
support for its activities. Id. at 698.
The Court also considers the U.S. District Court for
the Western District of Michigan’s decision in Teen
Ranch, Inc. v. Udow, 389 F.Supp.2d 827 (W.D. Mich.
2005), which was affirmed by the Sixth Circuit in Teen
Ranch, Inc. v. Udow, 479 F.3d 403 (6th Cir. 2007), because the court’s rationale in Teen Ranch provides
some analytical assistance on the present facts.
In Teen Ranch, a faith-based residential home for
troubled youth, Teen Ranch, sued a state agency,
charged with placing troubled youth in protective care,
after the state agency issued a moratorium against
further placements of children with Teen Ranch due
to Teen Ranch’s policies and practices that violated
laws prohibiting the use of state funds for sectarian
activities. 389 F.Supp.2d at 829–32. Teen Ranch argued that the state’s moratorium on new placements

84a
with Teen Ranch “violate[d] the Free Exercise Clause
because it conditions the receipt of a governmental
benefit on Teen Ranch’s surrender of its religious beliefs and practices and burdens the free exercise of
Plaintiff’s religious beliefs without satisfying the strict
scrutiny standard.” Id. at 837. In rejecting Teen
Ranch’s free exercise challenge, the district court reasoned that “[u]nlike [cases involving] unemployment
benefits or the ability to hold office, a state contract for
youth residential services is not a public benefit.” Id.
at 838 (emphasis added). The district court relied on
the Supreme Court’s decision in Locke v. Davey and
explained that in Locke:
where the [Supreme] Court reviewed a state
scholarship program that excluded any student
who was pursuing a degree in devotional theology . . . [a]lthough the law was not facially neutral with respect to religion, the [Supreme]
Court held that it did not violate the Free Exercise Clause [because the law] ‘imposes neither
criminal nor civil sanctions on any type of religious service or rite . . . And it does not require
students to choose between their religious beliefs and receiving a government benefit. The
State has merely chosen not to fund a distinct
category of instruction.
Teen Ranch, 389 F. Supp. 2d at 838 (citing Locke v.
Davey, 540 U.S. 712, 720–21 (2004)). The district court
in Teen Ranch, thus, recognized that the context in
which a purported burden on religious expression occurs is critical in determining whether the state has
violated the Free Exercise Clause. There is a difference between fundamental benefits such as unemployment compensation and voluntary contracts for the

85a
provision of government services. Id. at 838 (stating
that there is no support for the proposition that “the
State can be required under the Free Exercise Clause
to contract with a religious organization”). 21 On appeal, the Sixth Circuit stated “[a]fter thoroughly reviewing the record, we believe that the district court
was correct in reaching its conclusions.” Teen Ranch,
479 F.3d at 410.
In this case, the Services Contract and the Fair
Practices Ordinance incorporated into the Services
Contract is, on its face, a neutral law of general applicability under Smith, therefore, the Court applies
the rational basis test to determine the constitutionality of the Services Contract and its application to CSS.
First the Court concludes that the Services Contract and Fair Practices Ordinance are neutral with
respect to religion because there is no evidence that
the Services Contract or Fair Practices Ordinance
were drafted or enacted with the object “to infringe
upon or restrict practices because of their religious motivation.” Lighthouse Inst. for Evangelism, Inc., 510
F.3d at 275 (quoting Lukumi, 508 U.S. at 533) (emphasis added). The plain language of the Services Contract

The state court in Catholic Charities of the Diocese of Springfield, et al. v. Madigan, et al. similarly focused on context in
granting summary judgment for the State of Illinois in a factually
analogous dispute to the dispute in this case. See Section IV.A for
a summary of the case in Madigan; see also Summary Judgment
Order 2, Catholic Charities of the Diocese of Springfield, et al. v.
Madigan, et al., No. 2011-MR-254 (Ill. Cir. Ct. Aug. 18, 2011)
(concluding that despite Catholic Charities’ long history of participation in foster care, it did not have a right to a state contract
for foster care).
21

86a
and the plain language and history of the Fair Practices Ordinance as incorporated into the Services Contract demonstrate neutrality. Article XV, § 15.1 of the
Services Contract makes no reference to religion except that § 15.1 would protect individuals receiving
services under the Services Contract from religious
discrimination. Decl. of James Amato Ex. C, ECF p.
18–19 of 39, ECF No. 13-5 (“Provider shall not discriminate or permit discrimination against any individual
because of . . . religion.”). The plain language of the
Fair Practices Ordinance likewise supports a finding
of neutrality. The Fair Practices Ordinance makes no
reference to religion except that it, again, prohibits
service providers from discriminating on the basis of
religion. Philadelphia Fair Practices Ordinance § 91106, Chapter 9-1100 of the Philadelphia Code.
The legislative history and intent of the Fair Practices Ordinance similarly supports a finding of neutrality. Philadelphia City Council first enacted the
Fair Practices Ordinance in 1963 long before the present dispute between the Parties. Philadelphia City
Council amended the Fair Practices Ordinance in
1982, thirty-six years before the events relevant to this
case, to broaden the scope of its inclusion policy to protect Philadelphians on the basis of, among other
things, sexual orientation. Indeed, the Legislative
Findings section of the Fair Practices Ordinance explained the reasons for its enactment. The Fair Practices Ordinance provides that Philadelphia’s population:
Consists of people of every race, ethnicity, color,
religion, national origin, sex, sexual orientation,
gender identity, ancestry, age, disability, mari-

87a
tal status, and familial status . . . [and] [d]iscrimination in places of public accommodation
causes embarrassment and inconvenience to
citizens and visitors of the City, creates
breaches of the peace, and is otherwise detrimental to the welfare and economic growth of
the City.
§ 9-1101. The history and text of the Fair Practices Ordinance provide no basis to conclude that the Fair
Practices Ordinance has as its object the infringement
of religious rights. Accordingly, the Fair Practices Ordinance, as incorporated by the Parties into the Services Contract, is neutral.
The Services Contract and the Fair Practices Ordinance are also generally applicable. In this case, the
Services Contract was, in fact, applied generally. The
general applicability of the Services Contract and Fair
Practices Ordinance is not only evident from the text
of the Services Contract, but also from the actions
DHS and Philadelphia took in this case. First, the Services Contract and Fair Practices Ordinance do not
“proscribe particular conduct only or primarily when
religiously motivated;” they proscribe only CSS’s ability to turn away qualified Philadelphians on the basis
of particular character traits without regard to secular
or religious reasons. Lighthouse Inst. for Evangelism,
Inc., 510 F.3d at 275 (citing Tenafly, 309 F.3d at 165).
Among the character traits that CSS may not consider
when refusing to serve qualified Philadelphians are
“perceived race, ethnicity, color, sex, sexual orientation, religion, national origin, ancestry, age, disability,
marital status, source of income, familiar [sic] status . . . ” Article XV, § 15.1.

88a
As applied in this case, the Services Contract and
Fair Practices Ordinance were, in fact, implemented
in a general manner. Not only has DHS confirmed that
it would not permit any foster agency under contract,
faith-based or not, to turn away potential foster parents for the foster parents’ characteristics under the
Services Contract and Fair Practices Ordinance, DHS
also closed intake of new referrals by CSS and Bethany Christian Services for the same reason. This evidence supports the conclusion that DHS and Philadelphia are not applying the Services Contract or the Fair
Practices Ordinance to target particular religious denominations for any religious reason. 22
Having concluded that the Services Contract and
Fair Practices Ordinance are apparently facially neutral and generally applicable and appear to have been
neutrally and generally applied in this case, the Court
concludes that Defendants’ enforcement of the Services Contract and Fair Practices Ordinance is rationally related to a number of legitimate government objectives. While the standard for rational basis review
is well known, it bears repeating:
Under rational basis review, ‘[a] statute is presumed constitutional, and the burden is on the
one attacking the legislative arrangement to
negative every conceivable basis which might
This fact contradicts Plaintiffs’ argument that DHS and Philadelphia specifically targeted CSS for its Catholic practices and
association with the Archbishop of the Philadelphia Archdiocese.
See below Section IV.C.2.ii addressing Plaintiffs’ argument that
strict scrutiny should apply in reviewing Defendants’ actions because Defendants purportedly targeted Plaintiffs for Plaintiffs’
religious beliefs.

22

89a
support it, whether or not that basis has a foundation in the record.’ . . . The regulation must be
reasonable and not arbitrary and it must bear
‘a rational relationship to a [permissible] state
objective.’”
Lighthouse Inst. for Evangelism, Inc., 510 F.3d at 278
(internal citation omitted). While not directly applicable to the local contracting practices at issue in this
case, the imposition of contractual conditions in government services contracts has a long and well-established history. Indeed, the courts, in reviewing federal
contracts, have frequently upheld conditions placed on
contractors through federal executive orders. See, e.g.,
Exec. Order No. 8802, 6 F.R. § 3109 (Jun. 25, 1941)
(requiring “[a]ll contracting agencies of the Government of the United States . . . include in all defense
contracts . . . a provision obligating the contractor not
to discriminate against any worker because of race,
creed, color, or national origin” even before the enactment of the Civil Rights Act of 1964); PA Exec. Order
2016-05
(Apr.
7,
2016),
https://www.governor.pa.gov/executive_orders/executive-order-2016-05contract-compliance/ (prohibiting “discrimination by
reason of race, gender, creed, color, sexual orientation,
or gender identity or expression” in the “award, selection, or performance of any contracts or grants issued
by Commonwealth agencies”).
Here, Defendants have at least six permissible governmental objectives that are furthered by seeking
CSS’s compliance with the Services Contract. First,
DHS and Philadelphia have a legitimate interest in
ensuring that when contractors agree to terms in a
government contract, the contractors adhere to those

90a
terms. Second, DHS and Philadelphia have a legitimate interest in ensuring that when its contractors
voluntarily agree to be bound by local laws, the local
laws are enforced. Third, DHS and Philadelphia have
a legitimate interest in ensuring that when they employ contractors to provide governmental services, the
services are accessible to all Philadelphians who are
qualified for the services. Fourth, in the context of foster care and adoption, DHS and Philadelphia have a
legitimate interest in ensuring that the pool of foster
parents and resource caregivers is as diverse and
broad as the children in need of foster parents and resource caregivers. Fifth, DHS and Philadelphia have a
legitimate interest in ensuring that individuals who
pay taxes to fund government contractors are not denied access to those services. 23 Sixth, DHS and Philadelphia have an interest in avoiding likely Equal Protection Clause and Establishment Clause claims that
would result if it allowed its government contractors
to avoid compliance with the all-comers, nondiscrimination provisions of the Fair Practices Ordinance by
discriminating against same-sex married couples. 24
See Martinez, 561 U.S. at 688 (concluding that the fact that
where University organizations may receive funding derived
from a mandatory student-activity fee, that the University has
an interest in ensuring that no student “is forced to fund a group
that would reject her as a member.”).
23

See, e.g., Campaign for Southern Equality v. Mississippi Dep’t
of Human Servs., 175 F.Supp.3d 691 (S.D. Miss. 2016) (granting
injunction to same-sex couples against state department of human services on basis that state law prohibiting adoption by
same-sex couples violated federal equal protection under Obergefell v. Hodges, 135 S.Ct. 2584 (2015)).
24

91a
That Defendants have legitimate objectives in this
case is clearer still in view of the Supreme Court’s decision in Martinez, 561 U.S. 661 and the decision in
Teen Ranch, 389 F. Supp. 2d 827. In Martinez, the Supreme Court explained that where a public law school
was “caught in the crossfire between a group’s desire
to exclude and [an interest in] equal access, [the law
school] may reasonably . . . permit[] all organizations
to express what they wish but no group to discriminate
in membership.” 561 U.S. at 694. In this case, DHS
and Philadelphia are in much the same position as the

The Court notes that while the Third Circuit rejected “avoiding
‘an Establishment Clause controversy’” as a government interest
in Tenafly, in that case, the Third Circuit concluded that strict
scrutiny applied and, thus, a “possible” Establishment Clause
controversy could not meet the exacting requirements of a “compelling” government interest. 309 F.3d at 172. Further, in
Tenafly, the Third Circuit concluded that the existence of an Establishment Clause controversy was, in essence, impossible.
Here, faced with the Supreme Court’s ruling in Obergefell, recognizing marriage for same-sex couples and marriage’s attending
benefits, and faced with the fact that CSS conditions the provision of its services on prospective parents’ procurement of a clergy
letter, the possibility of an Equal Protection and Establishment
Clause claim is not as remote a possibility as was the case in
Tenafly.
The Court also notes here that although CSS has disclaimed responsibility as a government actor in connection with some aspects of its claims, CSS, otherwise has urged the Court to consider CSS as a government contractor “akin to a government employee” in connection with its argument on Free Speech grounds.
Pls.’ Br. 26, ECF No. 10-2. The Court need not decide whether
CSS would qualify as a state actor at this time in connection with
any possible Equal Protection or Establishment Clause claim.

92a
law school in Martinez and, like the law school in Martinez, they may permit government contractors to express what the contractors wish but may also insist
that their contractors adhere to contractual obligations to serve all-comers and not discriminate. To permit a contractor to avoid a contractual provision requiring the contractor to accept all those who seek
their services unilaterally would permit what the Supreme Court explained could not be permitted in Martinez. 25
In this case, as in Teen Ranch, context matters. In
Teen Ranch, the district court aptly drew a distinction
between cases involving essential government benefits
such as unemployment compensation or the ability to
hold office, and “a state contract for youth residential
services, which is not a public benefit.” 389 F. Supp.
2d at 838; see also Summary Judgment Order 2, Catholic Charities of the Diocese of Springfield, et al. v.
Madigan, et al., No. 2011-MR-254 (Ill. Cir. Ct. Aug. 18,
2011) (granting summary judgment for State of Illinois reasoning that Catholic Charities did “not have a
legally recognized protected property interest in the
renewal of its contracts for foster care and adoption
services”). There is no support for the proposition that
“the State can be required under the Free Exercise
Clause to contract with a religious organization.” Id.
at 838. Here, CSS seeks, as the plaintiff in Teen Ranch
When asked whether the public law school was required to exempt a faith-based student group’s decision from an all-comers/nondiscrimination policy, the Supreme Court answered that
“[t]his Court’s decision in Employment Div., Dept. of Human Resources of Ore. v. Smith, . . . unequivocally answers no to that . . .
question.” Martinez, 561 U.S. at 694 n.24.
25

93a
sought, a government services contract on terms that
it deems acceptable, but unlike those cases where the
government withheld essential benefits on religious
grounds, CSS is not entitled to a government services
contract to perform governmental work. It further
bears repeating that there is no evidence in the record
that either DHS or Philadelphia has withheld a new
contract or contractual compensation to CSS on religious grounds. The Court concludes that the terms of
Services Contract, as applied by Defendants in this
case, would likely survive rational basis review.
ii. No Evidence Of Targeting To Trigger Strict Scrutiny
Although the Court concludes that rational basis
review applies in this case, the Court addresses Plaintiffs’ argument that strict scrutiny review should apply instead.
At the outset, the Court acknowledges the Parties’
varying citations to the recent Supreme Court case,
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights
Comm’n, 138 S.Ct. 1719 (2018). Masterpiece Cakeshop,
however, has little bearing on this case in view of Masterpiece Cakeshop’s narrow holding. Among other narrow propositions, Masterpiece Cakeshop stands for the
unfortunately now-remarkable proposition that disputes such as the one before this Court “must be resolved with tolerance.” Id. at 1732.
In an attempt to show that Defendants’ actions are
subject to strict scrutiny despite the facial neutrality
and general applicability of the Services Contract provisions at issue, and DHS’s and Philadelphia’s expressed preference to continue contracting with CSS,
Plaintiffs allege that Defendants have targeted CSS

94a
“purely based on its religious beliefs.” Pls.’ Br. 17, ECF
No. 13-2. In support of their claim of targeting, Plaintiffs point to (1) anti-Archdiocese of Philadelphia and
anti-Archbishop of Philadelphia comments made by
the Mayor of Philadelphia to show that DHS and Philadelphia intentionally sought to penalize CSS for its
religious beliefs and exercise, and (2) the purported selective, discretionary enforcement of “laws or legal instruments in a way that burdens conduct for religious
reasons but not secular reasons.” Pls.’ Br. 21, ECF No.
13-2. Plaintiffs draw too strong a conclusion from the
Mayor’s comments and misapprehend the way in
which “secular exemptions” might show a government’s actions are not neutral or generally applied so
as to trigger strict scrutiny.
First, contrary to Plaintiffs’ contentions, the
Mayor’s comments do not support the conclusion that
DHS targeted CSS for its Catholic beliefs because (a)
there was insufficient evidence at the preliminary injunction phase to show that the Mayor had any influence in DHS’s decisions in this case, thereby rendering
the comments irrelevant to these proceedings, and (b)
even comments the Mayor made relating to Catholicism do not demonstrate targeting in light of the fact
that DHS also closed Bethany Christian Services’s referrals intake, a non-Catholic agency, that similarly
would not comply with its obligation to serve all-comers under its foster agency contract.
Plaintiffs cite four comments involving the Mayor
of Philadelphia that purportedly show that DHS

95a
closed CSS’s intake due to CSS’s Catholic beliefs. 26
First, Plaintiffs cite a nearly three-year-old Philadelphia Magazine article about then mayoral candidate
Jim Kenney in which Kenney appeared critical of policies of the Archdiocese of Philadelphia and the Archbishop of Philadelphia, but appeared otherwise approving of Pope Francis, Catholic sisters, and other
Catholic orders and programs. 27 Second, Plaintiffs cite
a nearly two year old Philadelphia Inquirer article in
which Mayor Kenney was quoted as saying that Philadelphia Archbishop Chaput’s guidelines on the implementation of a Catholic text, Amoris Laetitia, were
“not Christian.” 28 Third, Plaintiffs cite a March 16,

The difficulty in Plaintiffs relying on the Mayor’s statements,
in part, stems from the fact that the Mayor himself was raised
Catholic and, therefore, it is conceivable that when the Mayor has
commented on Catholicism in the past, he was commenting on
Catholic ideas as they related to his own faith. The Supreme
Court has recently reminded the courts that they are to “take care
not to engage in [] any judicial psychoanalysis” of lawmakers.
Trump v. Hawaii, No. 17-965, 2018 WL 3116337, at *37 (U.S.
June 26, 2018) (Sotomayor, J., dissenting). This is why the courts,
when determining the intent of legislators, generally confine
their review to statements made contemporaneously with the legislation in question. Id.

26

Patrick Kerkstra, Jim Kenney’s Long War With The Archdiocese,
Phillymag.com,
(July
9,
2015,
11:23
PM),
https://www.phillymag.com/citified/2015/07/09/jim-kenney-catholic- archdiocese-charles-chaput/.
27

David O’Reilly, Chaput Edict Draws Mixed Reviews; Kenney
Calls It ‘Not Christian’, Philly.com, (Jul. 6, 2016, 11:04 PM),
http://www.philly.com/philly/news/20160707_Cha28

96a
2018 comment by the Mayor where the Mayor stated
“we cannot use taxpayer dollars to fund organizations
that discriminate against people because of their sexual orientation or because of their same-sex marriage
status . . . It’s just not right.” 29 Fourth, Plaintiffs cite
a May 7, 2018 letter indicating that the Philadelphia
Commission on Human Relations was investigating
CSS’s policy of turning away certain persons based on
their status as same-sex and married at “the request
of the Mayor.” See (initial) Injunction Motion Ex. 1-G
(sealed), ECF No. 10-14.
Plaintiffs rely too heavily on these four citations to
draw a sweeping conclusion that CSS has suffered impermissible hostility at the hands of the Mayor. The
evidence submitted at the three-day evidentiary hearing is insufficient to draw the conclusion Plaintiffs
would have the Court draw. There was no evidence to
show that the Mayor directed DHS to close CSS’s intake of new referrals or to insist that CSS comply with
its contractual obligation to serve all Philadelphians.
See Jun. 19, 2018 Hr’g Tr. 166:6–21 (Figueroa) (testifying that Commissioner Figueroa herself “decided
that it was in the best interest [of children] to close
put_edict_draws_mixed_reviews Kenney_c alls_it not_Christian_.html. See Mot. for Temporary Restraining Order or Preliminary Injunction Ex. 1-J, ECF No. 10-17.
Tom MacDonald, Philly Halts Foster Placements With 2 FaithBased Agencies Shutting Out LGBT Couples, WHYY.com, (Mar.
16, 2018), https://whyy.org/articles/philly-halts-foster- placements-2-faith-based-agencies-shutting-lgbt-couples/. This article
was cited in Plaintiffs’ Brief and is attached as Exhibit 1-U to
Plaintiffs’ initial Injunction Motion. See Mot. for Temporary Restraining Order or Preliminary Injunction Ex. 1-U, ECF No. 1028.
29

97a
intake, so that [Figueroa] could look more deeply into”
CSS’s and Bethany Christian Services’s policies);
Figueroa Decl. ¶ 32, ECF No. 20-6 (same); Jun. 18,
2018 Hr’g Tr. 96:2–3 (Ali) (testifying that, to Ali’s
knowledge, Commissioner Figueroa herself decided to
close CSS’s intake of new referrals); Jun. 21, 2018 Hr’g
Tr. 108:11–13, 108:18–20 (Figueroa) (testifying that
Commissioner Figueroa did not know the Mayor’s
views on CSS when Figueroa met with CSS, nor did
Figueroa “discuss cutting off intake with the Mayor’s
office”).
That DHS made its own decision to close intake is
supported by the fact that DHS has closed intake for
other foster care agencies in the past for a number of
reasons and, thus, intake closure is a relatively unremarkable DHS administrative action that may be
taken to address a number of agency concerns. See,
e.g., Jun. 21, 2018 Hr’g Tr. 5:14–15 (Figueroa) (testifying that “I have closed intake in other circumstances
for other providers.”); Jun. 21, 2018 Tr. 8:24-25–9:1
(Figueroa) (testifying that the week before, DHS also
closed intake for another agency). In short, there is insufficient evidence in the record to show that the
Mayor was involved in DHS’s decision to close CSS’s
and Bethany Christian Services’s intake of new referrals. Therefore, the Mayor’s comments are irrelevant
to this case and cannot support Plaintiffs’ claim of religious hostility and intentional targeting.
Each of Plaintiffs’ four citations purportedly showing DHS’s intentional targeting of CSS on religious
grounds cannot support Plaintiffs’ conclusion for a
number of other reasons. Plaintiffs’ first two citations
are three and two years old, respectively. The events
that precipitated this case occurred in March 2018.

98a
These first two citations, as a matter of timeliness, if
not substance, are irrelevant. Plaintiffs’ third citation
to the Mayor’s comment that “we cannot use taxpayer
dollars to fund organizations that discriminate
against people because of their sexual orientation or
because of their same-sex marriage status . . . It’s just
not right” is, by its plain terms, not about religious
views, but about whether publicly funded service providers may refuse to serve all Philadelphians, including those that are in same-sex marriages. Plaintiffs’
fourth citation, to a May 7, 2018 letter in which the
Philadelphia Commission on Human Relations indicated that the Commission would undertake an investigation, in part, at the request of the Mayor, was sent
after DHS made an independent decision to close CSS
and Bethany Christian Services’s intake. The letter,
therefore, cannot support a conclusion that the Mayor
was involved in DHS’s decision.
Plaintiffs also have pointed to Commissioner
Figueroa’s statement at the May 15 meeting between
DHS officers and CSS management that “it would be
great if we listened to the teachings and the words of
our current Pope Francis” as another ground on which
to rest its targeting and preference allegations. Jun.
21, 2018 Hr’g Tr. 106:1–3 (Figueroa). As with the
Mayor’s comments, Plaintiffs draw too broad a conclusion from the Commissioner’s statement. The fact remains that DHS closed intake for both CSS and Bethany Christian Services, a non- Catholic organization.
This fact undercuts Plaintiffs’ position that DHS has
targeted CSS for its Catholic beliefs. Further, Commissioner Figueroa’s words themselves are unclear
whether references to “we” and “our current Pope

99a
Francis” were references to her own beliefs as a Catholic who was educated by the Jesuit order, or as a representative of DHS. Jun. 19, 2018 Hr’g Tr. 149:5–18.
As cautioned by Justice Sotomayor, the Court will not
engage in judicial psychoanalysis on these facts.
Trump v. Hawaii, No. 17-965, 2018 WL 3116337, at
*37.
In an another attempt to show that DHS has targeted CSS on religious grounds, Plaintiffs argue that
DHS has granted secular exemptions to the Services
Contract’s fair practices provisions, but now refuse a
religious exemption to CSS. Plaintiffs, however, misapprehend how religious targeting may be proven
through the government’s provision of “secular exemptions.” On this issue, the Third Circuit’s decision in the
case Fraternal Order of Police Newark Lodge No. 12 v.
City of Newark, provides the framework for determining whether the government is impermissibly providing secular exemptions to a regulation, and not providing comparable religious exemptions to the same regulation in violation of the First Amendment. 170 F.3d
359 (3d Cir. 1999).
In Fraternal Order of Police, the Third Circuit considered a police department regulation that prohibited
its officers from wearing beards to maintain uniformity among the officers. 170 F.3d at 361. The regulation applied generally to all officers, but the police
department carved out a categorical exemption for officers who had medical reasons for keeping a beard. Id.
By contrast, the police department refused to carve out
a categorical exemption for officers who had religious
reasons for keeping a beard. Id. Then Circuit Judge
Alito wrote for the Third Circuit that the police department’s exemption from the no-beard policy on medical

100a
grounds “raise[d] concern because it indicate[d] that
the [police department] ha[d] made a value judgment
that secular (i.e., medical) motivations for wearing a
beard are important enough to overcome its general
interest in uniformity but that religious motivations
are not.” Id. at 366 (emphasis added). The focus of
analysis must be on whether the government exempts
activities that would violate the policy at issue for secular reasons, but not for religious reasons. Thus, in
Fraternal Order of Police, the focus was on the police
department’s provision of a secular exemption from
the no-beard policy.
Here, the policy at issue is the fair practice provisions of CSS’s Services Contract, that is the all-comers, nondiscrimination provisions. The question is
whether DHS grants exemptions to the fair practice
provisions of foster agency contracts for secular reasons, but denies CSS an exemption for religious reasons thereby evidencing an impermissible governmental value judgment that secular motivations for violating fair practice provisions are more important than
religious motivations. The answer to this question is
no. There is no evidence in the record to show that
DHS has granted any secular exemption to the requirement that its foster care agencies provide their
services to all comers. Plaintiffs have not alleged, nor
have Plaintiffs presented, any evidence that DHS has
granted exemptions to any secular agency to permit a
secular agency to refuse its services to all comers in
contravention of any fair practices provisions of any
foster services contract.
The purported secular exemptions to which Plaintiffs point to show religious targeting are not, in fact,
exemptions to the fair practices requirements and, as

101a
such, cannot be considered evidence of targeting. CSS
complains that DHS has permitted “referrals of families for a variety of secular reasons, including proximity, expertise in caring for medical needs, expertise in
addressing behavioral needs, ability to find foster
placements for pregnant youth, expertise working in a
‘kin care’ program, and other specialties or areas of focus.” Pls.’ Br. 21, ECF No. 13-2. These “secular reasons,” however, are not exemptions from fair practices
requirements. DHS permits agencies to “refer” prospective foster parents to specialty agencies equipped
to handle certain special needs, but nowhere is there
evidence in the record that DHS permits agencies to
refuse to provide their services to prospective foster
parents in violation of the fair practices policies contained in government contracts or local law. While
CSS has represented that it would euphemistically
“refer” same-sex couples to other foster agencies willing to serve same-sex couples, CSS’s “referral” to another agency would nevertheless amount to CSS’s refusal to serve that same-sex couple.
As there is insufficient evidence to support the conclusion that DHS has explicitly targeted CSS for religious reasons, strict scrutiny is inapplicable in this
case.
2. Establishment Clause Claim
Plaintiffs also assert a claim under the Establishment Clause based on Defendants’ alleged “engag[ment] in denominational preference and targeting.” Pls.’ Br. 24, ECF No. 10-2. The First Amendment
to the U.S. Constitution provides that “there should be
‘no law respecting an establishment of religion.’”
Lemon v. Kurtzman, 403 U.S. 602, 612 (1971) (quoting

102a
the First Amendment)). The Supreme Court has provided two tests for deciding whether government action runs afoul of the Establishment Clause: the “endorsement test” and the Lemon test. Doe v. Indian
River School Dist., 653 F.3d 256, 282–83 (3d Cir.
2011). Plaintiffs have not articulated how, if at all, Defendants’ actions fit under either test. Instead, Plaintiffs have simply asserted that Defendants have
“demonstrate[d] a preference for some religious groups
over CSS.” Pls.’ Br. 24, ECF No. 13-2. The Court cannot conclude that Plaintiffs have met their burden of
showing entitlement to relief under the Establishment
Clause. The Court will, nevertheless, address Plaintiffs’ Establishment Clause arguments as they have
articulated them below, despite Plaintiffs’ failure to
articulate a claim under the endorsement test or the
Lemon test.
In support of Plaintiffs’ Establishment Clause
claim, Plaintiffs cite to the same purported evidence of
religious targeting that they cited in connection with
their free exercise claim, that is, evidence of the
Mayor’s alleged bias against the Archdiocese of Philadelphia and the Archbishop of Philadelphia. Plaintiffs
argue that the Mayor’s comments in tandem with
DHS’s actions “demonstrate an intent to target Catholic Social Services based upon disagreement with
[CSS’s] religious beliefs.” Pls.’ Br. 25, ECF No. 10-2. As
discussed in connection with Plaintiffs’ religious targeting argument, above, the evidence does not support
Plaintiffs’ sweeping conclusion.
In pursuing its Establishment Clause claim, CSS
glosses over the fact that it has not been singled out
for its policy of refusing to serve all qualified Philadel-

103a
phians. DHS closed Bethany Christian Services’s intake of new referrals for the same reason DHS closed
CSS’s intake. Jun. 21, 2018 Hr’g Tr. 12:9–23
(Figueroa) (testifying that DHS closed Bethany Christian Services’s intake and that its intake remains
closed, however, Bethany Christian Services has represented that it will enter into a new contract with the
DHS for the coming year and comply with the fair
practices requirements under its contract). That DHS
closed intake for CSS, which operates under the command of the Archdiocese of Philadelphia, and also
closed intake for Bethany Christian Services, not associated with the Archdiocese of Philadelphia, militates against concluding that DHS has engaged in denominational preference and targeting. The Mayor’s
allegedly anti-Archdiocese of Philadelphia and antiArchbishop of Philadelphia comments offer no support
to Plaintiffs’ argument of denominational preference
and targeting because DHS also closed Bethany Christian Services’s intake, which is not associated with the
Archdiocese of Philadelphia or the Archbishop of Philadelphia.
Plaintiffs have not demonstrated entitlement to relief under the Establishment Clause.
3. Pennsylvania Religious Freedom Act
Claim
Plaintiffs’ next lodge a statutory claim under the
Pennsylvania Religious Freedom Act (“RFPA”). 71 Pa.
Cons. Stat. Ann. §§ 2401–2407. Before turning to the
substance of Plaintiffs’ claim, the Court emphasizes
that Plaintiffs’ claim is a state law claim. Under certain circumstances a district court may abstain from
ruling on a state law issue, such as the issue in this

104a
case, in favor of allowing the state courts an opportunity to address the issue. Indeed, in Combs v.
Homer-Center School Dist., the Third Circuit vacated
a district court order awarding a defendant summary
judgment on a RFPA claim and ordered the district
court to remand the matter to the appropriate state
court for adjudication. 540 F.3d 231, 253–254 (3d Cir.
2008). The Third Circuit explained in Combs, that
“[b]ecause all federal issues have been decided on summary judgment and since [the plaintiffs’] RFPA claim
raises a novel and potentially complex issue of State
law, we will decline to exercise supplemental jurisdiction over [the plaintiffs’] pendent state law claim.” 540
F.3d at 254. Notwithstanding the Third Circuit’s guidance that the district courts remain wary of intruding
upon state law matters, the Court will address Plaintiffs’ RFPA claim in view of the procedural posture of
this case.
At the preliminary injunction stage, the Third Circuit has advised that considerations of the novelty and
potential complexity of a state law question “have very
little weight.” New Jersey-Philadelphia Presbytery of
the Bible Presbyterian Church v. New Jersey State Bd.
of Higher Educ., 654 F.2d 868 (3d Cir. 1981) (concluding that the concerns implicated by the Pullman doctrine, which permits courts to abstain from deciding
certain complex state law matters are of less import at
the preliminary injunction stage). While the state law
matters presented in this case are complex, the Court
finds that state court precedent provides a sound basis
for a decision on Plaintiffs’ RFPA claim at the preliminary injunction stage.
Section 2401 of RFPA provides:

105a
(a) General rule. Except as provided in subsection
(b), an agency shall not substantially burden a
person’s free exercise of religion, including any
burden which results from a rule of general applicability.
(b) Exceptions. An agency may substantially burden a person’s free exercise of religion if the
agency proves, by a preponderance of the evidence, that the burden is all of the following:
(1) In furtherance of a compelling interest of the
agency.
(2) The least restrictive means of furthering the
compelling interest.
71 Pa. Cons. Stat. Ann. § 2404 (emphasis added).
While RFPA would appear, on its face, to protect a
wide range of religious activity, the Third Circuit has
noted that “[s]ignificantly, not all burdens on the exercise of religion trigger the RFPA’s heightened scrutiny.” Brown v. City of Pittsburgh, 586 F.3d 263, 285
(3d Cir. 2009). The Third Circuit has explained that
the nature of our society is such that “virtually all legislation . . . imposes an incidental burden at some level
by placing indirect costs on an individual’s activity.”
Id. at 285 (internal quotation omitted) (alteration in
original). When the costs of legislation may affect religious freedoms, the Pennsylvania General Assembly
has “identified a substantiality threshold as the tipping point for requiring heightened justifications for
governmental action.” Id. at 285 (citing Combs v.
Homer-Center School Dist., 540 F.3d 231, 262 (3d Cir.
2008) (Scirica, C.J., concurring)). RFPA further “requires ‘as a threshold matter’ that persons invoking its

106a
protections ‘prove . . . that their free exercise of religion has or will likely be substantially burdened’ by
‘clear and convincing evidence’.” Id. at 285 (citing
Combs, 540 F.3d at 253 (per curiam)) (emphasis
added). The Third Circuit has quoted Chief Judge Scirica’s concurring opinion in Combs for the proposition
that “by requiring proof of ‘a substantial burden’ by
clear and convincing evidence, Pennsylvania appears
to have set a higher threshold than other religious restoration statutes.” Id. at 285 (citing Combs, 540 F.3d
at 262 (Scirica, C.J., concurring)) (emphasis added).
Under RFPA, a law substantially burdens a person’s fundamental religious exercise if it:
(1) Significantly constrains or inhibits conduct
or expression mandated by a person’s sincerely held religious beliefs.
(2) Significantly curtails a person’s ability to express adherence to the person’s religious
faith.
(3) Denies a person a reasonable opportunity to
engage in activities which are fundamental
to the person’s religion.
(4) Compels conduct or expression which violates a specific tenet of a person’s religious
faith.
71 Pa. Cons. Stat. Ann. § 2403. In determining
whether the government substantially burdens a person’s free exercise of religion under RFPA, a state law,
the Court looks to the way in which the state law has
been interpreted and applied by state courts.
In Ridley Park United Methodist Church v. Zoning
Hearing Bd. Ridley Park, 920 A.2d 953 (Pa. Commw.

107a
Ct. 2007), the Commonwealth Court reviewed a
church’s claim that a town zoning ordinance prohibiting the operation of a church-run religious childcare
center on the church’s property violated the church’s
free exercise under RFPA. The Commonwealth Court
framed the issue presented as “whether the Church
would be ‘substantially burdened’ if it was precluded
from operating a daycare center because it would lose
‘a reasonable opportunity to engage in activities which
are fundamental to [its] religion.’” 920 A.2d at 960
(quoting 71 Pa. Cons. Stat. Ann. § 2403). The Commonwealth Court resolved the issue by concluding
that:
nothing here impinges on the religious activities of the Church. While it aided in carrying out
the Church’s religious mission, the daycare is
not a fundamental religious activity of a church.
For example, ministering to the sick can flow
from a religious mission, but it is not a fundamental religious activity of a church because a
hospital may be built to satisfy that mission.
Id. at 960. Thus, the Commonwealth Court concluded
the zoning ordinance “does not violate the RFPA” because “the [c]hurch failed to meet its burden of proving
that it was substantially denied a reasonable opportunity to engage in activities that were fundamental
to its religion.” Id.
In Staple v. Dep’t of Corrections, the Commonwealth Court considered a situation in which the
Pennsylvania Department of Corrections confiscated
religious texts from an inmate. 2014 WL 2927286 at
*4 (Pa. Commw. Ct. 2014) (not precedential). While
Staple involved the application of a specific carve out
under RFPA that grants correctional facilities greater

108a
authority to burden inmates’ religious freedoms, the
case, nevertheless, provides some insight into the limits of RFPA. A person’s access to religious texts would
ostensibly be one of the most fundamental religious
rights, and yet, even under RFPA, a state agency may
confiscate and prohibit an individual’s access to such
texts. Id. at 4. The result in Staple, thus, would confirm the Third Circuit’s observation in Brown that
“Pennsylvania appears to have set a higher threshold
than other religious restoration statutes” and that
RFPA does not provide protection in many circumstances. Id.at 285 (citing Combs, 540 F.3d at 262 (Scirica, C.J., concurring)); see also Brown, 586 F.3d at 288
(holding that RFPA provides only as much protection
to religiously motivated expression as the First
Amendment’s Free Speech Clause).
In Commonwealth v. Parente, the Commonwealth
Court addressed a defendant’s assertion that a city
noise control ordinance prohibiting the defendant’s
use of a hand-held microphone with speakers to “exercise his religious beliefs” in accordance with “the dictates of his conscience and serv[ing] God by peacefully
preaching and counseling people,” violated his rights
under RFPA. 956 A.2d 1065, 1073 (Pa. Commw. Ct.
2008). The Commonwealth Court held that the application of the ordinance and the defendant’s conviction
thereunder did not violate the defendant’s rights under RFPA because “the defendant failed to establish
that the activities he engaged in were fundamental to
his religion.” Id. at 1074. Instead, the defendant
proved only that “he engaged in these activities based
upon his religious beliefs or that [the activities] flowed
from a religious mission.” 956 A.2d at1074 (emphasis
added). In so holding, the Commonwealth Court drew

109a
a distinction between those activities that are fundamental to a person’s religion and those activities that
may be inspired by or flow from a religious mission.
These state court decisions interpreting RFPA
highlight what the Third Circuit has noted in other
cases: the analytical framework established by RFPA
“appears to create some tension between state and federal law.” Combs, 540 F.3d at 258. While the “United
States Supreme Court has cautioned against making
religious interpretations in the First Amendment context,” the Pennsylvania General Assembly and the
Commonwealth’s courts appear to require courts to
“inquire into . . . whether an activity is fundamental
to a person’s religion.” Id.
In this case, Plaintiffs have articulated their fundamental religious exercise as “providing foster care to
Philadelphia children.” Pls.’ Br. 13, ECF No. 13-2; see
also Pls.’ Proposed Findings of Fact and Conclusions
of Law ¶ 120, ECF No. 46 (stating that “[c]aring for
foster children is a fundamental religious exercise for
Plaintiffs); Jun. 19, 2018 Hr’g Tr. 37 (Amato) (testifying that “the church’s care for orphans . . . at-risk children . . . [is] intrinsic to who we are and what we do.”).
Although the decision in Ridley Park raises significant
doubt about whether Pennsylvania courts would consider foster care to be a fundamental religious exercise, 30 the Court will assume, for purposes of the In-

As discussed in detail above, the Commonwealth Court held
that childcare “is not a fundamental religious activity of a church”
even if childcare may “aid[] in carrying out the Church’s religious
mission.” Ridley, 920 A.2d at 960. Indeed, the Commonwealth
30

110a
junction Motion, that “providing foster care to . . . children” constitutes a fundamental religious exercise under RFPA. Pls.’ Br. 13, ECF No. 10-2.
Assuming that providing foster care to children
constitutes a fundamental religious exercise, the next
question under RFPA analysis is whether holding CSS
to its obligations under the Services Contract, in particular its obligation to provide its services to all-comers in accordance with the Fair Practices Ordinance,
substantially burdens CSS’s provision of foster care to
children. The Court concludes that CSS’s provision of
foster care to children is not substantially burdened in
this case because CSS is not reasonably likely to show
by clear and convincing evidence that its fundamental
religious exercise has been substantially burdened under any of the four definitions of “substantial burden”
provided under RFPA. 31 Requiring CSS’s compliance
Court reasoned that while “ministering to the sick can flow from
a religious mission . . . it is not a fundamental religious activity
of a church.” Id. at 960. There is little question that “providing
foster care to . . . children” likely flows from and aides CSS’s religious mission, but it is not as clear, that foster care is a fundamental religious exercise under Ridley Park.
Plaintiffs claim that “all four types of burden” considered “substantial” under § 2403 of RFPA are implicated in this case. Plaintiffs assert that DHS’s actions “[s]ignificantly constrain[] or inhibit[] conduct or expression mandated by [Catholic Social Services’] religious beliefs” and “[d]en[y] [CSS] a reasonable opportunity to engage in activities which are fundamental to the
[agency’s] religion.” Pls.’ Proposed Findings of Fact and Conclusions of Law ¶ 126, ECF No. 46 (alterations in original); see also
Pls.’ Br. 12, ECF No. 10-2 (asserting same burdens using verbatim language). Elsewhere, Plaintiffs also state that DHS’s actions
“curtail . . . Catholic Social Services’ ‘ability to express adherence’

31

111a
with the terms of the Services Contract does not: constrain or inhibit CSS from conduct or expression mandated by its religious beliefs, curtail CSS’s ability to
express adherence to CSS’s religious faith, deny CSS
a reasonable opportunity to “provide foster care to children,” or compel CSS to engage in conduct or expression that violates a “specific tenet” of CSS’s religious
faith.
Resolution of the issue of “substantial burden” requires the Court to focus on what precisely CSS has
been asked to do in this case and whether doing it necessarily results in a conflict with CSS’s religious beliefs. CSS has been asked, and indeed CSS agreed
when it entered into the Services Contract, to serve all
persons who seek CSS’s services consistent with the
all-comers provisions of the Fair Practice Ordinance.
Compliance with the all-comers provisions would, as
discussed above, require CSS to provide certification
services to prospective parents regardless of, among
other things, religion, race, marital status, sexual violence victim status, sex, sexual orientation, gender
identity, or age. CSS contends that compliance with
the all-comers provision of the Services Contract necessarily compels it to engage in “conduct and expression contrary to Catholic teaching,” in particular,
Catholic teaching about marriage. Pls.’ Br. 14, ECF
No. 10-2.

to its faith, and attempt to ‘[c]ompel[] conduct or express which
violates a specific tenet of [Catholic Social Services’] religious
faith.’” Pls.’ Br. 14, ECF No. 10-2 (alterations in original).

112a
CSS contends that the provision of certification services for same-sex couples would require CSS to express its religious approval of same-sex relationships
in contravention of Catholic teaching about marriage.
This is not the case. To illustrate this point, if, for example, CSS were to certify a couple where one spouse
is previously divorced, CSS’s certification would not
suggest that CSS approved of divorce as a religious
matter. In short, CSS was hired to provide a scope of
services to the citizens of Philadelphia that is narrower than CSS contends.
The Services Contract requires CSS to “recruit,
screen, train, and provide certified resource care
homes” consistent with the all-comers provisions of
the Fair Practices Ordinance Decl. of James Amato
Ex. A, ECF p. 28 of 52, ECF No. 13-3. The Services
Contract does not require CSS to do anything in connection with prospective foster parents but certify prospective foster parents as meeting state guidelines for
foster care. CSS is imbuing its certifications with
meaning that is not required or compelled by the Services Contract. The Services Contract does not require
CSS to express its religious approval or disapproval of
persons seeking out its services. The Services Contract
does not require CSS to do or say anything else in connection with CSS’s religious views.
With this understanding in mind, the Court concludes that DHS has not and is not constraining Plaintiffs’ ability to engage in the provision of foster care to
children by imposing on CSS a contractual condition
that would require CSS to violate its religious beliefs
or curtail CSS’s ability to express its religious beliefs.
In essence, if CSS provides its services consistent with
the minimal requirements of the all-comers provisions

113a
of the Fair Practices Ordinance, then CSS may continue to provide foster care to children. This does not
constitute a substantial burden on CSS’s religious exercise of providing foster care to children. As to the individual Plaintiffs, as discussed in detail below and in
connection with the irreparable harm prong, the individuals are not constrained by Defendants’ actions in
connection with CSS in their fostering of children because the individual Plaintiffs are, as they always
have been, entitled to be foster parents with any of the
thirty foster care agencies with whom DHS has contracted.
4. Free Speech Claims
Plaintiffs allege two claims under the Free Speech
Clause of the First Amendment. First, Plaintiffs allege
that the services CSS provides under the Services
Contract relating to certification of prospective foster
parents are services for which CSS is not paid, therefore, by requiring CSS to provide certifications DHS is
compelling CSS to engage in unpaid for speech. Second, Plaintiffs contend that DHS and Philadelphia retaliated against CSS for CSS’s comments published in
the March 13 Philadelphia Inquirer article in violation
of the Free Speech Clause. The Court rejects both
claims. First, in hiring CSS to perform services under
the Services Contract, DHS and Philadelphia did not
seek to create a forum for private speech nor did they
seek to promote speech at all. Rather, DHS contracted
for specific services relating to DHS’s responsibility of
providing foster care services to the citizens of Philadelphia, including certification services and home visits for prospective foster parents. This is the case
whether CSS was paid in a lump sum or per diem as
CSS contends. Second, there is insufficient evidence to

114a
conclude that DHS retaliated against CSS for CSS’s
religious views as opposed to CSS’s confirmation that
its policies directly contradict the Services Contract.
i. Compelled Speech
In resolving Plaintiffs’ claim that DHS and Philadelphia are impermissibly conditioning CSS’s contract
on unconstitutionally compelled speech, the Court begins by identifying the purpose of the contract because
the purpose of the contract is the springboard for analysis. 32
The U.S. Supreme Court’s decision in Legal Services Corp. v. Velazquez advised courts to look to the
purpose of a government program when analyzing
whether a government condition to participation in
the program is constitutional under the First Amendment. 531 U.S. 533 (2001). In Legal Services Corp., a
group of lawyers employed by the New York City Legal
Services Corp., sought a declaration that Congress’s
imposition of a funding condition on legal services under the Legal Services Corporation Act was an unconstitutional restriction of their freedom of speech. Id. at
536. Congress’s funding condition prohibited legal services corporations’ use of federal funds to “amend or
The Court disagrees that DHS and Philadelphia are conditioning the grant of a contract to CSS on CSS’s agreement to “adopt
[a] particular belief.” Pls.’ Proposed Findings of Fact and Conclusions of Law 67, ECF No. 46. DHS and Philadelphia ask only
what they would ask of any contracting party, that CSS enter into
the contract consistent with the duty of good faith and fair dealing. DHS and Philadelphia have asked CSS to confirm that, to
the extent CSS would enter into an agreement that CSS could
perform in accordance with the contract’s fair practices provisions.
32

115a
otherwise challenge existing welfare law.” Id. In ruling that the funding condition of the Legal Services
Corporation Act was unconstitutional, the Supreme
Court focused on the purpose of the law. The law was
“designed to facilitate private speech, not promote a
governmental message.” Id. at 542. Indeed, advice
from legal services corporation attorneys to their clients, the Supreme Court concluded, “cannot be classified as governmental speech even under a generous
understanding of the concept.” Id. at 543.
As the Legal Services Corporation Act’s purpose
was to facilitate private speech, and as the speech in
which legal services corporation attorneys were engaged was not governmental speech, the Supreme
Court held that the law’s funding condition was unconstitutional. In so holding, the Supreme Court, however, also acknowledged that “[w]hen the government
disburses public funds to private entities to convey a
governmental message, it may take legitimate and appropriate steps to ensure that its message is neither
garbled nor distorted by the grantee.” Legal Servs.
Corp., 531 U.S. 533, 541–42 (2001) (quoting Rosenberger v. Rector and Visitors of Univ. of Va., 515 U.S.
819, 833 (1995)) (emphasis added).
In this case, DHS’s purpose in entering into the
Services Contract with CSS and its other foster care
agencies is for CSS and the other twenty-nine foster
care agencies to provide foster care services. The Services Contract is not intended here, in contrast to the
Legal Services Corporation Act in Legal Servs. Corp.,
to create a forum for private speech or to facilitate private speech. CSS and its sister agencies were hired to
perform governmental functions for DHS and Phila-

116a
delphia. That CSS’s services under the Services Contract parallel many of DHS’s own, provides support for
the conclusion that CSS is performing governmental
work, including the dissemination of governmental
messages. For example, CSS is required under the
Services Contract to recruit prospective foster parents,
and, in fact, CSS has recruited prospective foster parents in much the same way that DHS has recruited
prospective foster parents. Compare Jun. 18, 2018
Hr’g Tr. 65:14–19 (testifying that she saw television
commercials soliciting prospective foster parents)) and
Foster Care & Adoption Services, https://cssphiladelphia.org/adoption/ (last visited Jul. 1, 2018) (advertising CSS’s foster care and adoption services to members of the public through a website) with Jun. 18,
2018 Hr’g Tr. 101:19–101:2 (Ali) (describing phone
bank recruiting event) and Jun. 19, 2018 Hr’g Tr.
161:23–162:1 (Figueroa) (describing recruitment as a
general foster-care responsibility). That CSS’s work
under the Services Contract was governmental in nature, is further supported by the fact that the Services
Contract stipulated that written materials published
by CSS relating to services rendered under the Services Contract were to identify DHS as a funding
source. CSS’s work under the Services Contract is,
thus, an extension of DHS’s own work and CSS’s
speech, to the extent any is required under the Services Contract, constitutes governmental speech under Legal Servs. Corp.
As CSS’s speech, to the extent any is required under the Services Contract, constitutes governmental
speech, DHS is permitted to “take legitimate and appropriate steps to ensure that its message,” that foster

117a
care services in Philadelphia are provided to all Philadelphians consistent with the all-comers provision of
the Fair Practices Ordinance, was and is “neither garbled nor distorted by” CSS. Legal Servs. Corp., 531
U.S. 541–42.
Plaintiffs rely on Cradle of Liberty Council, Inc. v.
City of Philadelphia, in support of their argument that
Defendants have impermissibly conditioned CSS’s
public contract on compelled speech. 851 F. Supp. 2d
936, 948 (E.D. Pa. 2012). Plaintiffs’ reliance on Cradle
of Liberty, however, is misplaced for at least two reasons. First, Cradle of Liberty is not binding on this
Court. Second, Cradle of Liberty is otherwise not persuasive because the facts at issue in that case are not
analogous to the facts at issue here. Cradle of Liberty
concerned a Boy Scout troop that was using a city-subsidized building to carry out youth activities, all while
refusing membership to prospective gay Boy Scouts.
The City attempted to change the Boy Scout troop’s
general policy on membership for prospective gay
Scouts by conditioning the lease of the building on a
policy change. Ultimately, the district court concluded
that the City could not use the lease to change the tenant Boy Scout troop’s general policies when the policies were not related to the use of the building.
The critical difference between Cradle of Liberty
and this case is that in Cradle of Liberty, the City attempted to use a lease agreement to change a tenant’s
policy that was unrelated to the lease. See id. at 943
(emphasis added) (providing that the City had informed the tenant that “it had to completely abandon
its practice of denying membership to homosexuals,
even in contexts unrelated to the subsidized building”). In this case, by contrast, Defendants’ insistence

118a
that CSS serve all-comers consistent with the Services
Contract is central to the purpose of the Services Contract. Defendants have not conditioned CSS’s Services
Contract on CSS changing its activities, views, opinions outside the context of the Services Contract. CSS
may continue to refuse its private services to same sex
couples outside the confines of the Service Contract
and outside of CSS’s role as a DHS foster care agency.
ii. Retaliation
CSS concedes that “[a]s a contractor, Catholic Social Services is treated as ‘akin to a government employee’ addressing matters of ‘public concern.’” Pls.’
Br. 26, ECF No. 13-2. For a public employee, to prevail
on a retaliation claim, the employee must show that
“(1) his speech is protected by the First Amendment
and (2) the speech was a substantial or motivating factor in the alleged retaliatory action, which, if both are
proved, shifts the burden to the employer to prove that
(3) the same action would have been taken even if the
speech had not occurred.” Munroe v. Central Bucks
Sch. Dist., 805 F.3d 454, 466 (3d Cir. 2015). The Third
Circuit has noted that the “second and third stages of
this analysis present questions for the fact finder and
are not subject to review. Baldassare v. New Jersey,
250 F.3d 188, 194–95 (3d Cir. 2001) (citations omitted).
Plaintiffs’ retaliation claim fails on elements two
and three. There is no evidence that it was CSS’s viewpoint, as opposed to CSS’s verbal and written confirmation that its policies directly conflicted with the
Services Contract, that motivated DHS to close CSS’s
intake of new referrals. Even if CSS’s engagement in
protected activity, namely CSS’s commenting to the

119a
Philadelphia Inquirer about CSS’s policies in connection with a public services contract, was a substantial
or motivating factor for DHS’s alleged retaliation, the
Court concludes that DHS would likely prevail in establishing that it would have taken the same action
had CSS not spoken with the Philadelphia Inquirer
about its policies.
For purposes of this analysis, the Court assumes
that CSS’s statements to the Philadelphia Inquirer
and the publication of those statements constitute constitutionally-protected activity. Assuming that CSS
has engaged in constitutionally-protected activity, the
next analytical step is determining whether CSS’s protected activity was a substantial or motivating factor
in the alleged retaliatory action. While CSS would
have the Court conclude that the evidence in the record shows that DHS closed CSS’s intake of new referrals because of CSS’s viewpoint as communicated to
the Philadelphia Inquirer, in fact, the evidence shows
that DHS closed CSS’s intake of new referrals because
CSS confirmed that its policies violate CSS’s contractual obligations under the Services Contract. On this
issue, the Eleventh Circuit’s decision in Keeton v. Anderson-Wiley is instructive. 664 F.3d 865 (11th Cir.
2011).
In Keeton, the Eleventh Circuit confronted a situation in which the plaintiff, a graduate student in the
Counselor Education Program at Augusta State University, sued the University for First Amendment violations after the faculty asked the plaintiff to complete
a remediation plan before she could participate in the
University’s clinical practicum. 664 F.3d at 867. The
faculty required the plaintiff to complete the remedia-

120a
tion plan as a condition to her actively counseling students as part of a clinical practicum because the faculty learned that the plaintiff intended to “convert students from being homosexual to heterosexual” once
the plaintiff obtained access to the clinic. Id. at 868–
69. University officials concluded that the plaintiff’s
intended actions would violate various provisions of
the American Counseling Association’s Code of Ethics,
a mandatory code of ethics for all universities providing counseling programs. Id. at 869. Ultimately, the
plaintiff confirmed that she would not participate in
any “remediation plan that I already know I won’t be
able to successfully complete.” Id. at 871. The University then withdrew the plaintiff from the counseling
practicum and the plaintiff filed suit. Id.
In concluding that the plaintiff’s free speech rights
had not been violated, the Eleventh Circuit focused on
the evidence of why the University asked the plaintiff
to engage in a remediation plan and why the University ultimately withdrew the plaintiff from the counseling practicum. Id. The Eleventh Circuit explained
that the plaintiff “confuse[d] her viewpoint-based objections to ASU’s officials’ actions with viewpoint discrimination.” Id. at 875. In other words, the mere fact
that the plaintiff disagreed with the legitimate reasons for the University’s actions did not transform the
University’s legitimate actions into illegitimate retaliatory actions. Indeed,
the evidence shows that, in requiring Keeton to
learn about and interact with the GLBTQ population, to read articles in counseling or psychological journals about counseling the GLBTQ
population, and to become familiar with the ALGBTIC Competencies for Counseling Gays and

121a
Transgender clients, ASU’s officials sought to
teach her how to effectively counsel GLBTQ clients in accordance with the ACA Code of Ethics.
Keeton, 664 F.3d at 874. The Eleventh Circuit reiterated elsewhere that:
the record shows that ASU’s officials imposed
the remediation plan, not because she expressed her personal religious views regarding
homosexuality, but because she was unwilling
to comply with the ACA Code of Ethics. That
this unwillingness to abide by ASU’s curriculum and her chosen profession’s ethical standards initially became apparent through her
writings and class discussions does not cloak it
in First Amendment protection.
Id. at 878 (emphasis added). Accordingly, the decision
in Keeton demonstrates that a plaintiff lodging a First
Amendment retaliation claim must establish a causal
link between the alleged retaliation and that plaintiff’s alleged protected activity. See also Briscoe v. City
of Philadelphia, 1996 WL 684316 (E.D. Pa. Nov. 27,
1996) (concluding that a contractor who was not offered a new contract was not retaliated against as result of the contractor’s testimony in court against a
city program because the contractor failed to prove
that decision not to offer her a new contract was causally linked to her protected activity).
Here, the evidence shows that DHS’s closure of
CSS’s intake of new referrals was not based on CSS’s
viewpoint as expressed in the Philadelphia Inquirer
article, but instead, based on CSS’s admission that it
would not comply with the all-comers provisions of the
Services Contract. CSS misperceives the closure of its

122a
intake as having to do with its viewpoint in the same
way the plaintiff in Keeton misperceived “her viewpoint-based objections to [the university’s] officials’ actions with viewpoint discrimination.” 664 F.3d at 875.
Although CSS expressed its position on same-sex relationships, it was not that expression that motivated
DHS’s actions. Instead, it was CSS’s indication that it
maintains a policy in direct conflict with its obligations
under the Services Contract. See, e.g., Jun. 19, 2018
Hr’g Tr. 120:7–11 (Amato) (emphasis added) (quoting
from Defendants’ letter indicating that Defendants do
“not plan to agree to any further referrals to CSS . .
. absent assurances that CSS is prepared to adhere to
contractual obligations.”).
Testimony established DHS’s reason for closing intake. Commissioner Figueroa testified that she “decided that it was in the best interest [of children] to
close intake, so that [Figueroa] could look more deeply
into” CSS’s and Bethany Christian Services’s policies.
Jun. 19, 2018 Hr’g Tr. 166:6–21 (Figueroa); Figueroa
Decl. ¶ 32, ECF No. 20-6; see also Jun. 18, 2018 Hr’g
Tr. 96:2–3 (Ali) (testifying that, to Ali’s knowledge,
Commissioner Figueroa herself decided to close CSS’s
intake of new referrals). CSS witness James Amato
further testified that he understood that DHS’s position was that CSS was “not complying with the public
accommodation requirements” under the Services
Contract. Jun. 19, 2018 Hr’g Tr. 60:11–13 (Amato); see
also Jun. 19, 2018 Hr’g Tr. 56:9–13 (Amato) (testifying
that he understood DHS’s concerns were about CSS
“not completing home studies for same-sex individuals
and couples”). CSS is not reasonably likely to show
that DHS retaliated against CSS for its religious views
and comments relating to those views.

123a
Even if CSS could establish that its engagement in
protected activity was a substantial or motivating factor for DHS’s decision to close intake and not offer CSS
a new services contract, DHS would likely meet its
burden under the third prong of the retaliation claim
that it would have taken such action in the absence of
CSS’s protected activity. In addition to testimony that
DHS would not permit any agency to refuse service to
qualified Philadelphians protected by the all-comers
provisions of the Fair Practices Ordinance, perhaps
the strongest evidence that DHS would have taken the
same course of action even in the absence of CSS’s purported protected activity is the fact that DHS, indeed,
took the same course of action in connection with Bethany Christian Services—who also made comments to
the Philadelphia Inquirer, that has similar policies in
contravention of its services contract. DHS also called
all other faith-based agencies and a non faith-based
agency to examine their policies on same-sex couples.
D. Irreparable Harm
Plaintiffs have identified five purported irreparable harms that will result absent injunctive relief: (1)
violations of Plaintiffs’ religious rights will result in irreparable harm as a matter of law, (2) violations of
Plaintiffs’ free speech right will result in irreparable
harm as a matter of law, (3) without a new government
services contract CSS will be forced to lay off staff and
possibly shut down its operations entirely, (4) with the
closure of CSS, the individual Plaintiffs and other
CSS-certified foster parents will not be able to use
their skills to foster children, and (5) the closure of
CSS will result in a rise in the number of children in
congregate care or DHS’s overnight foster care room.
The Court disagrees because these alleged harms are

124a
either not present on these facts or are otherwise not
irreparable for purposes of preliminary injunction
analysis.
The first two harms to which Plaintiffs point are
harms that would occur only if Plaintiffs First Amendment rights have been violated. As the Court explained at length above, Plaintiffs are unlikely to prevail on the merits of their First Amendment claims.
Accordingly, while a loss of First Amendment freedom
may be considered irreparable 33 these alleged harms
are not present on the facts before the Court.
Plaintiffs’ third alleged irreparable harm is the
possibility that CSS, without a new government services contract, may lay off staff or shut down its operations. It is hornbook law that the “irreparable harm
requirement is met if a plaintiff demonstrates a significant risk that he or she will experience harm that cannot adequately be compensated after the fact by monetary damages . . . this is not an easy burden.” Adams
v. Freedom Forge Corp., 204 F.3d 475, 484–85 (3d Cir.
2000) (internal citations omitted); see also Lehigh Valley Cmty. Mental Health Ctrs., Inc. v. Pa. Dep’t of Human Servs., 2015 WL 6447171 at * 3 (E.D. Pa. Oct. 26,
2015) (concluding that “going out of business” and
“thousands of clients . . . left without proper mental
health care” did not meet the standard for irreparable
See McTernan v. City of York, 577 F.3d 521, 528 (3d Cir. 2009)
(noting that the district court “acknowledged that loss of First
Amendment freedom for any period of time can be considered irreparable harm,” but holding no First Amendment violation occurred where police arrested religiously motivated protesters
who blocked access to a public performance stage and other facilities).
33

125a
harm). That this burden is particularly exacting was
made clear in the Third Circuit’s decision in Instant
Air Freight Co. v. C.F. Air Freight, Inc., 882 F.2d 797,
801 (3d Cir. 1989).
In Air Freight, the Third Circuit reversed a district
court injunction prohibiting the respondent from terminating a pivotal contract with petitioner. Id. at 798.
The contract accounted for eighty percent of petitioner’s business and, thus, the termination of the contract would have caused the petitioner to “lose the
main portion of its business, many if not all of its employees, and its goodwill and reputation.” Id. at 799.
Termination of the contract, the petitioner claimed
would “undoubtedly . . . force[] [the petitioner’s] shutdown or significantly curtail its operation.” Id. In reversing the district court’s injunction order, the Third
Circuit reviewed the petitioner’s allegations of irreparable harm including the potential that it would lay off
its employees, and close its operations. Id. at 802. The
Third Circuit, however, was unconvinced that such
harms could not be compensated by money damages
since possible damages could be calculated with relative precision. Id.
As to CSS’s claim it will be forced to lay off staff
and close its operation unless the Court issues an injunction, the Court finds these harms are economic
harms that are insufficient to meet the irreparable
harm standard for a preliminary injunction. Evidence
shows that CSS is compensated by DHS under the Services Contract and that CSS is paid on a per diem basis. See Decl. of James Amato Ex. A, ECF p. 15 of 52,
ECF No. 13-3; Jun. 21, 2018 Hr’g Tr. 11:4–7 (Figueroa)
(testifying that many contractors are paid on a per
diem basis); Jun. 21, 2018 Hr’g Tr. 139:20–24 (same)

126a
(Figueroa); Jun. 19, 2018 Hr’g Tr. 41:5–6 (Amato) (testifying that CSS “subsidized [foster care] services to
the tune of $3.8 million”). Given the Parties’ familiarity of their financial relationship, the Court concludes
that CSS’s possible harm in the form of lost revenue
under the Services Contract can be quantified and
may be fully compensable through money damages.
Plaintiffs have also not established the imminence
of their financial collapse in the absence of injunctive
relief because CSS has testified that it also has foster
care contracts with Montgomery County, PA and
Bucks County, PA. Jun. 19, 2018 Hr’g Tr. 89:3–9 (Amato). There are also interim financial arrangements
that are available to CSS. DHS Commissioner
Figueroa explained that in the past, when foster care
agencies have shut down, DHS, in fact, has provided
temporary funding to those foster care agencies to ensure smooth transitions of their staff, foster parents,
and the children. Jun. 21, 2018 Hr’g Tr. 10:23–11:9
(Figueroa). Accordingly, the economic harms to which
Plaintiffs point in support of injunctive relief are insufficient to meet the exacting standard of irreparable
harm.
Plaintiffs’ fourth alleged irreparable harm is the
purported inability of CSS-certified foster parents to
continue providing foster care services if CSS closed
its operations and the foster parents were forced to
transfer to other agencies. To prove this point, Plaintiffs called each of the four individual plaintiffs in this
case to testify to the harms that they would expect to
suffer if CSS closed its operations. Ms. Simms-Busch
testified that if CSS closed its foster program that she,
as of the time of the hearing, had “no idea” how she or
her foster children would be impacted. Jun. 18, 2018

127a
Hr’g Tr. 52:16–23 (Simms-Busch). Ms. Simms-Busch
also was unsure whether she could or could not transfer to another foster care agency. Jun. 18, 2018 Hr’g
Tr. 53:2–7 (Simms-Busch). Ms. Paul likewise was unsure what impact CSS’s closure would have on her
ability to provide foster care and was unsure whether
she could or could not transfer to another foster care
agency. Jun. 18, 2018 Hr’g Tr. 63:11–25 (Paul). Ms.
Fulton was similarly unsure what impact CSS’s closure would have on her provision of foster care, though
she would be emotionally devastated. Jun. 18, 2018
Hr’g Tr. 68:20–23 (Fulton). Each of the individual
plaintiffs expressed that CSS’s closure would be emotionally burdensome.
While transferring to another agency may be difficult, uncertain, and emotionally challenging, transferring to other agencies is neither impossible nor unlikely to be successful. Decl. Kimberly Ali ¶¶ 27–29,
ECF No. 20-1 (explaining the process by which resource parents transfer from one agency to another);
Decl. Kimberly Ali ¶¶ 34–36, ECF No. 20-1 (describing
how Lutheran Children and Family Service of Eastern
Pennsylvania’s voluntary closure was handled and explaining that there were no significant issues in transferring families to other agencies). The Third Circuit,
although acknowledging how individuals can suffer
mental anguish in connection with litigation, has held
that emotional difficulty alone cannot justify the imposition of an injunction.
In Adams, the Third Circuit concluded that even
where the denial of injunctive relief would force patients to switch doctors and medical providers and
that such a switching of doctors would prove “emotionally draining” and could present some medical risk,

128a
such harms were not the type of irreparable harm
“contemplated by the preliminary injunction standard.” 204 F.3d at 489. The Third Circuit continued
stating that “injunctions will not be issued merely to
allay the fears and apprehensions or to soothe the anxieties of the parties.” Id. at 490. In this case, in the
event CSS closes its operations, the individual plaintiffs and other non-party CSS-certified resource parents may transfer to other agencies and continue using
their skills to provide foster care to children, even
though such transfers may be challenging.
Finally, Plaintiffs argue that in the event CSS
closes its operations, the number of children in congregate care living situations will increase or the number
of children in DHS’s overnight foster care room will increase. As provided above, in connection with the factual background of this case, DHS has shown that the
closure of CSS’s intake of new referrals has had little
or no effect on the operation of Philadelphia’s foster
care system. DHS Commissioner Figueroa testified
that CSS’s intake closure “has not resulted in a rise in
children placed in congregate care.” Jun. 21, 2018 Hr’g
Tr. 86:4–87:9 (Figueroa). Further Commissioner
Figueroa testified that CSS’s intake closure “has not
resulted in a rise in children staying in DHS’s childcare room.” Jun. 21, 2018 Hr’g Tr. 86:4–87:9
(Figueroa). Figueroa’s testimony was based on her review of “weekly data” that Figueroa receives from
DHS’s “performance and technology team that . . .
have . . detailed data.” Jun. 21, 2018 Hr’g Tr. 86:16–
87:11 (Figueroa). To the extent CSS closes its operations, it would not be the first foster agency to do so in
Philadelphia. Decl. Kimberly Ali ¶¶ 34–36, ECF No.
20-1 (explaining that Lutheran Children and Family

129a
Service of Eastern Pennsylvania closed its operations
in March 2016 and its over 100 foster children were
transferred to other foster agencies over a threemonth period). Plaintiffs have not established with
sufficient evidence that irreparable harm in the form
of increased use of congregate care or the DHS overnight foster care room will result absent an injunction.
E. Balancing Of The Harms And The Public
Interest
As the Court has concluded that Plaintiffs are not
likely to succeed on the merits of their claims and have
presented insufficient evidence of irreparable harm,
the Court need not spend undue time analyzing the
remaining two factors of the preliminary injunction
standard— balancing of the equities, and the public
interest. See Reilly, 858 F.3d at 180 (providing that the
first two factors of the preliminary injunction standard are gateway factors).
In connection with the balancing of harms prong of
the analysis, Defendants called Frank Cervone as an
expert to testify to the harms that might occur if the
Court granted injunctive relief. 34 The Parties disagree
on whether Cervone’s testimony should be considered
for a variety of reasons. The Court, however, need not,
and has not relied on Cervone’s testimony in deciding
the Injunction Motion, and therefore, the Court will
Cervone serves as the executive director of the Center for Child
Advocates. Jun. 21, 2018 Hr’g Tr. 153:5–9 (Cervone). Cervone has
had, and continues to have, a long and distinguished career in
advocating for children. The Court thanks Mr. Cervone for his
dedication to a life of public service.
34

130a
not address the Parties’ arguments on the propriety of
Cervone’s testimony.
Here, even in the absence of Cervone’s testimony,
the balance of the equities tilts in favor of Defendants.
If the Court were to grant Plaintiffs’ Injunction Motion, the Court would, in essence, cast aside DHS’s and
Philadelphia’s reasonable objectives in seeking the enforcement of the Services Contract and the Fair Practices Ordinance incorporated into the Services Contract. As discussed in connection with Plaintiffs’ claim
under the Free Exercise Clause, Defendants’ interests
in this case are manifold, but at a minimum, include
six important governmental objectives.
First, DHS and Philadelphia have a legitimate interest in ensuring that when contractors agree to
terms in a government contract, the contractors adhere to those terms. Second, DHS and Philadelphia
have a legitimate interest in ensuring that when its
contractors voluntarily agree to be bound by local
laws, the local laws are enforced. Third, DHS and Philadelphia have a legitimate interest in ensuring that
when they employ contractors to provide governmental services, the services are accessible to all Philadelphians who are qualified for the services.
Fourth, in the context of foster care and adoption,
DHS and Philadelphia have a legitimate interest in
ensuring that the pool of foster parents and resource
caregivers is as diverse and broad as the children in
need of foster parents and resource caregivers. Fifth,
DHS and Philadelphia have a legitimate interest in
ensuring that individuals who pay taxes to fund government contractors are not denied access to those services. Sixth, DHS and Philadelphia have an interest in

131a
avoiding likely Equal Protection Clause and Establishment Clause claims that would result if it allowed
its government contractors to avoid compliance with
the all-comers, nondiscrimination provisions of the
Fair Practices Ordinance by discriminating against
same-sex married couples. 35
Granting an injunction in the face of the foregoing
legitimate interests would be in direct conflict with the
balance of harms and the public interest. Accordingly,
the Court concludes that the balance of harms and the
public interest militate in favor of denying the Injunction Motion.
V. CONCLUSION
For the reasons set forth above, and having considered all four factors implicated by the preliminary injunction standard, Plaintiffs’ Amended Motion for

Preventing discrimination in the provision of public services is
undeniably a legitimate interest. As the Supreme Court in Heart
of Atlanta Motel, Inc. v. United States proclaimed:
35

Discrimination is not simply dollars and cents, hamburgers and movies; it is the humiliation, frustration, and
embarrassment that a person must surely feel when he is
told that he is unacceptable as a member of the public
because of his race or color. It is equally the inability to
explain to a child that regardless of education, civility,
courtesy, and morality he will be denied the right to enjoy
equal treatment, even though he be a citizen of the
United States and may well be called upon to lay down
his life to assure this Nation continues.
379 U.S. 241, 292 (1964).

132a
Temporary Restraining Order and Preliminary Injunction (ECF No. 13) is DENIED. An appropriate Order follows.

133a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
SHARONELL FULTON,
et al.,
Plaintiffs,
v.
CITY OF PHILADELPHIA,
et al.,

CIVIL
ACTION
NO. 18-2075

Defendants.
ORDER
AND NOW, this 13th day of July, 2018, upon careful consideration of Plaintiffs’ Motion For A Temporary Restraining Order And Preliminary Injunction
(“Injunction Motion”) (Doc. 13), The City Of Philadelphia’s Memorandum Of Law In Opposition To Plaintiffs’ Motion For Temporary Restraining Order And
Preliminary Injunction (Doc. 21), Proposed Intervenors’ Memorandum of Law, Or, In The Alternative,
Amicus Brief, In Opposition To Plaintiffs’ Motion For
A Temporary Restraining Order And Preliminary Injunction (“Amicus Brief”) (Doc. 34), 1 the matters heard
at the evidentiary hearings, and Defendants’ Proposed
Findings Of Facts And Conclusions Of Law (Doc. 45),
and Plaintiffs’ Proposed Findings Of Fact And Conclusions Of Law (Doc. 46), IT IS HEREBY ORDERED
1 On June 18, 2018, the Court accepted the Intervenors’ Opposition Brief as an amicus brief. The Court’s decision was memorialized by an order dated June 19, 2018 (Doc. 33).

134a
AND DECREED that Plaintiffs’ Injunction Motion is
DENIED. 2
IT IS FURTHER ORDERED that Defendants
City of Philadelphia, Department of Human Services
for the City of Philadelphia, and Philadelphia Commission on Human Relations shall file an answer or
otherwise respond to Plaintiffs’ Complaint (Doc. 1) no
later than twenty-one (21) days from the date of this
Order.
BY THE COURT:
/s/ ____________________________
Hon. Petrese B. Tucker, U.S.D.J.

2 This Order accompanies the Court’s Memorandum Opinion
dated July 13, 2018.

135a
U.S. Constitution Amendment I provides:
Amendment I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the government for a redress
of grievances.

136a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
SHARONELL FULTON,
CECELIA PAUL, TONI LYNN
SIMMS-BUSCH, and
CATHOLIC SOCIAL
SERVICES,
v.

Plaintiffs,

CITY OF PHILADELPHIA,
DEPARTMENT OF HUMAN
SERVICES FOR THE CITY
OF PHILADELPHIA, and
PHILADELPHIA
COMMISSION ON HUMAN
RELATIONS,

Civil Action No.
18-cv-2075
Assigned to the
Honorable
Judge Tucker

Defendants.
DECLARATION OF JAMES AMATO
1. My name is James Amato. I am over the age of
21 years old and capable of making this declaration
pursuant to 28 U.S.C. § 1746. I have not been
convicted of a felony or been convicted of a crime of
dishonesty. I have personal knowledge of all the
contents of this declaration.
2. The City of Philadelphia is facing a crisis
because of the acute shortage of qualified families
available to care for the thousands of vulnerable
children who have been removed from abusive or
neglectful homes and placed in foster care. The City
relies on private foster agencies to help fill this
shortage. In March of this year, the City sent out an

137a
“urgent” call that 300 additional families are needed
for fostering.
3. Catholic Social Services exists to help fill this
need. For over 100 years, the Archdiocese of
Philadelphia has worked to provide loving foster
homes for needy children. This continues today
through the work of Catholic Social Services (CSS), a
non-profit religious corporation under the auspices of
the Archdiocese. CSS has contracted with the City on
an annual basis for over 50 years. On an average day,
Catholic Social Services serves more than 120 children
in foster care, and it supervises around 100 different
foster homes.
4. Through its contract with the City, CSS placed
these children in loving foster homes—many of whom
have worked exclusively with CSS for decades. CSS
also provides ongoing support to its foster families. In
all this time, the City has never suspended referrals to
Catholic Social Services as long as CSS had homes
available, nor has it sought to either construe the
contract to require CSS to do home studies for samesex couples or to enforce such a construction against
Catholic Social Services. A true and correct copy of this
contract is included as Attachment A.
5. There are 28 state-licensed agencies who
partner with the City to provide additional services to
foster children. Of those agencies, eight obtained
additional competitive contracts with the City to also
serve as a Community Umbrella Agency (CUA), an
entity that works to try to help at-risk children stay in
their homes where such an option would be possible
and safe for the child. If that option is not available,
the CUA refers the child to be placed in foster care. Of
the select agencies in the City who obtained additional

138a
competitive contracts to serve foster children and
families, the City ranked CSS as the second highest of
all agencies.
6. Foster care services involve placing children
with foster families who have already undergone
extensive interviews and home studies by social
workers at the agency. The agency makes a
determination whether a particular foster family
would be an appropriate family to care for foster
children. After these interviews, home studies, and
evaluations, an agency may provide a written
certification endorsing a specific foster family to care
for foster children, including thorough analysis and a
written endorsement of any relationships of the foster
parents. No same-sex couple has ever requested CSS
to provide such a written certification for foster care
services.
7. State law does not prohibit foster agencies from
declining to perform a home study, nor from referring
families to another licensed agency to perform a home
study. And in fact, foster care agencies have referred
families to other agencies regularly for a number of
secular reasons including 1) geographic constraints,
such as proximity of an agency to the child’s biological
home or current school, 2) the expertise of an agency
for particular medical needs, 3) the expertise of an
agency to address particular behavioral issues, 4)
agencies focused on finding foster placements for
pregnant youth, and 5) the expertise of an agency
focused on homes under the City’s “kin care” program.
Some agencies also specialize in finding families who
want to foster LGBT youth, including an agency
located in suburbs near Philadelphia. Other agencies
specialize in placing Native American children with

139a
families of Native American lineage.
8. Because of its religious mission, CSS would also
refer a family to one of over two dozen nearby agencies
if providing a written certification for that family
would violate CSS’s religious beliefs. In fact, four such
agencies are located within two miles of CSS’s
downtown office. Catholic Social Services has provided
foster services consistent with its religious beliefs,
without complaint, as long as it has been operating.
9. On March 15, in response to a newspaper article
discussing Catholic Social Services’ religious beliefs,
the City abruptly cut off foster care referrals to CSS,
and has threatened to make it impossible for CSS to
continue contracting with the City to provide these
services as of June 30, 2018. Only two religious foster
care agencies have been subject to contract
suspensions by the City, even though a number of
other religious groups operate foster care agencies.
10. Also on March 15, the Philadelphia City Council
passed a resolution alleging that some foster service
providers prohibit the placement of children with
LGBTQ people based on religious principles and
calling for an investigation. A true and correct copy of
this resolution is included as Attachment B. Catholic
Social Services has provided foster services consistent
with its religious beliefs, without complaint, as long as
it has been operating.
11. On March 16, the Commission on Human
Relations (Commission) sent a letter to Catholic Social
Services, to which CSS later responded. A true and
correct copy of the Commission’s letter is included as
Attachment C; a true and correct copy of Catholic
Social Services’ response is included as Attachment D.

140a
On March 27, the Operations Director at the City’s
Department of Human Services (DHS), sent an email
to other foster agencies in Philadelphia forbidding
them from referring any additional foster intakes to
Catholic Social Services. A true and correct copy of this
email is included as Attachment E.
12. On May 7, the Commission and the City’s Law
Department responded to Catholic Social Services’
April 18th letter (Attachment D), defending the City’s
actions and stating that CSS would face subpoenas
and further adverse actions under the contract in 10
days. True and correct copies of these letters are
included as Attachments F and G, respectively.
13. If the City persists in these actions, the
consequences will be severe. Currently, CSS has about
26 available spots for foster children in need of a home,
and this number is projected to increase to about 35
spots by the end of June 2018. Additionally, about a
dozen foster homes currently sit completely empty
because CSS cannot receive any referrals, and
therefore cannot place any children with these loving
parents. The number of foster parents, like Mrs. Paul,
who are willing and anxious to care for foster children
but are unable to do so at all because of the City’s
actions, will increase to about 20 by the end of June.
This number is expected to accelerate quickly if the
City’s actions continue, as CSS on average would
receive about 9 additional referrals from the City
every month prior to the current referral freeze.
14. If the City makes renewal of the contract
impossible on June 30, then many current placements
will be in jeopardy. Children who are already at a
vulnerable point in their lives stand to have those lives
disrupted again, since their foster parents are certified

141a
and supported by CSS and cannot automatically
receive foster placements and support from another
agency.
15. The City’s current actions are resulting in
placements being made that are not in the best
interest of children. A court has already had to order
the City to place a child with the former foster mother
of that child—a mother working with CSS. And right
now, an urgent situation is ongoing where the City is
refusing to place a special needs child, referred to as
Doe Foster Child #1, with his former foster mother
named Doe Foster Mother #1, even though no other
permanent home for the child is currently available
and the child is languishing in temporary respite
homes. Included as Attachment H is a true and correct
copy of the email a social worker at Catholic Social
Services sent seeking to resolve this situation. My
understanding is that under normal circumstances,
Doe Foster Child #1 would have been placed with his
former foster mother almost immediately after he was
removed from the other home due to an emergency,
and no court order or court determination would have
been necessary since she was the only permanent
home available. The CUA assigned to Doe Foster Child
#1 has expressed the position that it would be in Doe
Foster Child #1’s best interest to return to Doe Foster
Mother #1’s care, as she is prepared to adopt Doe
Foster Child #1. I am aware that the Child Advocate
with the Philadelphia Defender Association assigned
to Doe Foster Child #1’s case has also expressed her
opinion that the child should be returned to Doe Foster
Mother #1’s care. Yet DHS is still resisting this
outcome. The reason DHS provided to Doe Foster
Child #1’s social worker for denying the placement was

142a
the City’s current dispute with Catholic Social
Services.
16. I am aware of multiple additional children who
have been referred elsewhere when CSS families
should have been the preferred placement for those
children as a result of the City’s freeze on referrals to
CSS.
17. If the City continues refusing to refer children
to CSS, or if the City fulfills its threat to permanently
end CSS’s foster care service to Philadelphia children
on June 30th, CSS will probably have to close its foster
program and immediately lay off the staff involved in
this program. Relying on its contract with the City,
CSS has hired 15 staff members dedicated exclusively
to its foster services program and has budgeted and
raised funds designed to supplement the City’s
funding for foster care. Were CSS forced to close this
program, CSS would also lose the network of foster
families it has carefully cultivated over the years.
Restarting this program later from scratch would be
incredibly difficult, and likely impossible. Even if a
new contract were not signed by June 30th, however,
CSS could continue operating under the current
contract if referrals resume. It is commonplace for CSS
to continue operating under an old contract in
agreement with the City until a new contract could be
drafted and signed. True and accurate signature pages
from prior contracts showing the date of ratification
are included as Attachment I.
18. Attachment J is a true and correct copy of an
article entitled Chaput edict draws mixed reviews;
Kenney calls it ‘not Christian’, visited on June 4, 2018,
and available at http://www.philly.com/philly/news/20
160707 Chaput edict draws mixed reviews Kenney

143a
calls it not Christian .html.
19. Attachment K is a true and correct copy of an
article entitled Jim Kenney’s Long War with the
Archdiocese, visited on June 4, 2018, and available at
https://www.phillymag.com/citified/2015/07/09/jimkenney-catholic-archdiocese-charleschaput/#Ipkpzv0aRJyCyIrL.99.
20. Attachment L is a true and correct copy of an
article entitled Project Discovery by Crossroads, last
visited on June 4, 2018, and available at
http://crossroadsprograms.org/wp-content/uploads/
2016/07/Project-Discovery-Brochure.pdf.
21. Attachment M is a true and correct copy of an
article titled Crossroads Programs Inc: LGBTQ
Focused Services, last visited on June 4, 2018, and
available at https://www.mightycause.com/organizati
on/Crossroads-Programs.
22. Attachment N is a true and correct copy of an
article titled Local Organization Seeks Foster Parents
for LGBTQ Youth, list visited on June 4, 2018, and
available at https://www.phillymag.com/gphilly/2014/05/28/local-organization-seeks-fosterparents-lgbtq-youth/.
23. Attachment O is a true and correct copy of an
article titled N.J. Youth Agency Looks to Match LGBT
Adults, Teens, last visited on June 4, 2018, and
available at http://www.epgn.com/news/regional/7396
-25314381-nj-youth-agency-looks-to-match-lgbtadults-teens.
24. Attachment P is a true and correct copy of a
website titled Mother/Baby Host Home, last visited on
June 4, 2018, and available at https://www.pa-

144a
mentor.com/who-we-serve/children-andfamilies/motherbaby-host-home/.
25. Attachment Q is a true and correct copy of a
website titled Therapeutic Foster Care, last visited on
June 4, 2018, and available at https://www.pamentor.com/who-we-serve/children-andfamilies/therapeutic-foster-care/.
26. Attachment R is a true and correct copy of a
document titled Pennsylvania Indian Child Welfare
Handbook, last visited on June 4, 2018, and available
at http://www.pacwrc.pitt.edu/ICWA/Indian%20Child
%20Welfare% 20Handbook.pdf.
27. Attachment S is a true and correct copy of a
website titled Welcome to Rainbow Adoptions, last
visited on June 4, 2018, and available at
http://www.cotraic.org/adopt.html.
28. Attachment T is a true and correct copy of a
document titled Quarterly Indicators Report.
29. Attachment U is a true and correct copy of an
article titled Philly halts foster placements with 2
faith-based agencies shutting out LGBT couples, last
visited on June 4, 2018, and available at
https://whyy.org/articles/philly-halts-fosterplacements-2- faith-based-agencies-shutting-lgbtcouples/.
30. Attachment V is a true and correct copy of
testimony entitled Education Interrupted: How We Are
Failing Our Children in Residential Placements, last
visited on June 4, 2018, and available at
https://www.elc-pa.org/wpcontent/uploads/
018/05/ELC-Testimony-Before-City-Council-ReResidential-Placements-May-17-2018.pdf.

145a
31. Attachment W is a true and correct copy of an
article entitled Two foster agencies in Philly won’t
place kids with LGBTQ people, last visited on June 4,
2018, and available at http://www.philly.com/philly/
news/foster-adoption-lgbtq-gay-same-sex-phillybethany-archdiocese-20180313.html.
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on June 4, 2018.
/s James Amato
James Amato

146a
City of Philadelphia
Council of the City of Philadelphia
Office of the Chief Clerk
Room 402, City Hall
Philadelphia
(Resolution No. 180252)
RESOLUTION
Authorizing the Committee on Public Health and
Human Services to investigate Department of Human
Services’ policies on contracting with social services
agencies that either discriminate against prospective
LGBTQ foster parents or allow non-LGBTQ foster parents to discriminate.
WHEREAS, Currently, approximately 700 children in Philadelphia are residing in group home placements, and according to the Philadelphia School Notebook more than 8,000 children were in foster care at
some point during 2016; and
WHEREAS, In March 2018 the Department of Human Services announced its first major recruitment of
foster parents in more than a decade—putting out an
urgent call for 300 parents which included specific appeals to the LGBTQ community—to help move children from group homes into family settings; and
WHEREAS, The Department of Human Services
currently has contracts with several social service providers for foster care placement and adoption services
which were collectively reimbursed by the City for $3
million in 2017; and
WHEREAS, According to Section 14.1 of the City of
Philadelphia Professional Services Contract, providers “shall not discriminate or permit discrimination

147a
against any individual because of race, color, religion,
ancestry or national original, sex, gender identity, sexual orientation, age or disability”; and
WHEREAS, At least two of these providers have
policies that prohibit the placement of children with
LGBTQ people based on religious principles, although
the City of Philadelphia has laws in place to protect its
people from discrimination that occurs under the guise
of religious freedom; and
WHEREAS, The Fair Practices Ordinance is the
City’s local anti-discrimination law, enacted in 1963 to
prohibit discrimination in Philadelphia in employment, housing, and places of public accommodation in
addition to covering over 16 protected categories such
as race, religion, national origin, age, sex, disability,
sexual orientation, and gender identity; and
WHEREAS, Any agency which violates City contract rules in addition to the Fair Practices Ordinance
should have their contract with the City terminated
with all deliberate speed; and
WHEREAS, The Department should also conduct
a thorough review of its contracts with all of its 26 foster care agencies to ensure that providers are adhering
to antidiscrimination policies as they pertain to the
City’s protected classes, now, therefore, be it
RESOLVED, BY THE COUNCIL OF THE CITY
OF PHILADELPHIA, That it hereby authorizes the
Committee on Public Health and Human Services to
investigate Department of Human Services’ policies on
contracting with social services agencies that either
discriminate against prospective LGBTQ foster parents and allow non-LGBTQ foster parents to discriminate against children.

148a
CERTIFICATION: This is a true and correct copy
of the original Resolution, Adopted by the Council of
the City of Philadelphia on the fifteenth of March,
2018.
Darrell L. Clarke
PRESIDENT OF THE COUNCIL
Michael A. Decker
CHIEF CLERK OF THE COUNCIL
Introduced by: Councilmembers Bass, Green, Gym
and Parker
Sponsored by: Councilmembers Bass, Green, Gym,
Parker, Reynolds Brown, Jones, Blackwell, Greenlee,
Squilla, Oh and Johnson

149a
CITY OF PHILADELPHIA
COMMISSION ON HUMAN RELATIONS
601 Walnut Street, Suite 300 South
Philadelphia, PA 19106
Telephone (215) 686-4670
Fax (215) 686-4684
THOMAS H. EARLE, ESQUIRE
Chairperson
RUE LANDAU, ESQUIRE
Executive Director
March 16, 2018
Reverend John J. McIntyre
Board President
Catholic Social Services
Auxiliary Bishop, Archdiocese of Philadelphia
222 North 17th Street, 3rd Floor
Philadelphia, PA 19103
We are writing in response to the March 13, 2018
Philadelphia Inquirer article, Two Foster Agencies in
Philly Won’t Place Kids with LGBTQ People that
indicated Catholic Social Services (CSS) is denying
services to same sex couples, and other individuals in
the lesbian, gay, bisexual, transgender, and Queer
(LGBTQ) community.
This nondiscrimination language is memorialized in
Article XIV, Section 15.1 of the City’s Professional
Services
Contract
with
your
organization.
Specifically, the contract states,
[t]his Contract is entered into under the terms
of…the Fair Practices Ordinance (Chapter 91100 of the Code)…Provider [shall not]
discriminate or permit discrimination against

150a
individuals in employment, housing and real
property
practices,
and/or
public
accommodation practices whether by direct or
indirect practice of exclusion, distinction,
restriction, segregation, limitation, refusal
denial, differentiation or preference in the
treatment of a person on the basis of actual or
perceived race, ethnicity, color, sex, sexual
orientation, gender identity, religion, national
origin, ancestry, age, disability, marital status,
source of income, familial status…or engage in
any other act or practice made unlawful
under…Chapter 9-1100…
The contract also provides that “[i]n the event of any
breach of this Section 15.1 (Non-Discrimination; Fair
Practices), the City may, in addition to any other
rights or remedies available under this Contract, at
law or in equity, suspend or terminate this Contract
forthwith.”
According to the aforementioned article, CSS
administrator Ken Gavin said, “The Catholic Church
does not endorse same-sex unions, based upon deeply
held religious beliefs and principles. As such, CSS
would not be able to consider foster care placement
within the context of a same-sex union.”
Based on the information provided in the article, it
appears that CSS may be in violation of Article XIV,
Section 14.1. Accordingly, we are writing to ask that
you provide written responses to the questions below.
Please not that any reference to “foster parent” is
inclusive of foster parent(s), kinship parent(s), and/or
pre-adoptive foster parent(s).
1) What are your policies for selecting foster care

151a
families? Please provide a copy of these policies
in writing if available;
2) Are LGBTQ individuals, whether married or
single, eligible to become foster parents with
CSS?
3) Does CSS ask individuals or couples who apply
to be foster parents if any household member
identifies as LGBTQ? List and describe all
instances in which CSS rejected attempts by
persons identifying as LGBTQ to serve as foster
parents.
4) Does CSS have a policy that denies services to
any individual based on their sexual
orientation? If so, please provide any applicable
policy;
5) Does CSS have a specific policy that denies
services to people based on their gender
identity? If so, please provide any applicable
policy;
6) Does CSS provide foster care placement to
LGBTQ youth?
7) Does CSS have a policy that prohibits the
completion of Adoption or Permanent Legal
Custodianship (PLC) family Profiles for LGBTQ
individuals whether married or single?
8) Do you have authority as a local affiliate/branch
of the larger organize to create or follow your
own policies?
9) If CSS has policies that deny services to people
based on their sexual orientation or gender
identity, are you willing to revise your policies
so that all people can have equal access to your

152a
services?
10) If CSS subcontracts any of the services it is
obligated to provide under its contract with the
City, please provide the name and location of
each entity and/or individual.
Once the requested information is provided, PCHR
would like to arrange a meeting to further discuss
CSS’s policies with regard to the placement of foster
care children and the provision of associated services
to foster care children and the families with whom
they are placed. If it is determined that CSS is in
violation of its contract with the City, we would also
like to explore potential remedies to bring CSS into
compliance with the non-discrimination provisions of
its contract.
Please provide responses to these questions within 10
days.
Sincerely,
/s/ Rue Landau
Rue Landau, Esquire
Executive Director
/s/ Thomas H. Earle
Thomas H. Earle, Esquire
Chairperson
cc:

Marcel S. Pratt, Acting City Solicitor
Cynthia Figueroa, DHS Commissioner

153a
Becket—Religious Liberty for All
1200 New Hampshire Ave., N.W.
Washington, D.C. 20036
202-955-0095/ @Becket Law
www.becketlaw.org
April 18, 2018
Mr. Thomas Earle and Ms. Rue Landau
Philadelphia Commission on Human Relations
601 Walnut Street
Suite 300 South
Philadelphia, PA 19016
Via Email
Dear Mr. Earle and Ms. Landau,
I am President of the Becket Fund for Religious
Liberty, and I represent Catholic Social Services for
the Archdiocese of Philadelphia in this matter. Becket
is the nation's leading law firm dedicated to protecting
religious freedom. Our lawyers have a remarkable
track record, including five Supreme Cou1·t victories
in the last six years. Those cases include rulings
protecting a Muslim prison inmate who was forbidden
to grow a beard, Massachusetts sidewalk counselors
restricted in their free speech near abortion clinics, the
Little Sisters of the Poor in their challenge to the
contraceptive mandate, and a Lutheran church sued
for allegedly violating anti­discrimination law. 1 These
decisions were unanimous. Most recently, we
succeeded in forcing the Trump administration to
Holt v. Hobbs, 135 S. Ct. 853 (2015) (9-0); McCullen v. Coakley,
134 S. Ct. 2518 (2014) (9-0); Zubik v. Burwell, 136 S. Ct. 1557
(2016) (9-0); Hosanna-Tabor Evangelical Lutheran Church and
School v. EEOC, 565 U.S. 171 (2012) (9-0); see also Burwell v.
Hobby Lobby, 134 S. Ct. 2751(2014) (5-4).

1

154a
change its discriminatory disaster relief policy after
litigation on behalf of churches and synagogues
damaged by hurricanes. 2
I am writing in response to your March 16, 2018
letter concerning the foster care services provided by
Catholic Social Services to the City of Philadelphia
("the City"). Your letter comes on the heels of the City's
decision to suspend referrals of future foster care
intakes to Catholic Social Services, a decision that is
both harmful to children and families and an illegal
breach of contract. While my clients are somewhat
puzzled by the Commission's involvement in the
matter and reserve the right to challenge its
jurisdiction, they welcome this opportunity to better
understand the City's goals and resolve this issue
amicably so that we can continue serving children in
need.
The Shortage of Families
As I’m sure you know, the City is facing an acute
need for more foster families to provide homes for atrisk children. Just last month, the City sent out an
“urgent” call that 300 additional families are needed
for fostering, 3 and other organizations have recognized
that the City faces a “crisis” because of “the lack of
qualified foster parents and other placement options

See Letter of Solicitor General to Clerk of the Supreme Court
(Jan. 3, 2018), available at https://s3.amazonaws.com/becketnew
site/ l7A649-Harvest-Family-Church-letter.pdf.
3
Julia Terruso, Philly puts out ‘urgent’ call—300 families needed
for fostering, Philadelphia Inquirer, March 18, 2018,
http://www.philly.com/philly/news/foster-parents-dhs-phillychild-welfare-adoptions-20180308.html.
2

155a
for the increasing number of children in care.” 4
Approximately 13,000–15,000 PA children are
currently in foster care and part of Pennsylvania’s
child welfare system, 5 and over 5,000 of those children
are in Philadelphia’s foster care system alone.
That is why the City relies on private agencies to
help fill this shortage. In Philadelphia, there are 28
agencies who partner with the city to provide foster
services. 6 Of those agencies, eight obtained additional
competitive contracts with the City to also serve as a
Community Umbrella Agency (CUA), an entity that
works to try to help at-risk children stay in their
homes where such an option would be possible and
safe for the child. If that option is not available, the
CUA refers the child to be placed in foster care.
Agencies place children with foster families who have
already undergone extensive interviews and home
studies by social workers. The social workers make a
David R. Fair, Partners for Philadelphia Families Testimony to
Philadelphia City Council, Turning Points for Children, (June
15, 2016), www.turningpointsforchildren.org/news/228-partnersfor-philadelphia-families-testimony.
5 Pennsylvania State Resource Family Association, Being A
Foster Parent: The Facts, https://www.psrfa.org/being-a-fosterparent/the-facts/ (last accessed April 4, 2018); in 2017, there
were over 25,000 youth statewide who were at some point in
Pennsylvania’s out of home placement program. Pennsylvania
Partnerships for Children, 2018 State of Child Welfare,
http://www.papartnerships.org/socw2018 (last accessed April 4,
2018); Pennsylvania Partnerships for Children, 2018 State of
Child Welfare Data Sheets, http://www.papartnerships.org/
reports/2018_socw/source_files/Pennsylvania%202018%20SOC
W.pdf (last accessed April 4, 2018).
6 City of Philadelphia, Department of Human Services, Foster
Care Licensing Agencies (contracted by Philadelphia DHS),
https://beta.phila.gov/media/20180402133414/DHS Philadelphia
Foster Care Agencies_32818.pdf (last accessed April 4, 2018).
4

156a
recommendation that a particular foster family would
be an appropriate family to care for foster children. 7
The culmination of these interviews, home studies,
and recommendations includes agency certification
that a foster family is approved to care for foster
children. 8 The City provides per diem payments only
after an agency has accepted the referral of a child and
is supervising that placement with an approved foster
family.
A foster agency provides ongoing training and
support and works with the assigned CUA case
manager to coordinate services to the foster family,
birth family and child in order to achieve a positive
outcome. Foster parents are needed not only to care for
children, but to provide mentoring to the birth family
and support the relationship between the child and the
birth family. This collaborative approach assesses the
continued appropriateness of temporary placement
and explores options for permanency through return
to the birth family, placement with kin, or adoption.
A Dedication to Children
Catholic Social Services shares the City’s goal of
working to fill the shortage of safe homes for these
vulnerable kids. Today, permanency is Catholic Social
Services’ number one priority, aimed at preventing
children from languishing too long in uncertainty.
Catholic Social Services, foster care department
prioritizes
permanency,
and
the
statistics
demonstrate its success—about 50 children per year
Pa. Code § 3700.64, https://www.pacode.com/secure/data/
055/chapter3700/s3700.64.html.
8 Pa. Code §§ 3700.61, 3700.69, https://www.pacode.com/secure/
data/055/chapter3700/s3700.69.html.
7

157a
either return to their families or move to adoption with
their foster families. 9FN9 Catholic Social Services’
Youth Division, including St. Gabriel’s System and St.
Francis & St Vincent Homes, serves 1,544 youth in
placement, and approximately 1,400 families per year
across all of its child welfare and juvenile justice
programs. As one of those programs, Catholic Social
Services Foster Care currently cares for 127 children
daily whom it has currently placed in foster
arrangements through referrals from the City.
Catholic Social Services also provides important
ancillary services to children and families. For
example, Catholic Social Services, St. Gabriel’s
System, is certified as a Sanctuary Model of TraumaInformed Care provider—a best practice standard now
hailed nationwide. Catholic Social Services also
provides educational programming via state-licensed
schools at St. Gabriel’s Hall, DeLaSalle Vocational
School and St. Francis Homes. Last year, through
Catholic Social Services programs, 132 graduates
received high school diplomas.
Catholic Social Services’ Religious Mission and
Practices
Catholic Social Services exists to transform lives
and bring about a just and compassionate society
where every individual is valued, families are healthy
and strong, and communities are united in their
commitment to the good of all. Catholic Social Services
City of Philadelphia, Department of Human Services, Resource
Parent Handbook: A Guide for Foster and Kinship Caregivers, 11
(Sept. 26, 2017), https://beta.phila.gov/media/20170926145732/
DHS-Resource-Handbook-FINAL-VERSION-small.pdf
(discussing the importance of permanency for children).
9

158a
works towards a world touched by God’s mercy: where
poverty and need are alleviated and all people share
justly in the blessings of creation. Catholic Social
Services is dedicated to serving others in a spirit of
humility and genuine concern for the well-being of its
neighbors and affirms the God-given dignity and
worth of every person.
The religious mission of Catholic Social Services is
rooted historically in its foster work. In 1916, the
Catholic Children’s Bureau was established and
staffed by Missionary Sisters of the Blessed Trinity,
early Catholic pioneers in social work. Their work
continues today through the dedicated efforts of the
foster care program. This ongoing religious mission
motivates the staff of Catholic Social Services to
provide exemplary services to children and families in
Philadelphia.
Catholic Social Services serves and places children
regardless of their race, color, sex, sexual orientation,
gender identity, religion, national origin, ancestry,
age, disability, source of income, familial status,
genetic information, or sexual violence victim status.
Catholic Social Services would never stop a family who
wants to foster from having the opportunity to
complete the application and home study process,
either through Catholic Social Services or another
agency. If Catholic Social Services is unable to perform
in-depth
home
assessments
and
make
recommendations to the state for any reason,
including consistency with its religious mission, then
Catholic Social Services will refer the potential foster
parent to one of 28 nearby agencies who can better
serve their needs. Four agencies are located within

159a
just two miles of Catholic Social Services’ downtown
office.
No same-sex couples have been denied the ability
to become foster parents because of Catholic Social
Services, and no same-sex couples have filed
complaints against Catholic Social Services regarding
its provision of services.
The City’s Unlawful Suspension of Catholic
Social Services’ Contract
As the Commission is aware, on March 15, 2018,
the City announced that it was suspending referral of
future foster care intakes to Catholic Social Services.
Philadelphia Councilwoman Cindy Bass introduced a
resolution March 15 authorizing “the Committee on
Public Health and Human Services to investigate
Department of Human Services’ policies on
contracting with social services agencies that either
discriminate against prospective LGBTQ foster
parents or allow non- LGBTQ foster parents to
discriminate.” On March 27, 2018, Staci Boyd, the
Operations Director at the Department of Human
Services, sent an email to other foster agencies in
Philadelphia forbidding them from referring any
additional foster intakes to Catholic Social Services.
The City’s suspension of Catholic Social Services’
contract is unjustified and unlawful for at least four
reasons.
First, Catholic Social Services’ foster services do
not constitute a “public accommodation” under the
City’s Fair Practices Ordinance, and therefore it is not
bound by that ordinance, nor subject to penalties or
investigations pursuant to that ordinance, nor can it
have violated the contract provision relating to that

160a
ordinance. Catholic Social Services does not offer, sell,
or make available its services to the public that entail
supervision of a child placed with an approved foster
family. Phila., Pa., Admin. Code § 9-1102(1)(w). These
services are only available to at-risk children who have
been removed by the state and are in need of a loving
home, and Catholic Social Services serves any child
who is referred to them. The City only pays Catholic
Social Services a per diem for these supervisory
services, and the City is not contracted to compensate
Catholic Social Services for anything else related to
the provision of foster care.
Furthermore, the Pennsylvania Supreme Court
has declined to treat a Catholic religious entity as a
public accommodation because of its private, religious
character. See Roman Catholic Archdiocese of
Philadelphia v. Com., Pennsylvania Human Relations
Comm’n, 119 Pa. Cmwlth. 445 (1988).
Second, even if Catholic Social Services’ foster
services did constitute a public accommodation, no
“unlawful public accommodation practice” has
occurred. No individual or couple has alleged that
Catholic Social Services has “den[ied] or interfere[d]
with the public accommodations opportunities of an
individual.” Nor could they, because no allegation has
been made that Catholic Social Services prevented
anyone from receiving relevant city services, nor has
Catholic Social Services prevented any child from
being placed in a family. Courts have denied similar
meritless public accommodation claims when there
was not a clear allegation that an individual was
actually denied services. See, e.g., Abdul-Latif v. Cty.
of Lancaster, 990 F. Supp. 2d 517, 533 (E.D. Pa. 2014)

161a
(dismissing public accommodation claim because
plaintiff had not tried to access the services).
Third, the City’s contract with Catholic Social
Services states under the relevant nondiscrimination
Paragraph 15.1 that the City may “suspend or
terminate” its contract with Catholic Social Services
only “[i]n the event of any breach of this Section 15.1.”
The City has not set forth any clear basis for breach of
contract prior to engaging in suspending additional
referrals. Nor has it provided the notice required
under the contract prior to exercising its remedies. See
Section 12.2. As such, the City is in breach of its
contract with Catholic Social Services by failing to
perform and for preventing Catholic Social Services
from continuing to perform without any justification.
Many state and federal courts have held that a
government entity breached its contract with a private
party and was subject to damages or injunctive relief
when it terminated its agreement or prevented
performance of a contract without being clearly
“justified under state law.” 10FN10 Here, if the City
continues to suspend referrals and impede Catholic
Social Services’ ability to perform under its contract
without clear justification, the City will likewise be
subject to claims for injunctive relief or monetary
damages.
This breach has real-world consequences. After the
City informed Catholic Social Services that it would
not receive any new referrals, Catholic Social Services
N. Penna. Legal Servs., Inc. v. Lackawanna Cty., 513 F. Supp.
678 (M.D. Pa. 1981); see also, e.g., Com., Dep't of Transp. v.
Brozzetti, 684 A.2d 658, 665 (Pa. Commw. Ct. 1996) (government
breached contract when it failed to justify its termination for
convenience).
10

162a
received a request regarding a child who had just been
taken into foster care. The agency wished to place that
child with his siblings, who had been placed with a
family through Catholic Social Services. Responding
to an urgent need, Catholic Social Services placed the
child with his siblings that afternoon, and informed
DHS of the placement. That placement was made in
accordance with best practices and law, which favor
family placement of siblings wherever possible.11
After that placement was made, DHS sent a message
to its referral partners regarding Catholic Social
Services and Bethany Christian Services, stating that
“NO referrals are sent to these two providers effective
immediately,” and demanding that all its partners
affirm this directive in writing.
If a similar situation happens in the future, it
appears that DHS is willing to violate its own best
practices guidelines and ignore the best interests of
children. Surely the City does not actually believe it
would be better if Catholic Social Services had not
been willing and able to place the child with his
siblings.
Fourth, the City has been engaging in blatant
unconstitutional targeting of organizations based on
their religious beliefs. Despite receiving no complaints
from families about the practices of Catholic Social
Services, the City suspended continued foster
referrals. The City cannot simply lump all religious
organizations into a category of groups with beliefs the
City of Philadelphia, Department of Human Services, Resource
Parent Handbook: A Guide for Foster and Kinship Caregivers, 7
(Sept. 26, 2017) (“[I]t is DHS policy to keep siblings—brothers
and sisters—together whenever possible in the same home
unless there is a very strong reason for their separation.”).
11

163a
City does not agree with and punitively banish them
from public service as a result. Nor can it lawfully
punish Catholic Social Services for operating
according to its religious beliefs—particularly in a way
that has worked well, without complaint, for decades.
Moving Forward
Because the City has not articulated any clear
breach of contract justifying a suspension of foster
referrals, and because I trust the City does not wish to
continue violating Catholic Social Services’ rights
under federal, state, and City law, I am confident that
the City will quickly resume normal services and
operations with Catholic Social Services to avoid
mounting claims for injunctive relief and monetary
damages.
In the alternative, I assume that the City will
immediately provide a clear legal basis for its
allegations that Catholic Social Services is in breach
of its contract. Such allegations would, of course, need
to explain what the City would require of Catholic
Social Services to come into compliance. For example,
is the City requiring Catholic Social Services to
promise that it will engage in detailed home
assessments and make written endorsements and
recommendations to the City that run contrary to
Catholic Social Services’ religious beliefs regarding
marriage? We would need to understand exactly what
tasks the City is demanding that Catholic Social
Services do, and exactly what outcomes are expected,
before we could evaluate the City’s position.
I look forward to your response and a prompt
resolution of this matter so that we can all continue
our work of serving the City’s most vulnerable

164a
children. These children need and deserve help, and
Catholic Social Services remains eager to provide it.
Sincerely,
/s/ Mark Rienzi
Mark Rienzi
President
The Becket Fund for Religious Liberty

165a
CITY OF PHILADELPHIA
LAW DEPARTMENT
One Parkway
1515 Arch Street
Philadelphia, PA 19102-1595
May 7, 2018
Mark Rienzi
President
The Becket Fund for Religious Liberty
1200 New Hampshire Ave. NW, Suite 700
Washington, DC 20036
Dear Mr. Rienzi:
The City of Philadelphia (the "City") is in receipt
of your letter dated April 18, 2018 to the
Philadelphia Commission on Human Relations (the
"Commission"). Mr. Earle or Ms. Landau will
respond directly to you regarding the questions you
raise concerning the Commission’s jurisdiction. We
are writing to you separately to respond to the
concerns you raise regarding the City's decision to
suspend new referrals from DHS to Catholic Social
Services’ ("CSS") family foster care program.
While we are genuinely appreciative of the
invaluable services that CSS provides on the City’s
behalf to the City’s most vulnerable children and to

166a
the resource families that care for those children,
those services must be provided in a manner
consistent with certain core City principles,
including our non-discrimination rules. As CSS
works on the City's behalf, we cannot allow
discrimination against qualified couples who are
ready to take on this important role, simply because
of whom they choose to marry. We would not allow
such discrimination against, for example, Catholic
couples or "mixed-race" couples, and we cannot
allow it with respect to same-sex couples, either.
You take issue in your letter with the City's
ability to apply these non-discrimination rules in
the context of CSS's current contract with the City.
We disagree.
Nothing in CSS's existing contract obligates the
City to continue to send any referrals to CSS. A
review of CSS' s contract For General, Kinship, and
Teen Parent/Baby Resource Home Care Providers
shows numerous duties on the part of CSS, but for
DHS, its duty primarily is to provide CSS with
support and compensation for the services that CSS
performs, with no minimum guarantee or even a
duty to provide any referrals. Without any duty to
make referrals, DHS simply cannot be in breach of
its contract for failure to continue making referrals.
Moreover, the City has the unilateral right under
the contract to terminate or suspend the contract,
regardless of any breach or lack thereof by CSS, “for

167a
any reason, including, without limitation, the
convenience of the City.” Professional Services
Contract General Provisions ("General Provisions")
¶ 14.2. You correctly note in your letter that the
City has not sent to CSS a notice of default or a
notice to suspend or terminate. That is intentional,
as we do not wish to make this an adversarial
proceeding, and we remain hopeful that CSS will
comply with its contractual obligations and will
implement them in a non-discriminatory manner.
Regardless, however, the City reserves the right to
cancel or suspend this contract, at any time, for the
City's convenience.
Of course, the City does not need to rely on its
mere convenience. Section 3.21 of the General
Provisions states:
Provider shall not reject a child or family for
Services based upon the location or condition of
the family's residence, their environmental or
social condition, or for any other reason if the
profiles of such child or family are consistent
with Provider's Scope of Services or DHS's
applicable standards as listed in the Provider
Agreement, unless an exception is granted by the
Commissioner or the Commissioner's designee,
in his/her sole discretion.
(“Services” are defined at General Provisions
¶ 1.72 as “the work to be performed under this
contract,” which plainly includes the intake and

168a
registration of new, prospective foster parents. See,
e.g., Scope of Service p.4 (“Resource caregivers are
screened, trained, and certified by the Provider.”);
id. at 6 (“Provider is responsible for offering training
and related support to Resource Parents”)). In your
letter, you confirm that CSS has no intention of
complying with this contractual obligation to
provide Services to all qualified families, as you
have clearly re­ affirmed that CSS intends to reject
families for Services based solely on the fact that
they are same-sex couples. That is not a permissible
reason for rejection under either the Scope of
Services set forth in the contract or under DHS's
applicable standards, and the Commissioner has no
intention of granting an exception.
Indeed, as you know, the refusal to provide
Services to same-sex couples constitutes a violation
of a fundamental City policy to provide services to
all qualified families. We cannot allow a provider,
acting under a City contract, to inform a qualified
family who wants to give of its time, resources, and
home, in order to protect vulnerable children, that
they must go elsewhere to make this contribution,
solely because our contractual provider disapproves
of their familial relationship. The City maintains an
important policy that all resource families be
treated equally, so long as they meet the agreedupon eligibility requirements. We recognize that
CSS's values and the City's values may diverge
here, but CSS is contracting with the City, not free-

169a
lancing, and the ultimate responsibility for
managing this foster care program belongs to the
City. We have to insist that all services provided as
part of this program are provided in a manner that
is consistent with our conception of equality.
Moreover, and independent of the foregoing,
CSS's refusal to provide services to same-sex
couples is a violation of law. CSS falls squarely
within the definition of a “public accommodation”
under the City's Fair Practices Ordinance, Phila.
Code § 9-1102(1)(w), as CSS is, inter alia, a
“provider . . whose . . . services . . . are . . . made
available to the public.” You focus on CSS's
admirable provision of services to the children, but
the contract indisputably also requires CSS to
provides services to the foster families, including
certification, support, re­evaluation, and training to
any family that meets state regulations and DHS
standards and wishes to provide badly needed foster
care.
Please be assured that we have not targeted your
client on the basis of its religious beliefs. As we
explained, our motivation arises from our concern
that all families in this City be treated equally with
respect to all opportunities and services that are
available to them. We respect your sincere religious
beliefs, but your freedom to express them is not at
issue here where you have chosen voluntarily to
partner with us in providing government-funded,

secular social services.

170a

The Commonwealth has set eligibility standards
for prospective foster parents. It is inappropriate
(and arguably unconstitutional) for us to allow a
provider to add its own requirements for foster
parents that are rooted in religious doctrine, and
which clash with the constitutional requirement
that we treat all marriages/families equally. Nor
can we allow you to refuse service to an otherwise
eligible family by referring them to another agency.
Please also note that CSS's current contract
expires on June 30, 2018, and the City is under no
legal obligation to enter into a new contract for any
period thereafter. We are hopeful that we can work
out any differences before then, but please be
advised that -- except where the best interests of a
child demands otherwise -- the City does not plan to
agree to any further referrals to CSS, and the City
intends to assist with the transition of foster
families to other agencies, absent assurances that
CSS is prepared to adhere to its contractual
obligations and, in implementing its City contract,
to comply with all applicable laws, including those
relating to non-discrimination. We believe our
current contract with CSS is quite clear that this is
our right, but please be advised that any further
contracts with CSS will be explicit in this regard.
Family equality is both a legal requirement, and
an important City policy and value that must be

171a
embodied in our contractual relationships. If CSS
cannot come into compliance, we are prepared to
enter into an interim, contractual relationship with
CSS in order for CSS to continue to supervise the
foster children in its care properly with the least
amount of disruption for them, while the transition
to other agencies is completed. On a related note,
contrary to the discussion in your letter regarding
DHS's practice concerning siblings, because the best
interests of the children in our care are paramount,
we did recently grant an exception to the cessation
of CSS referrals in that instance to ensure that
siblings were placed together, and we expect that
the best interests of the children will remain
paramount throughout any transition.
In closing, we do not wish to see our valuable
relationship with CSS regarding foster care services
come to an end. We are hopeful that CSS will be
prepared to commit to comply with the letter and
spirit of CSS’s contractual obligations and the Fair
Practices Ordinance by committing to provide foster
care services on a non-discriminatory basis to all
families that meet the City's standards.
Please
let me know as soon as possible whether CSS is
prepared to comply with these standards.
Alternatively, please let me know with whom I
should be in contact for purposes of promptly
negotiating a transition plan.

172a
Thank you for your understanding and your
client's work with children and families.
Sincerely,
/s Valerie Robinson
Valerie Robinson
Chair, Corporate and Tax
Group
cc:

Rue Landau, Executive Director
Philadelphia Commission on Human
Relations
Cynthia Figueroa, Commissioner DHS
Marcel S. Pratt, City Solicitor

173a
David O’Reilly, Chaput edict draws mixed reviews;
Kenney calls it ‘not Christian’, Philadelphia Inquirer
(July 6, 2016), https://www.inquirer.com/philly/news/
20160707_Chaput_edict_draws_mixed_reviews__Ken
ney_calls_it__not_Christian_.html.
Chaput edict draws mixed reviews; Kenney
calls it ‘not Christian’
Kenney’s was among the sharper reactions Chaput’s decree drew from around the region. Some were
swift to denounce the archbishop as an “old white
man” whose church was out of touch.
Others, though, hailed the archbishop for upholding traditional church teaching or deferred with a
shrug to his authority.
The mayor, who was raised Catholic, has often been
sharply critical of Chaput’s conservative stances on
matters of faith.
On Friday, Chaput posted on the archdiocesan
website six pages of guidelines for clergy and other
local church leaders on how to implement Amoris
Laetitia, a major document on the family Pope Francis issued in April.
Some theologians have said Amoris calls on church
leaders to be more welcoming of Catholics who are estranged from parish life because the church disapproves of their sexual relationships.
Chaput was emphatic that this does not mean
Francis has reformulated the church’s traditional ban
on Communion for those Catholics who live in what
the church views as sin—such as divorced Catholics
who remarry outside the church, sexually active gays,
and cohabiting unmarried couples.

174a
In Amoris, Francis “states clearly that neither
Church teaching nor the canonical discipline concerning marriage has changed,” Chaput remarked in his
guidelines.
Holy Communion is a central element of the
Catholic faith, which holds that the prayers a priest
utters over bread and wine during Mass transform
them physically into the body and blood of Jesus.
Barring a person from receiving Communion does
not mean that he or she is excommunicated. But many
of those barred have complained of feeling shunned,
embarrassed, or marginalized.
Many laypeople and clergy had hoped Francis
might ease the church’s position regarding Communion in Amoris Laetitia, but despite his call for clergy
to listen compassionately to the pain of those who feel
excluded, he did not make any explicit changes to the
teaching.
Chaput’s guidelines may be the first of their kind
issued by the bishop of any American diocese in response to Amoris Laetitia, Latin for “the joy of love.”
Chaput's position did not upset Lydia Carbone, a
member of St. Patrick's parish in Center City.
“It's not for me to judge the church's teachings,”
she said.
Unmarried after a divorce more than 16 years
ago, she has led programs at her parish designed to
help the newly divorced understand the church’s
stance that they may not remarry in the faith unless
their first marriage is declared invalid by a diocesan
tribunal.

175a
But she was pleased, she said, that Pope Francis
“seems to be opening dialogue in the gray areas”
around divorce and remarriage. “I’m hoping the
church will be more open and welcoming.”
Others were fuming.
An article on the guidelines in Wednesday’s Inquirer generated more than 1,000 comments, most of
them harshly critical of Chaput.
Across the street from the Cathedral of SS Peter
and Paul, an 18 year-old Catholic questioned the
wisdom of the guidelines Wednesday afternoon.
“It’s isolating people,” said Mia Trotz, a college
student in Philadelphia selling water ice at Sister
Cities Park.
But Carl Miller, 58 and gay, said he admired Chaput for his stance. “I believe the Catholic Church's
teachings are ultimate truth,” said Miller.
“I struggle with living it perfectly,” said Miller, who
attends Mass weekly and receives Communion, “but I
think the archbishop is right in restating what the
Catholic teaching is.” He declined to name his
hometown or parish.
A large part of the debate involves just what Francis meant to say about the inclusion in parish life of
unmarried but cohabiting Catholics, those in samesex relationships, and the estimated 4.5 million who
are divorced and remarried without an annulment.
“It’s being read in different ways by different individuals and different bishops,” said John Grabowski,
associate professor of moral theology at Catholic University of America.

176a
Grabowski, an authority on Amoris Laetitia, noted
that in one place Francis writes that priests have the
duty to accompany those who divorce and remarry
outside the church “in helping them to understand
their situation according to the teaching of the Church
and the guidelines of the bishop.”
But Grabowski noted that Francis also wrote in
Amoris that “I would also point out that the Eucharist
‘is not a prize for the perfect, but a powerful medicine
and nourishment for the weak.’”
And for those struggling to reconcile what appear to
be Francis' positions, Grabowski pointed to yet more
lines from the pope:
“I understand those who prefer a more rigorous
pastoral care which leaves no room for confusion,”
wrote Francis. “But I sincerely believe that Jesus
wants a Church attentive to the goodness which the
Holy Spirit sows in the midst of human weakness, a
Mother who, while clearly expressing her objective
teaching, always does what good she can, even if in the
process, her shoes get soiled by the mud of the street.”
“I don’t want to say this is murky,” said
Grabowski, “but it’s not crystal clear. So what happens is that people find support for differing positions.
So it’s going to be up to different bishops to decide how
this document should be implemented in their dioceses.”
doreilly@phillynews.com
856-779-3841
Staff writer Robert Moran contributed to this article.

177a
Patrick Kerksta, Jim Kenney’s Long War with the
Archdiocese, Philadelphia Magazine (July 9, 2016),
https://www.phillymag.com/citified/2015/07/09/jimkenney-catholic-archdiocese-charles-chaput/.
Jim Kenney’s Long War with the Archdiocese
The mayoral nominee is a disaffected Catholic
disgusted by local church leadership.
Democratic mayoral nominee Jim Kenney is a
proud graduate of St. Joe's Prep and La Salle. He was
born and raised in a Irish Catholic family. He is the
single most devoted fan of the Neuman- Goretti
women’s basketball team in the world.
And yet, Kenney’s relationship with the Catholic
Church is fraught. Actually, the more accurate adjective is probably just “hostile.” Kenney showed vividly
just how little regard he has for local “cowardly men”
in the Archdiocese of Philadelphia of orchestrating
the firing. “If you’re a church official and you feel that
strongly that this woman and her partner are such a
threat to society, stand up and say so,” Kenney told
the paper.
That might seem like extraordinarily blunt language coming from the likely next mayor of the city
and aimed not so subtly at Archbishop Charles J.
Chaput. But it’s actually not all that different from
Kenney's past public statements about the archdiocese. Like the time he urged Pope Francis to “kick
some ass” in the archdiocese.
MetroPhilly @MetroPhilly Nov 14, 2014
Relics have been removed from St. Laurentius
Church in Fishtown, but former parishioners’ appeal is still pending.

178a
Jim Kenney @JimFKenney
@MetroPhilly The Arch don’t care about people.
It’s about image and money. Pope Francis needs
to kick some ass here! 10:06AM - Nov 14, 2014
Kenney began feuding with the archdioceses as
far back as 1998 when Catholic leader mobilized to
block a City Council bill granting benefits to partners
of gay city employees that Kenney co-sponsored.
More recently, he’s sparred with archdiocesan leadership over the closing of parochial schools, publicly
criticized their decision to ban an 11-year-old girl
from playing CYP football and wished that Pope
Francis will straighten out Chaput and company
when he comes to town in September.
In a lot of respects of course, Kenney’s fight with
the archdiocese is just a microcosm of the broader debate playing out in the Catholic community, Church
conservatives like Chaput, are digging in, even as the
broader culture embraces marriage equality. Liberal
catholics, like Kenney (and a lot of other Philadelphia
catholics), desperately want the church to change
with the times. Not just on gay marriage, but on the
role of women and a host of other issues. The ascension of liberal Pope Francis has raised the stakes of
the debate. And now the liberal Francis is coming to
Philadelphia, where he'll be hosted by the veryconservative Chaput, all while Kenney (who can
summon dozens of news cameras and microphones
whenever he likes) looks on…
The World Meeting of Families doesn’t look like
it’ll be boring. But let’s not get ahead of ourselves.
Does this latest episode hurt Kenney at all?
Might he have alienated true-blue city Catholics with

179a
his criticism? It’s certainly possible that it will, but
it’s also likely to further enhance Kenney’s standing
in progressive circles and among gay voters.
The harder question is this: should a mayor speak
so bluntly on such charged issues? Or is it unbecoming of the office to weigh in so strongly so quickly?
This is a controversy about a school outside city limits, after all. Mayor Nutter hasn’t issued any press
releases.
There’s no simple answer to that one. Mayors do
need to exercise more discretion than Council members. Mayors are emissaries for the whole city, and
Philadelphia is a complicated place that’s home to
people with a lot of different beliefs.
But for Kenney, justice is justice, and a wrong is a
wrong. He doesn’t take a black-and-white approach to
everything. But on certain matters - like gay equality, like gender equality- Kenney is a moral absolutist,
and he’s not going mince words or avoid fights, even
if he does become mayor. Lauren Hitt, Kenney’s
communications director, told me a while back in a
conversation about a completely different topic that
he ‘has an annoyingly strong moral compass.’ Right
now, Kenney’s moral compass is the pointing in the
polar opposite direction of the Archdiocese of Philadelphia. And in recent years, Kenney has been his
most convincing - and
his popular appeal has been strongest - when he has
framed his policy preferences in stark moral terms.
We just put in a request with Kenney’s campaign
to talk to him about his faith and his relationship
with the Catholic church, and if he’s got time for an
interview we’ll bring you his answers in depth.

180a
But Kenney being Kenney, a lot of his feelings are
already out there on Twitter. See below.
Jim Kenney @JimFKenney
The sisters who do the work for meager salaries,
will be the only ones who save the Catholic
Church #whatsistersmeantome 10:33 AM - Apr
23, 2012.
Jim Kenney @JimFKenney
9:44 AM - Jun 25, 2012
Miriamhill@Miriamhill
Replying to @myantkinney Jul 12,2012
@myantkinney so hard to know, b/c so few women in leadership positions
Jim Kenney @JimFKenney
@Miriamhill Monica, I agree. Same prob with the
Catholic Church. Too male centered with no opportunity for dissent. 11 :01 AM - Jul 12, 2012
Jim Kenney @JimFKenney
On Action News tonight; why would the Archdiocese of Phila try to stop a young girl from playing
CYO Football with the boys if she is able?
12:09 AM - Jan 7, 2013
Jim Kenney @JimFKenney
@SheinelleJones Every girl should be able to
compete at any level she is capable. Why would
the Archdiocese keep her from being her best?
8:06 AM - Jan 7, 2013
Jim Kenney @JimFKenney
fb.me/25XJ5EviX 3:13PM- Jan 9, 2013

181a
Jim Kenney @JimFKenney
Thank you to Archbishop Chaput for making the
right decision and to Caroline for being so determined! fb.me/2ooBk5vib
4:03 PM - Mar 14, 2013
Jim Kenney @JimFKenney
Having been Jesuit-educated myself, I've always
had confidence and trust in their commitment to
fairness and... fb.me/115hpc9S5
1:35 PM - Jul 29, 2013
Brian P. Hickey @BrianPHickey Jul 29, 2013
Replying to @JimFKenney
@JimFKenney I'm not running back to church
but I'm down with new Pope.
Jim Kenney @JimFKenney
@BrianPHickey Just taking a few steps in that
direction. Moral authority was lost. Pope Frank
might repair much of that. I pray!
9:11 PM - Jul 29, 2013
Jim Kenney @JimFKenney
Saddened by the closing of 49 Catholic schools. I
feel for the students & teachers affected by this
decision ow.ly/8Ivkr
Jim Kenney @JimFKenney
Archbishop Chaput: Philadelphians ‘confused’ by
Pope Francis's words po.st/veMrff via @po_st I
wasn’t confused at all. 4:34 PM - Sep 26, 2013
(link to article and image Jim Kenney retweeted
omitted)

182a
Jim Kenney @JimFKenney
Watching CNN. Pope Francis is awesome! Freaking awesome! Makes me want to turn back to my
church. I worry about him though.
7:50 PM - Dec 24, 2013
Mike Jerrick @MikeFOX29 Mar 8, 2014
Lets do this! RT @JimFKenney: @MikeFOX29
How about a regional effort to Tweet @Pontifex to
come to Philly in 2015 to bless us in person?
Jim Kenney@ JimFKenney
@MikeFOX29@Pontifex
Pope Francis is a social media guy. The Muckety
Mucks are going to Rome but the Papa lists to the
real people! 8:43 PM- Mar 8, 2014
Follow @pkerkstra and @CitifiedPHL on Twitter.

183a
Pennsylvania Mentor, Mother/Baby Host Home,
(June 4, 2018), http://www.pa-mentor.com/who-weserve/children-and-families/motherbaby-host-home.
Children

Mother/Baby Host Home

& Families

It takes a village to raise a child, and
at Pennsylvania MENTOR, we help
Therapeutic
build a community of support for the
Foster Care
young mothers we serve. In this program, young mothers living in the
CRR
Host homes of our foster parents, who we
call Mentors, receive intensive case
Home
management services to help them
be the best moms they can be. The
Mother/Baby- teenage girls are in foster care when
they are pregnant or have already
Host Home
given birth. The baby lives with
their mother in the Mentor's home.
Behavioral
As long as it remains in the best inHealth
terest of the child, the mother maintains full custody Through our
Mother Baby Host Home program,
Rehabilitawe help these young mothers learn
tion Services
how to support and care for their
child.
Case Management & Resource Coordination Service

Personalized Support
Our dedicated program service coordinators visit the young mothers in
their Mentors' homes. We make sure
the young mothers are working with
the support system we help them develop, a support system that includes:

184a
Emergency
After Hours
Placement
Response Service

•
•
•
•
•

Parenting Classes
Independent living classes
Day care
Support groups
Access to health care, WIC,
and transportation
Family-Based
Our experienced team is available to
Services
the young mothers 24/7, offering
Adults with constant guidance and support. Our
Disabilities
goal is to make sure these young
women have everything they need to
be the best moms possible.
This program is available in Philadelphia, Bucks, Montgomery, Delaware, and Chester Counties. Please
call 215-925- 3461 *5025 for more information.
If you would like to help a young
mother and her baby have the best
start
possible,
go
to
www.makeadifferenceathome.com
to learn more about becoming a
Mentor!

185a
Julia Terruso, Two foster agencies in Philly won’t place
kids with LGBTQ people, Philadelphia Inquirer (Mar.
13, 2018), https://www.inquirer.com/philly/news/foster-adoption-lgbtq-gay-same-sex-philly-bethany-archdiocese-20180313.html.
[Appx.0981]
Megan Paszko spent countless hours researching
how to become a foster parent in Philadelphia. She
compiled all the information organizations needed and
mailed, emailed, faxed, and even hand-delivered applications.
Months passed before anyone responded, and then
Bethany Christian Services got back to her and said
there was an orientation for interested foster parents
that week. Paszko and her wife drove to Elkins Park.
They were the first people to arrive. They’d also be the
first to leave.
“The trainer approached us, and she was really
nice, but she told us, ‘I just want to be upfront. This
organization has [Appx.0982] never placed a child
with a same-sex couple,’” Paszko said. “She told us she
didn’t want to waste two hours of our time.”
In a follow-up call with administrators, the couple
were told that Bethany does not work with LGBTQ
people because of the church’s views on homosexuality. They were offered names of other agencies to try.
“I just couldn’t believe it,” said Paszko, who lives
with her wife in Brewerytown. “There are so many
kids out there who need homes, you’re really going to
deny them a good one?”

186a
At the same time that the city’s Department of Human Services is urgently calling for more foster parents, two of its foster care agencies, Bethany and Catholic Social Services, operate under policies that turn
away LGBTQ people who come knocking.
The organizations, which also offer adoption services, are likely violating city contract rules that forbid
discrimination. Philadelphia’s fair practices ordinance, which prohibits discrimination based on sexual
orientation, is included in all city contracts, said Rue
Landau, executive director of the Human Relations
Commission.
“What a tragedy for the kids of Philadelphia,” said
Mary Catherine Roper, deputy legal director for the
ACLU of Pennsylvania. “This agency is putting its own
view on religion above the needs of its kids.”
Roper said the position could also be unconstitutional: “A government doesn’t get to use a contractor
to implement religious programs and when you start
saying, ‘We’re running this as a religious program
such that we won’t take you because you don’t fit our
religious view,’ then the city is paying for a religious
program, and that’s a problem under the First Amendment.”
[Appx.0983]
DHS said it was unaware, until contacted by the
Inquirer and Daily News, of the policies held by the
two organizations. Bethany Christian Services has
had a contract with the city since 1996 and Catholic
Social Services since 1997.
DHS spokeswoman Heather Keafer called both
groups’ stances “deeply concerning,” given an ongoing

187a
push to recruit more LGBTQ people to become foster
parents. “We actively recruit individuals that represent the diversity of our city, including diversity of sexual orientation, genders, race, religions, and communities to provide quality foster care to Philadelphia’s
most vulnerable children and youth,” Keafer said.
The city’s Law Department is reviewing the issue
while DHS works with the Human Relations Commission to investigate policies at both organizations,
Keafer said. The department is also reviewing policies
of all 26 foster care agencies it works with. The city
will continue to recruit LGBTQ parents, including at
an event March 22 at the William Way LGBT Community Center hosted by the Office of LGBT Affairs.
Last year, Bethany Christian Services was reimbursed $1.3 million for operating foster homes for 170
children, representing 1.5 percent of the department’s
payments to foster care providers. Catholic Social Services was reimbursed $1.7 million in the same year for
266 children, representing 1.9 percent of the amount
paid.
Joe DiBenedetto, a spokesman for Bethany, said
the organization places children with married couples
made up of two parents of the opposite sex, or in some
cases individuals. He said the organization does not
believe it is in violation of any city ordinances. “This
has been our practice throughout our nearly 75 years
of operation and is based on our adherence to what we
believe to be foundational Biblical principles,” he said.
Ken Gavin, a spokesman for the Archdiocese of
Philadelphia, said Catholic Social Services wasn’t
aware of any [Appx.0984] recent inquiries from same-

188a
sex couples but confirmed that the organization would
not work with interested LGBTQ people if approached.
“Catholic Social Services is, at its core, an institution founded on faith-based principles,” Gavin said.
“The Catholic Church does not endorse same-sex unions, based upon deeply held religious beliefs and principles. As such, CSS would not be able to consider foster care placement within the context of a same-sex
union.” Gavin said that arrangement is a “well-established and long-known one in our relationship with
DHS.”
Both organizations work with LGBTQ youth. That
can send a mixed message to children and teens in
their care, said Currey Cook, an attorney who heads
Lambda Legal’s Youth in Out-of-home Care Project.
“How do you pretend you can simultaneously say
we serve all youth and do a good job serving all youth
while at the same time you’re saying same-sex couples
are not real parents, are not good parents?” Cook said.
“LGBT youth who have faced so much isolation,
stigma, prejudice in the system are left wondering,
‘What’s going to happen if I come out, and I’m being
served by parents or an agency that basically says
trans parents, LGBT people, aren’t good parents?’”
Cook said Pennsylvania could benefit from a more
explicit nondiscrimination policy. Its state code prohibits discrimination against children based on sexual
orientation but does not say anything specific about
prospective foster or adoptive parents.
A nationwide tension
[Appx.0985]

189a
Similar conflicts have sprouted up across the country in recent years as states have legalized same-sex
marriage. Before laws started changing, religious-conflicted organizations could avoid working with LGBTQ
people by requiring foster parents to be legally married, Cook said.
His organization sued the federal government and
the Catholic Conference of Bishops last month after
married lesbian professors were told they could not
foster a refugee child through Catholic Charities of
Fort Worth, Texas. A woman at the organization told
them foster parents must “mirror the Holy Family,”
according to the suit.
The ACLU sued the State of Michigan last year after two same-sex couples were turned down by Bethany Christian Services and Catholic Social Services
there. Michigan is one of a growing number of states
to pass laws explicitly allowing religious-based discrimination. Similar bills are percolating in Georgia,
Oklahoma, and Kansas.
Pennsylvania has no such law but religious nonprofits often discriminate quietly, said Leslie Cooper,
an attorney with the ACLU’s national office, who is
handling the Michigan case.
Lawyers for Bethany and Catholic Social Services
have defended their clients’ stances in court documents by saying that requiring religious organizations
to comply with nondiscrimination laws would force
them to close, meaning fewer organizations to help
kids in need.
Cooper said a religious organization could always
change its affiliation, which occurred in Illinois after a
foster care agency associated with the Catholic Church

190a
broke off and rehired the same staff to operate independently.
“The premise that there would be no one to do this
work is just false,” she said.
Both the archdiocese and Bethany say they always
direct interested LGBTQ parents to other agencies.
Paszko and her wife are now working with Jewish
Family and Children’s Service of Greater Philadelphia
to become [Appx.0986] certified foster parents, but
the journey has not been easy.
They sta1ied sending out requests for info1mation
to various agencies in July. Calls and emails went unanswered. An application Paszko hand-delivered was
mailed back to her with no explanation. A home visit
scheduled weeks ago was canceled unexpectedly. The
couple took off from work to get background checks but
upon arrival, learned the center no longer offered the
screenings. They don’t attribute all these roadblocks
to discrimination but to a system ill-equipped to catch
interested parents.
“If you work and you actually have the financial
means to help a kid, I feel like the system is not set up
to help you do that,” Paszko said. “There have just
been so many stops along the way where I’ve just said,
‘Ugh, this is not meant to be.”‘
Interested in fostering? Call 215-683-5709 or email
fosteringphilly@phila.gov.
Learn
more
at
beta.phila.gov/fosteringphilly.
Anyone who believes they were discriminated
against may contact the PCHR at 215-686-4670 orpchr@phila.gov.

191a
CITY OF PHILADELPHIA
COMMISSION ON HUMAN RELATIONS
601 Walnut Street, Suite 300 South
Philadelphia, PA 19106
Telephone (215) 686-4670
Fax (215) 686-4684
THOMAS H. EARLE, ESQUIRE
Chairperson
RUE LANDAU, ESQUIRE
Executive Director
May 7, 2018
Mark Rienzi
President
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW, Suite 700
Washington, D.C. 20036
Via First Class Mail and Email
Dear Mr. Rienzi:
Thank you for your letter of April 18, 2018. The
Department of Human Services (“DHS') will respond
separately through the Law Department to the issues
you raised concerning the contract between Catholic
Social Services (“CSS”) and DHS. We are writing to
address your statements regarding the jurisdiction of
Philadelphia Commission on Human Relations
(“PCHR”).
The purpose of the Philadelphia Fair Practices
Ordinance (“FPO”) is to assure that all persons are
afforded equal opportunities for employment,
housing, and the use of public accommodations such
as CSS. Philadelphia Code § 9-1 l0l(l)(a) and (e).

192a
PCHR initiated this investigation at the request of
the Mayor and pursuant to its authority under the
Home Rule Charter, the Fair Practices Ordinance,
and its governing regulations in order to determine if
CSS is engaged in discriminatory practices. See
PCHR Regulation No. 2.1. Pennsylvania Courts have
deferred to agencies like PCHR in determining the
extent of their jurisdiction and permitted the due
course of administrative actions. See Chestnut Hill
College, 158 A.3d 251, 257-58 (Pa. Cmwlth. 2017),
alloc. den., 173 A.3d 262 (Pa. 2017).
CSS’ provision of services to children in foster care
and to their foster parents under that contract is a
public accommodation under § 9-l l02(w) of the FPO,
and therefore within the jurisdiction of the PCHR.
Your citation to Roman Catholic Archdiocese of
Philadelphia v. Pa. Human Rel. Comm’n., 548 A.2d
328 (Pa. Cmwlth; 1988) and assertion that CSS is
“distinctly private” do not alter this conclusion.
First, unlike the PHRA, the FPO does not contain
an exception for “distinctly private” entities.
Second, your April 18 letter, as well as CSS’s own
website, demonstrate that that the provision of
services to children in foster care and. to their foster
parents is a public accommodation. Your letter states
that CSS “serves and places children regardless of
their race, color, sex, sexual orientation, gender
identity, religion, national origin...” pursuant to its
contract with the City. The very nature of this
process requires CSS to identify, recruit, certify,
select, and provide training, payment and services to
the individuals and families who foster these
children. See Professional Services Contract General
Provisions Article V. Indeed, the CSS Philadelphia

193a
website invites members of the public to contact CSS
to
become
potential
foster
parents.
See
https://cssphiladelphi a.org/adoption/.
Third, the Commonwealth Court's recent opinion
in Chestnut Hill College makes plain that a
discrimination claim alleged against a Catholicaffiliated entity does not involve a matter of purely
ecclesiastical concern, and therefore, religiously
affiliated institutions like Chestnut Hill College (and
also CSS) fall within the jurisdiction of the
investigating agency. 158 A.3d 251, 259-60 (Pa.
Cmwlth. 2017); see also, O'Connor v. Archdiocese of
Philadelphia, 975 A.2d 1084, 1106-09 (Pa. 2009)
(finding Archdiocese was not exempt from parents’
claims that their child had been unfairly disciplined
by the school).
As we explained in our March 16, 2018
correspondence, any potential violation of the FPO
falls under the jurisdiction of PCHR. Therefore, we
reiterate the request for information set forth in that
letter and ask that you respond within ten days of
this letter to avoid the issuance of a subpoena.
Sincerely,
/s/ Rue Landau
Rue Landau, Esquire
Executive Director
/s/ Thomas H. Earle
Thomas H. Earle, Esquire
Chairperson
cc:

Marcel S. Pratt, City Solicitor
Cynthia Figueroa, DHS Commissioner

194a
Services, Become a foster parent, City of Philadelphia
(June 14, 2018), http://beta.phila.gov/services/birthmarriage-life-events/become-a-foster-parent/.
Birth, marriage & life events
Become a
foster parent
Ask the DHS
Commissioner’s
Action Response
Officer (CARO)
Get a birth certificate
Get a copy of a
divorce decree
Get a death certificate
Get a marriage
license
Request Medical
Examiner records

Become a foster parent
Every child deserves to be loved, and
to grow up in a safe and healthy environment. Foster care is temporary
care for children who are unable to
remain in their own homes. Most
children enter foster care as a result
of abuse or neglect.
Over 5,000 children and youth are
in foster care at any given time in
this city. People who care for children in foster care are called resource parents because they help
parent a child, and act as a resource
and mentor to that child’s family.
Resource parents provide children
with love and support while they are
separated from their families.
Overview
The goal of foster care is to reunite
children with their families. When
this is not possible, as determined
by the courts, many resource parents choose to adopt the children
that are in their care.
Resource parents as part of
the team
Resource parents are key members

195a
of the child’s permanency planning
team. This consists of the child’s social worker, birth family, and other
caring adults. As the person who
lives with the youth 24 hours a day,
seven days a week, resource parents
bring important perspectives and
information to the team meetings.
Successful resource parents
• Work with all members of the
team.
•

Share Information.

•

Give and receive support.

• Ensure that the child feels
safe and is free from threats of harm
or danger.
Resource parents can help in the reunification process in many ways.
They should:
• Be a role model and mentor
for the parents of origin.
• Support the child’s relationship with their parents.
• Share information with the
parents, such as health care and educational progress.
• Provide emotional support for
the child as they prepare to return
home.
•

Be available to both the child

196a
and their parents after they return
home.
• Include parents and other
family members in important holidays, birthdays, or other special occasions (such as school plays).
Financial Assistance
Resource parents receive money for
the cost of caring for the child. The
amount changes depending on the
level of care the child needs. All
children receive medical coverage
through Medicaid.
Who
Foster parents can be single,
married, divorced, any gender or
sexual orientation.
Requirements
To care for children in foster
care, you must:
• Pass child abuse, criminal
history, and FBI clearances.
• Be physically able to care for
a child.
• Have space in your home for
an additional child.
•

Be at least 21 years of age.

How
Here’s how to become a resource

197a
parent
1. Choose a foster care agency.
DHS works with many statelicensed agencies to provide foster
care. Browse the list of foster agencies to find the best fit for you. You
want to feel confidant and comfortable with the agency you choose. This
agency will be a big support to you
during your resource parent journey. Once you’ve found one you like,
call them to find out how to begin
the certification process. Each agency has slightly different requirements, specialties, and training programs.
2. Begin the certification process.
The certification process will
take approximately 3-6 months to
complete.
As part of the process you will
have to:
•

Fill out an application.

•

Attend an orientation.

• Complete at least 6 hours of
training.
• Get a medical examination
that proves you are physically able
to care for children and are free
from contagious diseases.

198a
• Pass child abuse, criminal
history, and FBI clearances.
• Have a social worker come to
your home to help determine if it is
safe for a child.
Relatives, family friends, trusted
teachers, coaches, or others who
have a close connection with the foster child may become kinship caregivers. Kinship caregivers are allowed to have foster children placed
more quickly in their homes. This is
often better for the child, as it limits
disruption and prevents the need for
placement in a foster care center
Kinship caregivers go through an
initial review that includes clearances of their home. Once they have
been cleared, the foster children
connected to them can come live
with them. Kinship caregivers still
need to go through the rest of the
process of becoming a foster parent,
but they can do this while they serve
as foster parents.
To get more information about
becoming a resource parent, call
(215)
683-5709
or
email
dhs.fosteringphilly@phila.gov.

199a
EXCERPTS FROM
CONFORMED
STANDARD AMENDMENT AGREEMENT
BETWEEN THE CITY OF PHILADELPHIA
DEPARTMENT OF HUMAN SERVICES AND
CATHOLIC SOCIAL SERVICES
MADE SEPTEMBER 20, 2017
EFFECTIVE JULY 1, 2017
Contract Number 16-20030-04
Original Contract Number 16-20030
*

*

*

[1032]
Statement of Purpose:
This Scope of Service is made and entered into between Catholic Social Services (the Provider) and the
Philadelphia Department of Human Services (DHS),
and sets forth the services for general, kinship, and
teen parent/baby resource home care.
Throughout this document, the term “Resource
Parent” refers to both kinship parents and non-relative foster parents.
When a child or youth is placed through a Community Umbrella Agency, CUA, the Provider offers ongoing support and coaching to Resource Parents through
Provider Staff.1 The Provider is required to work collaboratively with the CUA. Contracts between DHS
and all CUAs set forth services for resource home care
with case management responsibilities remaining
with the CUA. When the child or youth is receiving
Provider Staff is responsible for recruiting and certifying foster
and kinship homes.
1

200a
case management services directly from DHS, the Provider must also deliver case management services to
the Resource Parent, parent or other reunification resource, and the child or youth and collaborate with the
assigned DHS Social Worker (DHS cases).
Department Overview:
The mission of the Department of Human Services
(DHS) is to provide and promote safety, permanency,
and well being for children and youth at risk of abuse,
neglect and delinquency. DHS is organized in the following Divisions: Administration and Management,
Child Welfare Operations Division, Community Based
Prevention Services, Finance, Juvenile Justice Services, and Performance Management and Technology.
DHS continues to implement the Improving Outcomes
for Children (IOC) model. The vision for IOC is to:
•

Maintain children and youth safely in their
own homes and community.

•

Timely reunification or other permanency.

•

Reduce use of congregate care.

•

Improve children, youth, and family functioning.

As it relates to Resource Home care, the IOC
framework provides a single Case Manager to work
with assigned families. The case management service
is provided by Community Umbrella Agencies who are
embedded in the communities they serve.
For children and youth for whom the Provider continues to provide case management services, the case
management staff interact on a regular basis with
schools, medical, dental, and behavioral health provid-

201a
ers; various community resources; and all service providers indicated on an Individual Service Plan (ISP) or
Family Service Plan (FSP). ·For youth funded and
placed by a CUA, the Provider interacts with external
resources as needed, collaborates and communicates
with the CUA, and continues to support the resource
caregivers.
Provider Organizational Overview:
Mission Statement: Catholic Social Services of
the Archdiocese of Philadelphia continues the work of
Jesus by affirming, assisting and advocating for individuals, families, and communities.
Vision and Values: Statement: Catholic Social
Services Vision:
*

*

*

[1058]
1.59 Party; Parties. A “Party” means either the
City or Provider; the “Parties” means the City and Provider.
1.60 PBC. “PBC” or “Performance Based Contract”
means a contract model that incentivizes performance
and ties Provider’s payment and contract renewal to
performance outcomes.
1.61 Person. “Person” means any individual, sole
proprietorship, association, company, firm, partnership, limited partnership, joint venture, corporation,
limited liability company or other form of entity or association recognized by law.
1.62 Placement Amendment. “Placement
Amendment” means that document which is a part of
the FSP, and which identifies those Services that are

202a
required for a child who is placed outside of his or her
home.
1.63 Policy Transmittals and Guides. “Policy
Transmittals and Guides” means those notifications to
Providers of changes in Departmental policies or procedures in the of the [sic] Department that are issued
on an interim or emergency basis.
1.64 Professional Services Contract. “Professional Services Contract” has the meaning set forth in
Section 17-1401(15) of The Philadelphia Code, as it
may be amended from time to time. As of June 2012,
that definition was “[a] contract to which the City or a
City Agency is a party that is not subject to the lowest
competitive bidding requirements of Section 8-200 of
the Charter because it involves the rendition of professional services, including any renewal of such a contract (other than a renewal term pursuant to an option
to renew contained in an executed contract).”
1.65 Provider. “Provider” means the Person
providing Services and Materials to the City as defined in the heading of the Provider Agreement.
1.66 Provider Agreement. The “Provider Agreement” means the instrument, part of the Contract Documents, which sets forth the terms, covenants and
conditions specific to Provider’s engagement by the
City to provide the Services and Materials under this
Contract.
1.67 Provisional. “Provisional” means conditional, pending confirmation or validation.
1.68 Referring Agency. “Referring Agency”
means the Department.

203a
1.69 Responsible Official. The “Responsible Official” means the director, commissioner or other head
of the Department.
1.70 Santiago Consent Decree. “Santiago Consent Decree” means the Third Amended Stipulation
and Order, dated January 21, 1988, amending Santiago, et al. v. City of Philadelphia et al. (C.A. No. 742589, E.D. Pa.), a consent decree, and requiring the
Department to maintain the population at the Philadelphia Juvenile Justice Services Center at a maximum of one hundred five (105) youth.
1.71 Scope of Services. “Scope of Services” means
the document(s) incorporated by reference and/or the
document(s) attached as an exhibit (or as exhibits) to
the
*

*

*

[1070]
3.13 Routine Transportation Costs. With the
exception of those costs associated with a runaway, the
specific provisions for which are set forth at Section
3.29 (Absence of a Child), Provider shall be responsible
for all routine transportation costs incurred by Provider in fulfilling the terms· of this Contract.
3.14 Family Visit Food Costs. Provider shall be
responsible for the costs of food for the child while the
child is visiting his or her family.
3.15 Payment for Placement Services. Provider
shall use payments under this Contract to purchase
only those Services that are reimbursable under Applicable Law and the Contract Cost Principles, unless
Provider has received prior written approval from the·

204a
Commissioner or the Commissioner’s designee to purchase non-reimbursable Services. This requirement
applies equally whether the Services are purchased directly by Provider or indirectly through Provider’s
Subcontractor, or Provider’s referral to another
agency.
3.16 EPSDT; Managed Care. Provider shall comply with the City’s EPSDT initiative. Compliance shall
include, without limitation, Provider’s securing of all
licenses and permits necessary for Provider to participate
in
the
Medical
Assistance
program,
HealthChoices or managed care organizations (where
appropriate); Provider’s timely submission of all forms
and reports required by the Commonwealth Office of
Medical Assistance, HealthChoices or managed care
organizations; and Provider’s timely pursuit of any
and all appeals of the Commonwealth’s denial or discontinuance of EPSDT funding to Provider, or denial,
discontinuance or reduction of medical services by
HealthChoices or managed care organizations.
Provider shall comply with the City’s initiative to
integrate behavioral health services with other health
and social services provided to children and families.
Compliance shall include) without limitation, the following:
(a) Provider shall use 1-888-545-2600, the central
contact number of Community Behavioral Health
(CBH), for the purpose of securing mental health and
substance abuse services for children and their caregivers;
(b) Provider shall document folly in the case file the
results of each referral to CBH; and

205a
(c) Upon request by DHS and/or CBH and with
proper authorization, Provider shall release to CBH
any documents and/or reports regarding behavioral
health services provided to children and families. Provider must maintain centrally located documentation
regarding whether a child/youth has received a full
EPDST screening within sixty (60) days of entering
placement, unless the child has had a screening and
the results are available, and whether the subsequent
treatment indicated has been initiated/scheduled
within ninety (90) days upon entering placement.
Youth transferring from one foster care agency to another and youth transferring from a facility licensed
under Chapter 3800 regulations to a foster care agency
may be exceptions.
[1071]
3.17 Service Requirements.
(a) Provider shall provide Services to the children
and youth and their families in accordance with the
FSP, any Placement Amendments, and Form Authorizations.
(b) Provider shall submit a Scope of Services which
shall be consistent with Department’s Program Standards and Applicable Law.
(c) Provider’s Scope of Services shall be current,
shall satisfy the City’s requirements as to form and
content, and shall be attached as an exhibit to the Provider Agreement.

206a
3.18 Web-Based Central Referral Unit (CRU)
System Participation.
(a) The Department utilizes a Web-Based CRU
System for all its non-PBC providers. Upon its implementation, Provider shall report all its vacancies, by
age and gender, by participating in the Department’s
Web-Based CRU System, and in any additional tracking system the Department may identify, and Provider
shall update the system on a weekly basis, and/or more
frequently for emergency shelter programs. Failure to
comply with this provision may result in the Provider
not receiving referrals from the Department’s CRU.
Provider has twenty-four (24) hours to accept or reject
a referral.
(b) The Department shall monitor Provider’s compliance with this provision and shall only make referrals based upon vacancies reported through this system. The Department, in its sole discretion, may periodically utilize additional resource tracking systems.
3.19 Dependent Placement Referrals. Provider
shall accept youth with deferred or dual adjudications
in its dependent facility. To the extent permitted by
law, including applicable state regulations, Provider
shall accept dependent youth in its delinquent facilities if such youth are otherwise eligible for admission
into Provider’s facility. Delinquent Providers agree
that their Scope of Services shall not exclude dependent children from their program unless they are required by law to do so.
3.20 Referral Disputes. Provider shall submit a
written quarterly report to the Commissioner’s designee detailing the number and circumstances of each
referral dispute registered in accordance with Section

207a
5.2(b)(3) of these General Provisions. Excessive referral disputes, as determined by the Commissioner in
his/her sole discretion, may cause the City to terminate this Contract.
3.21 Rejection of Referral. Provider shall not reject a child or family for Services based upon the location or condition of the family1s residence, their environmental or social condition, or for any other reason
if the profiles of such child or family are consistent
with Provider’s Scope of Services or DHS’s applicable
standards as listed in the Provider Agreement, unless
an exception is [1072] granted by the Commissioner
or the Commissioner’s designee, in his/her sole discretion.
3.22 Notice of Referral Acceptance or
Rejection.
(a) Except for Performance Based Contract Providers, Provider shall notify the Commissioner within
twenty-four (24) hours of its decision to accept or reject
placement referrals; provided, however, Provider’s rejection of a placement referral must be in accordance
with the process set forth in Section 5.2(b)(3) of the
General Provisions. Provider shall provide the Commissioner with a written statement of the basis for
each rejected referral within twenty-four (24) hours of
the rejection unless an exception is granted by Commissioner or Commissioner’s designee.
(b) Within seventy-two (72) hours of accepting a
case that has been designated as a Kinship Care placement, Provider must visit the placement and complete
an assessment of the kinship caregiver’s home to ensure that it is in compliance with State regulations regarding foster homes.

208a
3.23 Documentation of Referrals. Providers
must maintain centrally located documentation regarding each referral that the Provider receives from
DHS. Provider must maintain the following information: the date of receipt of referral; the requesting
DHS division (CWO or JJS); the name, age and race of
the child; presenting primary problem; and whether
the child was accepted or rejected for admission to the
program and if applicable, the reason for rejection.
3.24 Vacation, Holiday Placement. Provider
shall ensure that each child in an Out-of-Home Placement has uninterrupted Services and placement in the
event Provider’s office closes for vacation or holidays.
3.25 Adequate Clothing. It shall be Provider’s responsibility to purchase a seasonally adequate and
complete wardrobe for each child in placement in its
program and for any child who is being discharged
from its program.
3.26 Return of Medical Assistance Card. At the
time of discharge or within seventy-two (72) hours of
an unplanned discharge, Provider shall return the
Medical Assistance card of any child who has been removed or discharged from Provider’s placement to the
City; otherwise, Provider shall be liable for any
charges incurred after discharge. Provider agrees that,
upon its return of the child’s Medical Assistance card
to the City, Provider will cooperate fully with the Department for the purpose of re-enrolling the child with
a primary care physician.
3.27 Service Reports.
(a) Progress Reports. Provider shall submit to the
City, on a quarterly basis, a written progress report for
each child for whom Services are provided. The report

209a
shall be consistent with the ISP, shalt present an evaluation of [1073] the child’s current status, and shall
include a statement of Provider’s treatment goals. If
the City purchases residential treatment Services under the Contract, Provider shall submit a diagnostic
study and treatment plan to the City within thirty (30)
days after the child’s initial placement.
(b) Placement Objectives; Adjustment Reports.
When the Services purchased under the Contract include residential Services, Provider shall, within
ninety (90) days after the child’s initial placement,
submit .a report to the City which evaluates the child’s
adjustment to placement and the child’s prognosis.
Within one hundred eighty (180) days after the initial
placement, Provider shall submit a report to the City
which examines whether a less restrictive placement
is appropriate for the child. The City generally expects
that Provider will move children to a less restrictive
placement, and that children have the capacity to
make use of a less intensive Service within one hundred eighty (180) days after their initial placement in
a residential facility. With the exception of those children committed to the Juvenile Justice System as the
result of the commission of delinquent acts, when Provider recommends that a child receive more than one
hundred eighty (180) days of residential services, Provider shall present written justification for the recommendation to the, Department, and shall participate
in a case review within one hundred eighty (180) .days
after the child’s placement. Provider shall allow visits
by authorized City employees, upon oral or written request, for discussion or review of information pertinent to the child, or for interviews with the child and
the child’s natural family. If the child is placed in foster family residential treatment, and is supervised by

210a
Provider, Provider shall arrange for all contacts by the
City with the child and foster family through the staff
of Provider. The use of conference calls between the
City, the natural family, and the residential treatment
facility or the foster family will be regularly scheduled
by Provider when distance prevents regular contact.
With regard to children with special medical needs,
Provider shall provide all training necessary to the individual(s) with whom the child will reside in order to
accommodate those needs. Individuals to be trained
may include, without limitation, the child’s legal
guardian(s) or the child’s biological, kinship, foster or
adoptive parent(s).
(c) Notice of Child’s Location. Providers shall
promptly notify the City of the exact placement location and address of each child placed in accordance
with the terms of the Contract. A child shall not be
moved from one location to another even within a Provider’s own system without PRJOR written notice to
the Department and applicable approval of court, except in emergency situations that place the child in imminent risk of harm. In non-emergency situations,
Provider must furnish the City, in writing, with information regarding any proposed move of a child including, but not limited to, the exact new address of the
child as soon as that address is known, plans for education, and plans for transfer of
*

*

*

211a
Appx.0090-0095
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 18, 2018
[Appx.0090]
[Lori Windham] accommodation. That's something
they have never been understood to be, that's
something that the city has not even attempted to
establish that they are.
Number two, the city is also asking this court to
rule that actions by private religious charities are
really city actions. That's contrary to both law and to
the plain terms written into the city's contract. Thus
the city's defenses fall apart, and what is left is a
government targeting, retaliating and burdening
religious exercise in violation of the law. without
urgent action by this court, catholic will soon be unable
to continue its decades-long religious exercise of
serving foster children consistently with its faith.
Without urgent action from this court, foster parents
like Ms. Fulton and Ms. Simms-Busch will lose the
critical support services that they rely on to serve their
foster children. Without urgent action from this court,
loving foster homes like Mrs. Paul's will continue to sit
empty during a foster care crisis.
The plaintiffs meet the criteria for emergency and
injunctive relief. First, the plaintiffs have
demonstrated a reasonable probability of success on
the merits. Unless the court has a particular claim
that it would like me to turn to first, I will address
each one in turn.
[App.0091]
First, plaintiffs are likely to prevail on their claim
under the Pennsylvania Religious Freedom Protection

212a
Act or respite. Under respite, a plaintiff needs to show
that they are engaged in religious exercise and that
religious exercise is substantially burdened. Once a
plaintiff has made that showing, and plaintiffs have
here, then the burden shifts to the defendants to show
that they have a compelling interest in their actions,
and that they have used the least restrictive means
available to further that interest.
We have explained these claims at length in the
briefing, and so i want to touch briefly on the city's
counter arguments. First, the city claims that the
plaintiffs are not engaged in religious exercise here. I
think the best proof that they are is their long history.
The archdiocese of Philadelphia has been providing
services for at-risk children for over a century.
Catholic social services has been involved in this
particular form of service to children, foster care
service and placements, for a half century.
The declaration of Bishop McIntyre details the
importance of this fundamental religious exercise to
catholic social services and to its Catholic faith. This
court also recognized in the case of Chosen 300
Ministries in the city of Philadelphia that acts of
[Appx.0092] charity are often central to Christian
worship. In that case, this court ruled in favor of a
religious ministry dedicated to feeding the homeless,
and not just feeding the homeless generally, but doing
it in a very particular way, feeding them downtown on
the parkway at the place where they are. Catholic
Social Services has a fundamental religious exercise of
serving foster children in a matter consistent with
catholic faith. The same is also true for the individual
foster families, and you will hear a little bit more about
that from them today.

213a
Second, there are four different statutory criteria
for what constitutes a substantial burden under
respite. The plaintiffs have met all four of those. It's
only necessary to meet one in order to prove a
substantial burden, but all four are met here.
The city's response is twofold. First, the city says
that no substantial burden exists because Catholic
entered into a contract with the city and therefore
cannot have a substantial burden. This argument
rests on the fallacy that Catholic is a public
accommodation under the terms of the contract. And I
want to point the court to contract provision 15.1. This
is the nondiscrimination provision. That is at ECF
document 13-5 at page 18. The city says, and in
[Appx.0093] performing -- or the contract says, and in
performing this contract, providers shall not
discriminate or permit discrimination against any
individual because of race, color, religion or national
origin, period.
Then there's a second sentence, nor shall the
provider discriminate or permit discrimination
against individuals in employment, housing and real
property practices and/or public accommodation
practices. It then goes on to define both discrimination
and apply it to a number of additional protected
classes, including sexual orientation. And so by plain
terms of the contract, it only prohibits actions that the
city would term discrimination against sexual
orientation if they occur in the context of a public
accommodation. Written certifications for home
studies are not a public accommodation.
First, Catholic Social Services is not a place of
public accommodation within the meaning of the city's
ordinance. It is a private religious entity. And in a
prior case the Pennsylvania Commonwealth Court

214a
determined that a religious school run by the
Archdiocese of Philadelphia was not a public
accommodation under state law.
The same is true here, Catholic Social Services is
not a public accommodation like a hotel or a
[Appx.0094] restaurant or a train station. Second,
written certifications for home studies are not a good
or service that is generally made available to the
public. They are not something you can walk in the
door, pay your money and say, Hey, I have paid the
price, give me that thing. They are governed by state
law, and state law is clear that a number of subjective
and discretionary criteria go into making that
determination. I am going to be looking at 55
Pennsylvania Code, Section 3700.64. These are state
regulations governing the certifications for the home
study process.
The factors that foster care agencies must consider
include stable, mental and emotional adjustment,
including in some cases a psychological evaluation.
Supportive
community
ties,
existing
family
relationships, attitudes and expectations, ability of the
applicant to work in partnership with an FSCA, a
foster care agency. And so the determinations involved
in home studies and in the written certifications are
by nature discretionary determinations governed by
detailed state regulations. They are not public
accommodations that are made available to the
general public. You don't have to go through an
evaluation of supportive community ties in order to
rent a hotel room. You don't [Appx.0095] have to
prove you have stable, mental and emotional
adjustment in order to buy a bus ticket. They don't ask
you about your existing family relationships and
attitudes and expectations towards children when you

215a
go to buy a train ticket. This is not a public
accommodation within the meaning of the contract.
And so the city's defense on this point falls apart.
Catholic Social Services is substantially burdened
within the meaning of state law. The individual foster
families are substantially burdened as well. And the
city must prove that it has a compelling government
interest in what has been done here, and that it has
used the least restrictive means available to further
that interest.
First, it's important to note that when there is a
compelling government interest, the question is not, is
this interest compelling in the broad sense. The
question is, is the interest compelling in this
particular case.
In the 9-0 Supreme Court decision of Church of
Lukumi Babalu Aye v. City of Hialeah, the Supreme
Court said that public health was not a compelling
government interest because the city had failed to
pursue it evenhandedly. In the 9-0 Supreme Court
decision of Holt v. Hobbs, the Supreme Court said
*

*

*

216a
Appx.0117-0119
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 18, 2018
[Appx.0117]
Ms. Barclay: Good Afternoon, Your Honor.
Stephanie Barclay for the Plaintiffs, and we would like
to call Ms. Toni Simms-Busch to the stand.
(Witness sworn.)
The Witness: Toni Simms-Busch, T-O-N-I, last
name Simms, S-I-M-M-S-B-U-S-C-H.
Ms. Barclay: would you like me at the podium?
The Court: Yes, please.
DIRECT EXAMINATION
By Ms. Barclay:
Q. Good Afternoon.
A. Good Afternoon.
Q. Please state your name for the record.
A. Toni Simms-Busch.
Q. Can you describe your current relationship with
Catholic Social Services?
A. I am a foster mother.
Q. In what city do you live?
A. Philadelphia, Pennsylvania.
Q. How long have you lived there?
A. Philadelphia, Pennsylvania? My entire life, 38
year.
Q. Can you describe your educational background?
A. Yes. I have a Bachelor's degree from Chatham
[Appx.0118] College in Forensic Psychology and I
started a Master's program at Argosy University for
Counseling Forensic Psychology.

217a
Q. How did you do academically in these programs?
A. I did very well.
Q. Can you describe a little bit about your relevant
work experience?
A. Yes. When I graduated in 2002, I worked as a
youth counselor with a partial care program for
children 3 to 5 and 6 to 9. I then worked in a
residential treatment facility for adolescent male and
females in New Jersey. I then worked at PSI Family
Services as a foster care agency worker. After that I
was a child advocate social worker for nearly four
years with the Defender Association of Philadelphia.
Q. Were you a foster care social worker in
Philadelphia?
A. Yes.
Q. And were you a child advocate social worker in
Philadelphia?
A. Yes.
Q. You mentioned that you worked at an in-staff
and group homes. How long did you work in that
position?
A. A little over two years.
Q. When you were a foster care social worker, how
[Appx.0119] long did you work in that position?
A. A little over two years.
Q. And when you were a child advocate social
worker, how many years were you in that position?
A. Approximately four years.
Q. I would like to talk to you a little bit about your
observations as a foster worker in Philadelphia.
During your work, did you ever observe in your
experience there to be a shortage of foster homes for
children?
A. Yes.

218a
Q. What sort of things did you observe that led
you to think that?
A. As a foster care worker, as a child advocate
social worker, my professional experience was that
children were constantly being relocated due to
placement issues. Several children had to be placed –
several teenage children had to be placed in shelters
due to a lack of available foster homes. Children had
to be placed in respite for temporary hold until
permanent foster homes could be located, and children
sometimes -- I had a few cases where children would
have to stay at the DHS building until a placement
would be found.
Q. What sort of impact did you experience that to
*

*

*

219a
Appx.0126-0129
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 18, 2018
[Appx.0126]
By Ms. Barclay:
Q. As a foster care worker, did you ever refer
prospective foster families to other agencies?
A. [Witness Toni Simms-Busch] Yes. There were
instances where I needed to refer them out to other
agencies for various reasons. Perhaps there was a
language barrier, perhaps there was a difficult
medical case or behavioral health case that my agency
could not support.
Q. I want to take each of those with you in turn. In
the context of a language issue, walk me through what
a referral would look like and why that would arise?
A. Right. So if I had a client or a family who was of
another language and for some reason I could not
accommodate them or my agency could not
accommodate them, I would contact a specialized
agency and make that referral for that family to be
serviced.
Q. What was the name of one of the agencies with
language specialty you referred families to?
A. Concilio.
Q. Did you ever refer families for geographic
reasons?
A. Yes. We had to refer families for geographical
reasons. Perhaps a child was in a specific school
district and we wanted to keep them in that school
district, or even for safety reasons. If a parent was in
[Appx.0127] a certain neighborhood and we wanted

220a
to refer them out, the families would refer them out to
a different agency in another neighborhood.
Q. Did you ever refer families for behavioral health
specialty reasons?
A. Yes. Yes, we had to do that as well. Again, if our
agency was not able to cope with that child or the
family was unable to cope with it and needed
specialized – and that child needed specialized
services, we would refer out to a different agency.
Q. Were you aware of referrals also being made for
specialized medical needs of a child?
A. Yes, medical would be the same.
Q. Did DHS ever penalize or sanction you for
engaging in these referrals?
A. No.
Q. Did you think that you were doing anything out
of the ordinary when you made these sorts of referrals?
A. No. Referrals are made all the time.
Q. When a new prospective foster family
approaches an agency and comes to them through the
intake process, is that a DHS referral to the agency?
A. No, that’s an independent referral, like a self
referral, it’s not an DHS referral.
Q. So that’s a separate pipeline for obtaining
[Appx.0128] families?
A. Yes. DHS did not refer me to be a foster parent,
I self referred myself.
Q. Do you have any experience with how foster care
placement works for Native American children in
Pennsylvania?
A. Yes. I have had personal experience with that,
so prior to me becoming a foster parent with Catholic
Social Services, I have Native American Heritage, I
was thinking about adopting or fostering a Native

221a
American child and because I cannot certify myself as
a Native American, I was unable to do that.
Q. And was your experience that you could have
gone to any agency to try and foster a Native American
child?
A. No, I cannot. I cannot.
Q. So what would happen if you went to an agency,
any agency in Philadelphia, for example, trying to
foster a Native American child?
A. I would not be able to do that because I cannot
certify myself as a Native American.
Q. What would the agency do for you?
A. Refer me to – you know, I was not denied to
become a foster parent, but I cannot be a foster parent
of a Native American child.
Q. If you went to an agency that specialized in
[Appx.0129] placing Native American children,
again, what would that agency do for you?
A. Refer me out.
Q. As a foster parent, did you ever work with gay –
or excuse me. As a foster worker, did you ever work
with gay foster parents?
A. Yes.
Q. What was your experience with that family?
A. I had a specific family, a male foster parent. He
had three young boys. I thought he was an excellent
foster parent. Took very well – you know, took very
good care of those boys.
Q. I want to talk to you a little bit about your
interactions with other foster agencies during your
child advocacy work. When you worked as a child
advocate social worker, did you personally interact
with other foster agencies in Philadelphia?
A. Yes. Yes, I have.
Q. Which agencies did you interact with?

222a
A. Pretty much all of them.
Q. From your interactions, what did you personally
observe about the quality of care that these agencies
were providing?
Ms. Cortes: Your Honor, I would object to
relevance.
*

*

*

223a
Appx.0131-0132
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 18, 2018
[Appx.0131]
aware of instances where city attorneys would not
speak with you about a child’s case?
A. [Witness Toni Simms-Busch] No.
Q. [Stephanie Barclay] That was not something
you observed to be a common practice?
A. No, I had very good relationships with the DHS
attorneys.
Q. Were people you interacted with generally
aware of the religious nature of Catholic Social
Services?
A. Yes.
Ms. Cortes: Objection, Speculation as well, Your
Honor.
The Court: Overruled.
By Ms. Barclay:
Q. How long – let’s talk about your time as a foster
parent. How long have you been a foster parent?
A. For approximately two-and-a-half years.
Q. Can you tell us about what influenced your
decision to become a foster parent?
A. My work as a professional and also my personal
inability to have children. And also my belief that – I
believe that God placed it in my heart as a calling.
Q. What influenced your decision to choose
Catholic Social Services?
A. My professional work with them and also my
[Appx.0132] Catholic beliefs. I knew that we would
share the same foundational beliefs.

224a
Q. Can you describe some of the support you have
received from Catholic Social Services and how that
has been important for you?
A. Again, I know that I can call anyone on my team
at any hour of the day and sometimes at night, or text
them and I know that they are going to be there. I
know if I my call worker, he is is going to come as soon
as he can. He will spend anywhere between a half an
hour to a couple of hours if he needs to or if he wants
to, just playing with my boys or being there for me as
a support.
Q. Are you currently caring for foster children?
A. I have to young boys. I have a tow year old who
has been with me for 16 months and I have a – he will
be five months old on the 21st of this month and he has
been with me since he was three days old. They are
siblings.
Q. Are you interested in fostering additional
children in the future?
A. I would, yes. I would be very open.
Q. Would you be open to fostering siblings of your
boys?
A. Yes.
Q. Are there things that you have experienced
*

*

*

225a
Appx.0142-0146
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 18, 2018
[Appx.0142]
Q. [Stephanie Barclay] How long have you lived in
Philadelphia?
A. [Witness Cecilia Paul] My whole life.
Q. Can you tell us just a little bit about your
educational background?
A. I had 16 years of Catholic education, graduated
from Villanova University with a BSN.
Q. And did you have any work experience that is
relevant?
A. Yes. After getting my degree, I went to
Children’s Hospital of Philadelphia, worked there for
two years. Then had my own family and stayed in the
home. Missed nursing very, very much because it's an
avocation and then heard about fostering in Catholic
Social Services.
Q. Let's talk about your time as a foster parent.
How long have you been a foster parent?
A. I have been a foster parent for 46 years.
Q. How many children approximately have you
fostered?
A. I have fostered 133 children.
Q. Did you ever adopt any of these children?
A. I have adopted six.
Q. Have you ever been recognized for your care by
the city?
A. Yes. Three years ago in May I received a –
[Appx.0143] whatever, a Certificate stating that they
recognized me as a loving, caring foster parent.

226a
Ms. Barclay: and may I have permission to
approach the witness, Your Honor?
The Court: Yes.
By Ms. Barclay:
Q. Ms. Paul, I have handed you what has been
marked as plaintiff's Exhibit 1. Do you recognize this
document?
A. Yes, I do.
Q. What is this document?
A. I didn’t hear what you said.
Q. What is this document?
A. It’s a document, a Certificate of Appreciation
from the city of Philadelphia issued by DHS, the
Commissioner at the time was Vanessa Harley who
presented it to me on May 26, 2015.
Q. What does the award say that it was for?
A. Excuse me?
Q. What does the award say that –
A. The award says, for answering the call of our
most vulnerable children, for helping to right the
wrongs, for being a shoulder to cry on, and most
importantly for providing Philadelphia’s foster
children with love, compassion and respect they
deserve. You [Appx.0144] make the difference in the
lives of children and youth.
Ms. Barclay: Your Honor, may I have permission to
enter this Exhibit 1 for the Plaintiffs into the record?
The Court: Yes.
By Ms. Barclay:
Q. Ms. Paul, what influenced your decision to
become a foster parent?
A. Having the Catholic background, I chose
Catholic Social Services for the caring that they give
children, for the commitment they give children, and
the beliefs that I believe in and they do too.

227a
Q. What influenced your decision to become a foster
parent, generally?
A. Because I feel that I have been given a gift from
God to help children and care for them and love them
along with my own children who also accept them and
love them.
Q. In addition to your -- you mentioned earlier that
you had a pediatric nursing background. Was
that relevant at all?
A. Certainly, because I had a lot of training with
children, especially at Children's Hospital, and
wanted to keep that going. Even though I couldn't do
it on a professional level as a nurse in a hospital, I
could do [Appx.0145] it in my home.
Q. Can you tell us about the type of support you
received from Catholic Social Services?
A. The kind of support I received from them
is excellent. They are always there from – for me no
matter what kind of question I might have, they are
always there to answer and care – you know, come out.
If I need their help face-to-face or on the phone, they
are there.
Q. Are you currently receiving normal referrals for
foster children?
A. No.
Q. When did the last foster child leave your home?
A. In early April.
Q. So you have not received any normal foster care
referrals since April?
A. No referrals, no.
Q. Have you ever gone without foster care referrals
for this long?
A. Not usually, no.
Q. How have you felt not being able to care for
foster children?

228a
A. I feel very lost, very lost because I can't use the
talent that was given to me to help with these children
who are out there, mainly infants that I get
[Appx.0146] who are drug addicted, who come into
my home and need a lot of care, which I am more than
happy to give, and my family also is involved in giving,
and not able to do it leaves me very upset.
*

*

*

229a
Appx.0148
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 18, 2018
[Appx.0148]
Q. [Stephanie Barclay] Ms. Fulton, what is your
current relationship to Catholic Social Services?
A. [Witness Sharonell Fulton] I am currently a
foster parent with Catholic
Social Services.
Q. And what city do you currently live?
A. Philadelphia.
Q. And how long have you lived there?
A. Most of my life.
Q. How long have you been a foster parent?
A. For 26 years.
Q. And how many children have you fostered over
the years?
A. 40.
Q. How did your religious beliefs if at all motivate
your desire to become a foster parent?
A. Well, I started thinking about it in the early
'90's and I kept seeing the commercial. So because I
am Catholic, I went to church and I prayed about it
and I believe that it was my faith that led me to it.
Q. What led you to choose Catholic
Social Services as the agency that you work with?
A. Well, because I went to church, I go to a
Catholic church and I have for 55 years, so I decided
that I would start there because they share the values.
I share the same values.
*

*

*

230a
Appx.0174-0175
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 18, 2018
[Appx.0174]
A. [Witness Kimberly Ali] Yes.
Q. [Schaundra Oliver] Will you please inform the
court as to that?
Ms. Barclay: Objection, Your Honor, as to
speculation.
The court: Well, overruled. You just said inform,
you didn't say reasons why.
Ms. Oliver: Thank you, Your Honor.
By Ms. Oliver:
Q. Will you please provide the court with reasons
as to why some foster parents change agencies?
Ms. Barclay: Objection, Your Honor, for speaking
about informing and that is hearsay of third parties.
By Ms. Oliver:
Q. To your knowledge as the deputy -The court: overruled.
Ms. Oliver: Thank you.
The witness: Can you repeat the question?
By Ms. Oliver:
Q. Why do some foster parents change agencies?
A. To my knowledge and in my expertise, the
reason why foster parents change agencies is
sometimes there may be dissatisfaction with a
particular foster care agency. Other times they may
have a young person in [Appx.0175] their home who
is in need of specialized services, such as specialized
behavioral health, because they have a behavioral
health need that exceeds the expertise of particular
foster care agencies. In either situation, we try to

231a
obtain or we do obtain at the Department a reason why
the foster parent wants to transfer. If it is
dissatisfaction for our foster care agency, then we try
to resolve those differences between the foster parent
as well as the agency. If it is because a young person
needs a higher level of care, we ask the foster parent
if they are willing to continue to care for the young
person. If they are willing to care for the young person,
then as opposed to allowing the young person to
disrupt from the foster home in which we would have
to remove the child from the foster home, we transfer
that entire foster home to a different provider agency.
Q. So in other words, is it your testimony that if a
foster parent changes agencies, that does not
necessitate the disruption in that child's placement?
A. Absolutely. The first thing we ask foster parents
who have children in their home is whether or not they
will be willing to continue to foster that child or youth
because we want to minimize and avoid disruptions.
Q. And if we can go back for just a moment because
*

*

*

232a
Appx.0197-0213
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 18, 2018
[Appx.0197]
Q. [Stephanie Barclay] Would you have
remembered if a complaint was filed against the
agency?
Ms. Oliver: Objection, Your Honor; asked and
answered.
The Court: She is not sure.
The Witness [Kimberly Ali]: I'm not sure. I don't
know how –
Ms. Barclay: I am not sure if she's not sure she
would never have known about the complaints
because it would not have come to her attention, or she
just at this time can't think of any.
The Court: She said she is not sure. So she – that’s
her answer. She is not sure.
Ms. Barclay: Your Honor, may I have permission to
just confirm what that answer means?
The Court: I would think that's basic English. She
is not sure.
Ms. Barclay: Okay.
By Ms. Barclay:
Q. You are not aware of any families that were
prevented from becoming foster parents because of
Catholic Social Services?
Ms. Oliver: Objection.
The Court: Overruled.
The Witness: I would not know that.
[Appx.0198]
By Ms. Barclay:
Q. So you are not aware of any personally?

233a
A. I don't – I don't know.
Q. You are familiar with DHS's operations, policies,
and procedures, including the practices that are the
subject of this action?
A. Yes.
Q. The DHS foster care contract says that, quote,
the provider shall not reject a child or family for
services based upon the location or condition of the
family's residence, their environmental or social
condition, or for any other reason if the profiles of such
child or family are consistent with the provider's scope
of services or DHS's applicable standards as listed in
the provider agreement, unless the exception is
granted by the commissioner or the commissioner's
designee in his sole discretion. My question is: this
paragraph is dealing with a rejection of referrals,
correct?
A. Yes.
Q. And this is referring to a rejection of a referral
from DHS, correct?
A. Yes.
Q. Non-relative family members generally
approach Foster agencies about becoming foster
parents.
[Appx.0199]
A. It depends.
Q. One of the ways that non-relative family
members can become a foster agency – or can become
foster parents is by approaching a foster agency,
correct?
A. Yes. That's one of the ways.
Q. And if they come through that way, agencies will
decide to evaluate those families as part of their
normal intake process.

234a
A. As part of their normal – can you define what
intake process is?
Q. Let me ask you the question a different way. If
an agency is evaluating a family that came to them on
their own, that type of foster family is not one that was
referred to the agency by DHS, is it?
A. Not necessarily.
Q. And Kin Care is a situation where DHS would
refer an entire family, correct?
A. Yes.
Q. And you testified earlier that DHS, when it
makes referrals, will identify the needs of the family
as well as the needs of the child to try to find the ability
to meet those needs, correct?
A. The needs of the child. So we determine the
needs of the child and whether or not the foster parent
or the kinship caregiver is able to meet those needs.
A. It depends.
Q. One of the ways that non-relative family
members can become a foster agency – or can become
foster parents is by approaching a foster agency,
correct?
A. Yes. That's one of the ways.
Q. And if they come through that way, agencies will
decide to evaluate those families as part of their
normal intake process.
A. As part of their normal – can you define what
intake process is?
Q. Let me ask you the question a different way. If
an agency is evaluating a family that came to them on
their own, that type of foster family is not one that was
referred to the agency by DHS, is it?
A. Not necessarily.
Q. And kin care is a situation where DHS would
refer an entire family, correct?

235a
A. Yes.
Q. And you testified earlier that DHS, when it
makes referrals, will identify the needs of the family
as well as the needs of the child to try to find the ability
to meet those needs, correct?
A. The needs of the child. So we determine the
needs of the child and whether or not the foster parent
or the kinship caregiver is able to meet those needs.
[Appx.0200] So we lead with the needs of the
particular child.
Q. Let's assume that there was a family that was
primarily Spanish-speaking. DHS would consider
that in akin care referral as far as referring to an
agency that was able to communicate with the family
and the child, correct?
A. It would depend.
Q. So you would refer a Spanish-speaking family
to another agency that didn't communicate with
them?
A. If the particular agency has Spanish-speaking
staff, then we would make that referral to that
particular agency.
Q. And that would be a consideration?
A. That would be a consideration.
Q. This paragraph also refers to a provider's scope
of services. Providers are required to comply with
state law, correct?
A. Which document are you referring to?
Q. If you want to turn to -- this is ECF 13-4 of the
document you have in front of you at pages 14 to 15.
Ms. Oliver: Could counsel please state again
which document you are referring to.
Ms. Barclay: This is the contract.
Ms. Oliver: And the specific page and section?
[Appx.0201]

236a
Ms. Barclay: it is ECF 13-4, and it's pages 14 and
15.
By Ms. Barclay:
Q. Ms. Ali, would it be helpful if I –
A. Can you just make sure I have the correct – yes,
please.
Q. Ms. Ali, this paragraph says that providers shall
not reject a child or family for services based upon the
location or condition of the family's residence, their
environmental or social condition or for any other
reason if the profile of such child or family is consistent
with provider's scope of services. My question to you
earlier is that a provider's scope of services includes
complying with applicable state laws, correct?
A. Yes.
The Court: Do you understand the question?
The Witness: Yes.
By Ms. Barclay:
Q. This provision does not prevent agencies from
referring families to an agency that would be a better
fit for the family, does it?
A. The agency is not –
Ms. Oliver: Objection.
[Appx.0202]
The Court: Overruled. Answer the question.
The Witness: Repeat the question, please.
By Ms. Barclay:
Q. This provision that we just read does not prevent
agencies from referring families to another agency
that would be a better fit for the family, does it?
A. So provider agencies would not refer a family
to – or a child to another agency, as I testified earlier,
that the central referral unit is a unit in the
Department of Human Services that makes referrals
when you are going outside of a particular agency.

237a
Q. I understand that. I am not asking you about a
DHS referral of a child. If a prospective foster parent
approaches an agency about being considered for the
home study certification process, this contract
provision does not prevent that agency from sending
that family or allowing them to know about another
agency that would be a better fit for the family, does
that provision?
Ms. Oliver: Objection, Your Honor. I renew my
objection with regard to the contract –
The Court: I think that's an unfair [Appx.0203]
question because it's asking for a negative. So I am
going to sustain the objection.
Ms. Barclay: let me see if I can word
That a little differently, Your Honor.
By Ms. Barclay:
Q. Sometimes families might come to an agency not
As a DHS referral but on their own. We discussed
that earlier, right?
A. Yes.
Q. And if that family comes to an agency, this
contract provision does not say anything about
whether or not the agency could give the family
information about another agency better able to meet
their needs.
Ms. Oliver: Objection, Your Honor. Questions with
regard to the contract are conclusions of law.
The Court: sustained.
By Ms. Barclay:
Q. Do you enforce this contract provision in an
evenhanded manner?
The Court: What contract provision?
Ms. Barclay: This contract, Your Honor.

238a
Ms. Oliver: Objection, Your Honor. It's an improper
question for this witness. She does not enforce the
contract.
[Appx.0204]
Ms. Barclay: Your Honor, this witness has testified
that she is familiar with DHS's operations, policies,
and procedures, including the practices that are the
subject of this action. And under the free exercise
clause, one of the very important legal questions is not
just what a contract provision or policy says in a
vacuum but how the relevant officials enforce that
policy and if they enforce it in an even manner. So it's
very relevant to the questions at issue in this case.
Ms. Oliver: Your Honor, I submit that she is not the
relevant official. It's not an appropriate question for
this witness.
The Court: Well, she is an appropriate witness as
far as the policy. But I don't know whether or not there
is an issue of equal application. I mean, as far as she
is concerned, she is the appropriate person.
By Ms. Barclay:
Q. DHS would not prevent an agency from letting
a prospective foster family know about another agency
that might better meet their needs?
A. DHS will have a problem with that. If a potential
foster parent seeks out, as you indicated, on their own
and contact a provider – a foster care [Appx.0205]
provider agency wanting to become a foster parent, we
would expect the foster care provider to train and
certify that foster parent.
Q. No matter what?
A. If it's in – if it's aligned with the 3700
Regulations.
Q. The 3700 Regulations meaning?

239a
A. The foster care regulations. So we expect for the
foster care provider agency – as a foster care provider
agency, we expect you to recruit, to train, and to certify
potential foster parents.
Q. And your position is that it would violate those
regulations if an agency let prospective foster parents
know that a different agency would be a better fit for
them.
A. Because it's the foster parents' choice. So if in
the foster parent sought out a particular provider
agency, that is the foster care provider agency that the
foster parent wants to work with. So we would expect
the foster care provider agency to train and certify
them.
Q. And it would be a violation of DHS policy if that
agency referred them to a different agency for any
reason?
The Court: Well, that's a kind of a [Appx.0206]
broad question.
By Ms. Barclay:
Q. It would be a violation of DHS policy if they
referred that family to another agency that they
thought would be a better fit for that family?
A. If that referral – define your referral. What are
you talking – define your referral.
Q. If that agency told the family that another
agency would be a better fit for them, and so – sent
that family to a different agency, it's your position that
this would violate DHS policy?
A. Yes.
Q. So the contract's provision also allows the
commissioner to make exceptions in his or her sole
discretion, correct?
Ms. Oliver: Objection. Question is regarding the
contract, Your Honor.

240a
Ms. Barclay: I can move on, Your Honor.
The Court: Yes, please.
By Ms. Barclay:
Q. Are you aware of DHS making exceptions to this
Policy in the past?
A. No, I am not.
Ms. Oliver: objection to what policy.
Ms. Barclay: the contract provision that
[Appx.0207] we have been discussing.
The Court: Well, I think you need to be more
specific.
By Ms. Barclay:
Q. You testified earlier that if an agency referred a
family to a different agency because they thought it
would be a better fit, that would be a violation of DHS
policy. And I am asking, has DHS made exceptions to
that policy, that you are aware of, in the past?
Ms. Oliver: Objection. I believe that counsel is
mischaracterizing her testimony.
The Court: Overruled.
Can you answer the question?
The Witness: can she ask it again?
By Ms. Barclay:
Q. You testified that if a family approached an
agency and the agency referred them to a different
agency as being a better fit for that family, that would
be a violation of DHS policy. And I am asking, are you
aware of times in the past where DHS made an
exception to that policy?
A. I am not aware.
Q. Only certain agencies are allowed to care for a
foster child with certain behavioral health issues,
correct?
[Appx.0208]
A. It's not true.

241a
Q. Behavior issues are ones that require additional
expertise provided by certain agencies, correct?
A. Depending on the level of behavioral health
needs of the young person.
Q. But you have previously said under oath that
behavioral issues require additional expertise that can
better be provided sometimes by another agency.
A. I actually said specialized behavioral health,
which is different from the broader behavioral health.
young people who come into placement because of the
trauma that they suffer more often than not have some
behavioral health needs, which would be separate and
apart from specialized behavioral health, which is
oftentimes a diagnosis, prescription medication, the
foster parent has to maintain medication logs. So that
is different from just behavioral health.
Q. Okay. So specialized behavioral health is an
issue that requires additional expertise by an agency?
A. Yes.
Q. Such agencies have to offer parents specialized
training, right?
A. Yes.
Q. They also have to meet additional requirements
with regard to staff?
A. Yes.
Q. These agencies have an add-on contract with the
city that lets them provide those specialized
behavioral health services for those children, correct?
[Appx.0209]
A. Yes.
Q. For instance, one agency that has those
behavioral health add-on contracts is Devereux?
A. Yes.
Q. Some foster parents might only be interested in
fostering a child with those sort of specialized

242a
behavioral issues. If such a parent showed up at a
agency without that specialty in that contract, then
that agency would need to refer that family to an
agency with a contract like devero, right?
A. If the foster parent is requesting that.
Q. Right.
A. Yes.
Q. If the foster parent is requesting to foster a child
with specialized behavioral health issues.
A. So what we would ask the foster care provider
agency to do is explain to the potential foster parent
about the type of young people that they provide foster
care for, and if the foster parent does not want to foster
with that particular agency, then it would be their
choice to foster for another agency.
[Appx.0210]
Q. And so if they only wanted to foster young people
with that specialized behavioral health issue, they
would need to be referred to an agency with that
specialty?
A. Yes.
Q. Have you granted a formal exception for these
types of referrals?
The Court: Formal exception, that is assuming that
an exception is necessary or required.
Ms. Barclay: I am not assuming that an exception
is required. I am asking if an exception has ever been
granted. That you are aware of.
The Court: Well, under the circumstances that you
have outlined, you are assuming that one is required.
By Ms. Barclay:
Q. Is an exception required from the DHS policy we
were discussing earlier?
The Court: If?
By Ms. Barclay:

243a
Q. To refer a family to a different agency with the
specialized behavioral health specialty.
A. I guess the difficulty that I am having is that
this speaks to foster parents who are – who –
individuals who are already foster parents and not a
[Appx.0211] potential.
Q. No, my hypothetical is assuming prospective
foster parents who are only interested in fostering
youth with specialized behavioral health issues. So it
does not require a formal exception in order for an
agency to refer them to a different agency if they could
provide that behavioral health expertise, does it?
A. No.
Q. Only certain agencies are allowed to care for
foster children with certain specialized medical issues,
right?
A. Depends, again. And it depends on the level of
medical need. For example, a medical one in which a
young person may have asthma, for example, could be
cared for by a general foster care foster parent.
Q. So – but there are some medical needs that can
only be provided for by an agency with that specialty,
correct?
A. Yes.
Q. And these agencies also have to receive an
additional license through the state office of medical
assistance?
A. Yes.
Q. They then receive an additional line item, addon on the foster care contract, to provide these
[Appx.0212] special medical services, right?
A. I am not completely familiar with the line item.
Q. Jewish family children services is one agency
that has this medical expertise that they provide for
families, correct?

244a
A. Yes.
Q. Some foster parents – prospective foster parents
might only want to foster a child with particular
medical issues, right?
A. Yes.
Q. If such a parent showed up in an agency that
didn't have this special contract, they would need to be
referred to an agency like Jewish family that does
have that expertise, correct?
A. We would ask the foster care provider agency to
explain the children that they service, some of which
will be medical level one, and let the foster parent
decide whether or not they want to transfer – potential
foster parent, whether or not they want to provide
foster care for medical agency.
Q. But if they only wanted to foster youth with this
specialized medical issue, there are some agencies that
they cannot receive that service from, correct?
A. Correct.
Q. And so if they wanted to be foster parents, they
[Appx.0213] would need to be referred to a different
agency, like Jewish family children, that has that
specialty?
A. Yes.
The Court: The biggest problem is I think you are
disagreeing what is a referral.
The Witness: yes.
The Court: I mean, what is it you are trying to do –
and I think it's inappropriate – is to get this witness to
use the same words that you are using and mean the
same thing. She clearly is not on the same wavelength
as you when talking about referral. And I think that's
where the confusion lies.
By Ms. Barclay:

245a
Q. So there are two different ways that I am aware
of that the word "referral" can be used. It can mean
referral from DHS to agencies, right, from your central
referral unit?
A. Yes.
Q. And so for ease of reference, what I have been
talking about is that sometimes agencies can provide
additional information to families about other
agencies that would serve their needs and give them
the choice to go to that agency?
A. And I am invisible to that process.
Q. And so what I am explaining is that – what I
*

*

*

246a
Appx.0284-0289
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 19, 2018
[Appx.0284]
for use to Catholic?
A. [Witness Kimberly Ali] According to our
attorneys, it was fair practice.
Q. [Stephanie Barclay] The fair practice ordinance,
meaning what?
A. I don't know all the details.
Q. Do you think foster-care is a public
accommodation?
A. I can't answer that question.
Ms. Oliver: Objection.
The Court: She said she can't answer it.
By Ms. Barclay:
Q. Yesterday I think I understood your testimony
to be, and correct me if I’m not getting this right, that
I think I understood your testimony to be that if a
qualified foster family wanted to receive a home study
from a particular agency, then that agency would have
to provide the home study?
A. I'm sorry. Repeat it again.
Q. Yesterday I understood your testimony to be
that under DHS policy if a qualified foster family
wanted to receive a home study from a foster agency,
then that particular foster agency would have to
provide it. They could not turn that family away?
A. Unless it was the family's choice, yes.
Q. So presumably this is an important policy for
[Appx.0285] DHS?
A. Yes.

247a
Q. And this is a policy that you have a compelling
interest in enforcing, correct?
The Court: What do you mean by "compelling"?
By Ms. Barclay:
Q. This is a policy that you have a strong interest
in enforcing, correct?
A. I would say interest in enforcing.
Q. You have an interest in enforcing this policy.
A. Yes.
Q. Not a strong interest?
A. I have an interest in enforcing all policy.
whether it's strong or weak, I cannot say that.
Q. Okay. So you have an interest that is no stronger
or no weaker than enforcing any other policy?
A. Yes.
Q. And when did you first put this particular policy
in writing?
A. What particular policy?
Ms. Oliver: objection.
Ms. Barclay: I am not sure what the
Objection is, Your Honor.
The Court: I was going to ready to ask you what
policy.
[Appx.0286]
Ms. Barclay: the policy I just described to her from
yesterday's testimony that she agreed to, which is that
if a qualified foster family wanted to receive a home
study from a particular agency and that was the
family's choice, then that agency would need to
provide that home study.
By Ms. Barclay:
Q. I am trying to understand, Ms. Ali, when did you
first put that policy in writing?
Ms. Oliver: Objection, Your Honor. Assuming facts
not in evidence.

248a
Ms. Barclay: I am just basing on her own
testimony, Your Honor, that is in evidence.
The Court: When you say "in writing," I don't know
that it's been placed in writing.
By Ms. Barclay:
Q. Okay. Have you ever put this policy in writing?
A. It is my understanding of the contract, so me
personally, no, I don't put contracts in writing or
policies in writing. Those are done by a separate
department.
Q. Great. So your understanding is that this policy
– the place where it is written down exclusively comes
from the foster-care contract?
The Court: exclusively? She didn't say
[Appx.0287] that.
Ms. Barclay: I am just confirming if that is true.
The Witness: I was going to say the same thing, as
exclusively.
The Court: yes.
By Ms. Barclay:
Q. Is there another spot you're aware, other than
the contract, where this policy is written down?
A. I am not sure.
Q. So you are not aware, right, at this time of
another spot where it is written down?
Ms. Oliver: Objection, asked and answered. The
witness is not sure.
The Court: Overruled. She can answer.
The Witness: I said I am not sure.
By Ms. Barclay:
Q. Thank you. And I am just trying to clarify at this
time you are not aware of anywhere else where this
policy is written down. That's just a yes or no question.
The Court: She is not sure.
Ms. Barclay: Okay.

249a
By Ms. Barclay:
Q. How have you communicated this particular
policy [Appx.0288] to foster agencies?
A. I have not. It's in the contract.
Q. Okay. So the contract is the main way in which
you communicate this with the agencies?
A. Yes.
Q. And how do you communicate to foster agencies,
if at all, whether or not they are required to comply
with public accommodation requirements?
A. I have not.
Q. Okay. You have been doing this work for 18
years?
A. Yes.
Q. Have you ever had conversations with anyone
about DHS's own obligations for providing a public
accommodation regarding foster-care services under
the Fair Practices Ordinance?
Ms. Oliver: Objection.
The Court: Overruled.
The Witness: Repeat it, please.
By Ms. Barclay:
Q. Have you ever had conversations with anyone
about DHS's own obligations providing a public
accommodation with respect to foster-care services
under the Fair Practices Ordinance?
A. Other than in this situation? [Appx.0289]
Q. Yes, other than in this situation.
A. No.
Q. And in this situation, have you had
conversations about your own requirements and
DHS's
own
obligations
to
provide
public
accommodation services with respect to foster-care?
A. No.

250a
Q. Have you – so you have never trained staff about
that issue either?
A. No.
Q. Thank you. You state in your declaration that a
situation in which a foster agency shut down – or
excuse me. You described in your declaration a
situation in which a foster agency shut down and the
children needed to be transferred, correct?
A. Yes.
Q. You stated that, quote, the goal is to keep
children in the same home and not disrupt the
children and their care, end quote. Correct?
A. Yes.
Q. And that was the goal because moving children
from one home to another can be traumatic?
A. Absolutely.
*

*

*

251a
Appx.0302-0329
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 19, 2018
[Appx.0302]
A. [Witness James Amato] Good afternoon.
Q. [Stephanie Barclay] What is your current
relationship to Catholic Social Services?
A. I serve as a secretary for Catholic Human
Services, oversee Catholic Social Services and
Nutritional Development Services.
Q. In what city do you currently live?
A. Philadelphia.
Q. How long have you lived there?
A. My life, my whole life.
Q. Can you tell me a little bit about your work
experience in the child welfare arena?
A. Yes. I have been involved in child welfare since
1976 when I graduated from Temple with a degree in
Social work. Worked for a couple of years in residential
care for children at an agency affiliated with the
Archdiocese, and then went on to get a Master's
Degree in social work and worked at Children's Aid
Society and foster-care agency for a couple of years.
And then moved into progressive management,
running a home for children run by Catholic Social
Services, and then into senior management.
Q. How long total have you been working in child
welfare?
A. 42 years.
[Appx.0303]
Q. Can you describe a little bit more about your role
at Catholic Social Services?

252a
A. My role involves two things basically. One, I am
the Executive Vice-President of all 13 of our nonprofit
corporations, and I manage the operations, the daily
operations of the Catholic Human Services.
Q. And can you tell us a little bit about the way in
which Catholic Social Services as a nonprofit
organization is organized?
A. Catholic Social Services is organized into several
different divisions. Youth services is a prominent
division. Developmental program serving those with
intellectual disabilities. Housing and homeless and
family based services. And we also have Catholic
housing and community services, which addresses the
needs of seniors.
Q. Does senior leadership report to you?
A. Yes.
Q. And do you have a hand in both governance and
operations?
A. I do.
Q. I believe Catholic Social Services has two
programs relevant to foster children. Can you tell us a
little bit about both of those.
A. The most long-standing program is Catholic
[Appx.0304] Social Services foster-care department,
which has been – has its roots in 1917 as the Catholic
Children’s Bureau and then grew into Catholic Social
Services Foster-Care Department, today serving about
120 some children and 100 foster homes. And we also
have our residential services for adjudicated
delinquent youth, run by Saint Gabriel's system and
dependent adolescent, teens, boys and girls, run by St.
Francis and St. Vincent's homes.
Q. Does Catholic Social Services also have a CUA?
A. We also have a CUA that handles most of
northeast Philadelphia.

253a
Q. I want to talk to you a little bit about the
religious ministry of Catholic Social Services. Can you
tell us some of the ways in which, on a daily or weekly
basis, Catholic Social Services is operating in a
religious fashion?
A. Yes. All of our meetings begin with – and many
times end with prayer. Our facilities all have chapels.
They are well used by staff. And that our Catholic
identity is very apparent in our religious artifacts on
the walls and those kinds of things.
Q. And how frequently is prayer involved in what
you do?
A. Daily, several times daily.
[Appx.0305]
Q. How has your religious mission been made
apparent to those you interact with, including the city?
A. Well, as far as the city goes, every year we
submit a program description that I believe is part of
the contract, and that clearly identifies our Catholic
identity, our history and our mission, so that's very
clear. Also we do a lot in orientation training with staff
that underlines the importance of that to who we are
and why we do what we do.
Q. How many at-risk children were served across
all Catholic Social Services programs last year?
A. Over 1500.
Q. Is providing foster-care services a religious
ministry for Catholic Social Services?
A. The Church's care for orphans – which is an
outdated word – and at-risk children is centuries old.
In Philadelphia it dates back to 1797, when we
responded to the needs of children whose families –
parents had died due to yellow fever. So intrinsic to
who we are and what we do is the care of at-risk

254a
children and who are many times the poorest children
in our communities.
Q. And so just to confirm, is foster-care services a
religious ministry of Catholic Social Services?
A. It absolutely is, yes.
Q. You mentioned some of the roots of your program
[Appx.0306] was the epidemic of yellow fever. Did
that ultimately formalize in a specific program in the
early 1900's?
A. Yes. The first response was that, and then that
grew into the orphanage movement in the mid-19th
century. And that followed by the establishment of the
Catholic Children’s Bureau in 1917, which was
dedicated to foster-care.
Q. So that 1917 Catholic Children’s Bureau was
providing foster-care to children?
A. Yes.
Q. Was there any government involvement with
this program in 1917?
A. To my understanding, no.
Q. How did it work? How did you find children and
care for them? Can you walk us through that a little
bit?
A. Well, the religious sisters who ran Catholic
Children’s Bureau had a deep network of relationships
around the city with parishes and community groups.
And when it became known that a child was at risk,
they would do a home evaluation. If the child needed
to be removed – in those times, many times the
parents would agree to that, because they are called
voluntary placement. The child would be removed,
placed in a foster home and we would track them and
the child's [Appx.0307] progress in that home.
Q. I think you said were these networks known
through Catholic parishes?

255a
A. Catholic parishes were a great source of
referrals for that program.
Q. So when did Catholic partnership with
government begin to provide these services?
A. Well, I came into the work in 1976, and I can tell
you then, it was well established. So my guess is that
this happened in the late '40's, early '50's, that the
contracts became involved with government.
Q. And at that point when the government became
involved, is it your understanding that the
government took over all aspects of it or were there
things that Catholic Social Services was still doing at
the beginning of that partnership?
Mr. Field: Your Honor, I object, the witness said he
was not around when the government became
involved.
The Court: To the extent he knows the history, I
am going to overrule the objection.
The Witness: So repeat the question, please.
By Ms. Barclay:
Q. Sure. So when this government partnership
began, what is your understanding as far as the role
that Catholic Social Services would play with regard
to [Appx.0308] removing and placing children and
the role that the government played.
A. Catholic Social Services, to my understanding at
those times, had tremendous oversight of the intake
function. So that once a child became known to be at
risk and was evaluated as such, we would place the
child and simply advise the city that there was a
voluntary placement and they would then move
forward and support that.
Q. By the time you joined Catholic Social Services
in the '70's, how had the roles changed as far as what
the government was in charge of?

256a
A. Well, things changed for the better and they
changed swiftly. And they're now – in my time from
the mid-'70's on, all the intake was handled through
the Department of Human Services, and that was
done after a child protective services investigation, the
child was seen as needing to be placed.
Q. Now at this time is Catholic Social Services
authorized to provide foster-care services without a
government contract?
A. You really can't do it without a government
contract.
Q. So you would be breaking the law if you tried to
provide foster-care services without a contract?
[Appx.0309]
A. Yes.
Q. Does Catholic Social Services make money from
this government contract in providing these services?
A. Absolutely not. And just to give you an idea in –
last year we subsidized these services to the tune of
$3.8 million.
Q. Where do those subsidies come from?
A. They come from endowments, donations and
general archdiocesan support.
Q. Yesterday the attorneys for DHS referred to
Catholic Social Services as a business. Is that how you
think of your work?
A. I really don't know of any business that would
start or be able to finish with a $3.8 million subsidy. I
never thought of it as a business.
Q. So before yesterday, have you ever heard that?
A. Never.
Q. How would you describe the work that Catholic
Social Services is doing?
A. A religious ministry based on a nonprofit
Corporation – corporations that have a deep

257a
commitment to the poor and the vulnerable in our
community.
Q. I want to talk to you a little bit more about some
of the logistics of foster-care. When Catholic Social
Services performs a home study, what does that
[Appx.0310] process entail?
A. It entails an assessment of the relationships
that exist in that foster home, the suitability of the
physical plan of the foster home to be safe for a child,
and then obviously getting clearances too for
everybody in the home. If all of those things are up to
par, then we – then the home is certified as a foster
home and the home study is complete.
Q. Does Catholic Social Services request a pastoral
reference as part of that process?
A. It requests a reference from clergy for all
interested people who apply to be foster parents.
Q. So is it correct that they ask for a pastoral
reference?
A. Yes, they request a pastoral reference.
Q. With regard to the relationships that you said
that you would analyze, does this process culminate in
anything relevant to those relationships as far as
writing that you would provide?
A. The process culminates after the evaluation is
done and a certified home study, which would enable
the family to actually begin receiving children in their
home.
Q. Does that home study include any written
endorsements of those relationships?
[Appx.0311]
A. It is – the home study is a written evaluation,
yes.
Q. And an endorsement?
A. And an endorsement, yes.

258a
Q. Are you aware of any policy or law that says that
an agency must certify any qualified prospective foster
family that wants to be certified by that agency?
A. No, I am not aware of that law.
Ms. Barclay: Permission to approach the witness,
Your Honor.
The Court: yes.
By Ms. Barclay:
Q. Mr. Amato, I am approaching you with what has
been labeled and it's Exhibit Number 4. Mr. Amato, I
have approached you with what is described as
Pennsylvania State Resource – Family Association
Resource Parent Manual. Are you familiar with this
document?
A. I have heard of it, yes.
Q. And at the top of page 7, it says that: note, these
are minimum requirements and individual agencies
will vary with their policies. Is that consistent with
your understanding that agencies can have their own
additional requirements or considerations for why
they would certify a foster parent?
[Appx.0312]
A. Yes, it is.
Q. What are the religious beliefs of Catholic Social
Services with respect to marriage?
A. That a marriage is a sacred bond between a man
and a woman.
Q. Across all programs what does that mean for
LGBTQ individuals who might want or need services
from Catholic?
A. We regularly serve proudly people of all faiths,
all backgrounds, without regard to sexual identity, so
that today we are serving folks from the LGBTQ
community.

259a
Q. What about the same-sex couples who
approached Catholic about receiving a home study
service to become foster parents? Has that situation
ever arisen?
A. Well, that situation has not arisen, and – to my
knowledge since the time that I’ve been in Catholic
Social Services.
Q. And hypothetically speaking, if Catholic were
forced to provide a written certification endorsing a
same-sex marriage, would that violate the religious
exercise of Catholic Social Services?
A. Yes, it would.
Q. I want to talk to you a little bit about some of
the strengths and hallmarks of Catholic Social
Services [Appx.0313] foster-care program. What
would you describe as some of the strengths and
unique aspects of your program?
A. I think the key strength is the accumulated
knowledge after doing it for 100 years. The staff, our
turnover is very, very low. The staff has excellent
relationships with the foster parents and I think that
leads to – we keep our case loads low so that we can
continue to provide adequate support, and I think that
kind of results in some of the things that we heard
yesterday.
Q. It is your understanding that your case loads are
deliberately lower than many other agencies?
A. Absolutely, particularly now with the new
standards that come with the CUA.
Q. How long has your longest staff member been
there?
A. Over 35 years. Q. How do you think the
continuity with your staff impacts the children that
you serve?

260a
A. What I have heard and witnessed is our foster
parents can call at any time and get access to our social
workers. But if they can't, we have Bob Montoro
running it who has been there for many years. We
have Christy Reed, the Supervisor, who has been there
for many years. And we have an Eileen Mullen who is
a case [Appx.0314] worker who has done most of
these home study, who has been there about 35 years,
and she is readily available and accessible and I find
that foster parents see that as a great source of
support and hope.
Q. From your personal experience have you ever
observed there to be a surplus – or which have you
observed, a surplus or a shortage of foster families for
foster children?
A. Absolutely there is a shortage of foster families
for children, particularly adolescent children.
Q. What led you to arrive at this conclusion?
A. Reading, going to meetings with the senior
management from DHS, seeing some of the children
that we have served in group care that have the profile
that could be matched with a foster family but there's
simply not sufficient families for the adolescent
children.
Q. What physically happens – what else physically
happens to children when there are not enough foster
homes for children?
A. I think the most sad thing that happens is that
a child would have to wait and sit in the child care
room at the city while agencies are appropriately
pressed to find a foster home for them. That would be
one item that we all are trying to avoid. Number two
would be the potential placement of a young kid in a
[Appx.0315] congregate care shelter, which now best

261a
practice says is not the best way to go. So those would
be just two of the things that would come to mind.
Ms. Barclay: Permission to approach the witness,
Your Honor?
The Court: Yes.
By Ms. Barclay:
Q. Mr. Amato, I am approaching you with what has
been marked as plaintiff's Exhibit Number 5.
Mr. Field: Your Honor, may we have a moment to
review this exhibit? We have not seen this document
before.
The Court: Okay. I am going to take a brief recess.
I have another matter I have to handle. I will be about
ten minutes.
The Clerk: All rise.
(Brief recess.)
The Court: Okay. You may be seated.
Ms. Barclay: May we resume?
Mr. Field: Your Honor, I would ask an offer of proof
on this exhibit, is it p-5?
The Court: Yes. Ms. Barclay, can you identify it
first for the record.
Ms. Barclay: This is the certificate granted
[Appx.0316] to Philadelphia DHS to operate
Philadelphia county children and youth services and
discusses some of the issues that DHS was facing with
regard to being able to have enough homes to place
children. And it is relevant to another document that
we will be discussing that Catholic Social Services
provided to DHS to try and assist with this problem.
The Court: okay.
Mr. Field: Your Honor, I apologize. DHS is a large
organization with a long history. This is a document
from 2016. I am not clear on the relevance of the
entirety of DHS's history of the care with children.

262a
This litigation, which I understand to be about this
alleged religious burden and the harms that flow
therefrom. I respectfully submit we will be here a long
time if we are going into the entirety of DHS's care –
even recent years.
Ms. Barclay: Your Honor, there's only one
paragraph that I will just briefly read and then –
The Court: I am going to overrule the objection.
By Ms. Barclay:
Q. Mr. Amato, if you can turn with me to the page
that is tabbed, and I am just going to read to you. It
says: children are staying at DHS overnight in the
childcare room and at the CUA without adequate and
timely placement. The reported number of children
[Appx.0317] staying overnight at DHS and CUA
combined during calendar year 2015 was 84. This
number is probably higher as some CUA's did not
maintain records of which children stayed overnight
and when they stayed overnight. This is an
unacceptable practice and at the State's request DHS
has submitted a plan to alleviate this concerning issue.
Now, before we recessed, you were discussing the issue
of when children stay overnight at the childcare room.
And around this time was there anything that
Catholic Social Services did to try and assist DHS with
this issue?
A. Acting commissioner Jessica Shapiro at that
time approached me, knowing our history in providing
emergency shelter for children, and asked me for a
proposal to resume that shelter.
Ms. Barclay: Your Honor, permission to approach
the witness.
The Court: Yes.
By Ms. Barclay:

263a
Q. Mr. Amato, I am approaching you with what has
been marked as plaintiff's Exhibit Number 6.
A. Yes.
Q. What is this document, Mr. Amato?
A. This is the cover letter that accompanied the
[Appx.0318] budget proposal and a brief description
of what we could offer to meet that emergent need.
Q. Just describe again for us, what was the need
that this shelter was meant to address?
A. An immediate resource - an immediate group
care resource for up to 12 children who were in – there
was not an immediate foster family available.
Q. And so was this shelter option seeking to make
it so that less children would end up staying overnight
in that childcare room?
A. Yes.
Q. Are you aware of instances where a foster
agency will choose not to perform a home study for a
prospective couple for various reasons?
A. Yes. There's a couple of reasons that I am aware
of. One would be the geographical location of the foster
parent, so that it would be better for them to have the
home to be done to an agency closer to them. Another
would be a special medical situation, where we would
refer a foster parent because we don't have a special
medical service, nor do we have a license for that.
Another would be behavioral – a specialized
behavioral health home, because again, we don't
provide specialized behavioral health. It used to be
called treatment foster-care. There are also some
agencies [Appx.0319] that specialize in foster homes
for teen pregnant girls and teen mother/babies.
Further there are agencies who specialize, and one is
in suburban Philadelphia, in home studies for LGBTQ
individuals and couples. And finally there are agencies

264a
who specialize in providing foster homes for Native
American children so they are placed with Native
American families.
Q. Are there also agencies who have specialty in,
for example, outreach to the Latin American
community?
A. Yes. And the two that come immediately to mind
are Concilio and APM, which have a deep-rooted
history In the Latino community. Almost all staff – I
would assume, I think all, are bilingual and have –
both have quality foster – and recognized foster-care
programs.
Ms. Barclay: Permission to approach the witness,
Your Honor.
The Court: Yes.
By Ms. Barclay:
Q. Mr. Amato, I am approaching you with what has
been marked as plaintiff's Exhibit Number 7. This is a
document from Concilio's website. It says that: the
purpose of this agency is to provide social, educational,
cultural prevention and intervention services and
programs to underserved young people and families in
the Philadelphia region and to serve as a [Appx.0320]
community voice for the diverse Latino community on
issues affecting children, youth and family. This is
consistent with your understanding that this is an
agency that has targeted outreach to the Latino
community.
Mr. Field: Objection, Your Honor, on the basis of
hearsay and relevance.
The Court: Sustained, as to relevance.
Mr. Field: I ask that the reading would be stricken
from the record.
The Court: It will be stricken.
By Ms. Barclay:

265a
Q. Is it your understanding that there are any
agencies who specialize in servicing kin care
populations?
A. I think the most renowned agency for that is
Second Chance.
Q. And are you aware – any time has there been a
time where they exclusively served kin care
populations?
A. When they first became –
Mr. Field: Objection.
The Witness: When they first became known to
Philadelphia, my understanding is –
The Court: Overruled.
The Witness: – they were rooted in [Appx.0321]
Allegheny County with an expertise in the kin care
families, particularly minority kin care families.
By Ms. Barclay:
Q. Thank you. Have you ever understood it to be a
problem for an agency to decline to perform a home
study and instead connect a family with a different
agency that the agency believed would be a better fit
for them?
A. Never saw it as a problem. In fact, it's best
practice and widely known in social work is
information referral to get a family or an individual
connected with the agency that can best serve them.
Q. So you just used the term "information referral,"
and I just want to clarify. That's not the same thing as
when DHS makes a referral to an agency, right?
A. No, that's –
Mr. Field: Objection, leading.
The Court: Overruled. You may answer.
The Witness: That's information referral directly to
a client inquiring about a service that he or she might
be interested in.

266a

By Ms. Barclay:
Q. How does that differ from the DHS referral to
an [Appx.0322] agency?
A. A DHS referral is for a particular hard service,
foster-care, group home, that kind of thing. The other
one is more of a query about where will I be best
served.
Q. I want to talk to you now about this particular
litigation, Mr. Amato. When did you first learn that
the city had concerns about Catholic Social Services'
religious beliefs?
The Court: I don't know that that is properly
phrased.
Ms. Barclay: I can rephrase it, Your Honor.
The Court: Okay.
By Ms. Barclay:
Q. When did you first learn that the city had
concerns about Catholic Social Services' religious
beliefs with respect to written certifications that can
provide to same-sex couples?
Mr. Field: Objection, Your Honor.
The Court: Again, you are putting in there
"religious beliefs." I don't think that that is the issue.
The issue is whether or not they were going to be
certified.
Ms. Barclay: I can rephrase it again, Your Honor.
The Court: Yes.
[Appx.0323]
Ms. Barclay: If you can wait one moment.
By Ms. Barclay:
Q. Okay. When did you first learn about the city's
concern with the hypothetical situation where
Catholic Social Services would be unable to provide
written certification for same-sex couples?

267a
A. In mid March following an event, a promotion
that the city held, DHS held, for 300 more foster
families, I got a call on my cell phone, I think it was a
Friday afternoon, from Commissioner Figueroa and
First Deputy Shapiro inquiring as to Catholic Social
Services' position on providing home studies to samesex individuals or couples.
Q. And what was Commissioner Figueroa asking
you?
A. She was asking me whether we do that.
Q. Whether we do what?
A. Whether we would complete a home study on a
same-sex couple or individual.
Q. What was your response?
A. My answer was no, that we would not do that,
that it's against the teachings of the Church.
Q. Did they say anything to you then in response?
A. They said to me that you are discriminating. I
said that I am following the teachings of the Catholic
Church.
[Appx.0324]
Q. And this was a phone call in mid March?
A. It was a phone call in mid March, yes.
Q. Did you have a followup in-person conversation?
A. There was a meeting the next week with DHS
senior management, Catholic Social Services senior
management, and archdiocesan legal counsel.
Q. What were the things that DHS senior
management communicated to you at that meeting?
A. Their great concerns about us not completing
home studies for same-sex individuals and couples,
the fact that this had the highest attention, the
attention at the highest levels of government in the
city, and that –
Mr. Field: Your Honor, hearsay.

268a
The Court: Overruled.
Ms. Barclay: This is an admissible party
admission.
The Witness: and an indication that Catholic Social
Services should be following the teachings of Pope
Francis rather than the Archdiocese – rather than the
Archbishop or the Archdiocese.
By Ms. Barclay:
Q. Did the city say anything about times changing?
A. Yes, where they indicated when I –
Mr. Field: Objection. Leading, Your Honor.
[Appx.0325]
The Court: Overruled.
The Witness: When I indicated that the mission
commitment expressed in over 100 years of services, I
was advised that times have changed, attitudes have
changed, science has changed. It's time for – the
implicit message was it's time for the Catholic Church
– Catholic Social Services to change.
By Ms. Barclay:
Q. And just to confirm, I apologize you were
interrupted before. What did they say about the top
city officials?
A. Without naming names, they indicated that it
had the attention of top levels of government, which I
would assume would be Mayor Kenney and City
Council.
Mr. Field: Objection, calls for speculation.
The Court: Sustained.
Ms. Barclay: That's fine, Your Honor.
By Ms. Barclay:
Q. The substance of that meeting, was that
inquiring about anything else relevant to Catholic
Social Services?

269a
A. No. It was strictly around the matter that we
just discussed.
Q. Did they ask about – did they tell you in that
meeting that there would be a referral freeze?
[Appx.0326] Surprisingly, no. And it was kind of odd
to get a call five minutes later when we were walking
back to the Archdiocese from Deputy Commissioner
Ali, telling us that we forgot to mention something,
your referrals would be frozen.
Q. So that was ten minutes after the in-person
meeting?
A. Correct, yes.
Q. So I will go back to that. You mentioned there
was some discussion of the Pope from DHS at that
meeting. Do you remember exactly what they said
about the Pope?
The Court: Who said?
By Ms. Barclay:
Q. It was Commissioner Figueroa, correct?
A. It was.
Q. What did Commissioner Figueroa say about the
Pope?
A. That we should be listening more to Pope
Francis than the Archbishop and the Archdiocese's
position on this.
Q. So moving forward again to when you received
that follow-up phone call about the referral freeze, who
was on the phone 10 minutes later for that follow-up
phone call?
[Appx.0327]
A. Deputy Commissioner Ali.
Q. Just Commissioner Ali?
A. Yes.
Q. And did she explain why there was going to be a
referral freeze?

270a
A. No. It was pretty short and to the point, and it
was based on the meeting. We forget to mention that,
so we are mentioning it to you now.
Q. Did they indicate that there would be any sort
of exception for the best interests of children to this
referral freeze at this time?
A. No. It was absolute, no referrals and no talk of
any exceptions.
Q. So is your – what is your understanding as far
as the sole reason for this referral freeze?
A. That Catholic Social Services in its statements
had said they would not go forward with the home
studies, completing home studies for same-sex
individuals and couples.
Q. Before this lawsuit have you ever heard to –
services providing a home study described as a public
accommodation?
A. Never heard of that before.
Q. Had you ever heard of foster-care generally
being described as a public accommodation?
[Appx.0328]
A. No.
Q. When was the first time you heard of foster-care
being described in that way?
A. When I went to that meeting with the
Commissioner. She was quoting that from the
contract.
Q. What did the Commissioner say about public
accommodations in that meeting?
A. Basically a public accommodation is anything
that gets public funding. So if you get public funding,
you have to follow through with that expectation.
Q. It was their position that you were not
complying
with
the
public
accommodation
requirements?

271a
A. That was their position.
Q. And was their position that you needed to do
home study for anyone that applied?
A. Yes.
Q. Commissioner Figueroa's declaration claims
that you told her CSS, quote, “could not comply with
its contract,” end quote. She uses that phrasing twice.
Did you say that to her?
A. Not to my knowledge or recollection.
Q. What did you say?
A. I said that Catholic Social Services, due to its
religious teachings, would not move forward with a
home Study for a same-sex couple, but would
immediately refer [Appx.0329] that couple to one of
the other 28 or so agencies who would complete such a
home study.
*

*

*

272a
Appx.0344-0346
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 19, 2018
[Appx.0344]
The Court: I don't think we have to go any further.
Ms. Barclay: This is the end of my line of
questioning on that.
By Ms. Barclay:
Q. Mr. Amato, I would like to speak to you about
the viability of the Catholic Social Services Foster
Program moving forward. Do you regularly or do your
staff regularly report foster-care vacancies to DHS?
A. [Witness James Amato] Yes.
Q. And is that a contract requirement, as far as you
are aware?
A. I think it's a performance expectation. I don't
think it's a contract requirement.
Q. Before the referral freeze, on average how many
vacancies would Catholic Social Services have at any
given period of time across all of their programs?
A. Four or five.
Q. How many vacancies do you anticipate that you
will have by the end of June?
A. 35.
Q. If you continue to not receive referrals, when
will you have to start laying off employees?
A. In mid July we will begin a very sad process of
staff reduction.
[Appx.0345]
Q. And that's if you do not continue to receive
referrals?
A. Correct.

273a
Q. And on average, how many referrals will
Catholic Social Services receive a month from DHS for
foster children?
A. Nine.
Q. Is it your experience that after a contract
expired with DHS that foster agencies are able to
continue operating under the prior contract?
A. Can you repeat that question, please.
Q. Let's talk, for example, if there was no referral
freeze going on and this contract with Catholic Social
Services has a term ending June 30th. In a typical
sense, does that mean that right at June 30th you have
to enter into another contract, or is it typical for an
agency to operate under an existing contract?
A. It's typical -Mr. Field: Objection. Speculation, Your Honor.
The Court: Overruled.
By Ms. Barclay:
Q. You can answer the question.
A. It's typical that we operate under an existing
[Appx.0346] contract. Many of our – many years of
contract with the City are not conformed until well
into the Fall.
*

*

*

274a
Appx.0388-0391
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 19, 2018
[Appx.0388]
[By Ms. Barclay]
Q. It says: “please also note that CSS’s current new
contract expires on June 30th, 2018, and the city is under no legal obligation to enter into a new contract for
any period thereafter. We are hopeful that we can
work out any differences before then, but please be advised that except for in the best interest of the child
demands otherwise, the city does not plan to agree to
any further referrals to CSS, and the city intends to
assist with the transition of foster families to other
agencies absent assurances that CSS is prepared to
adhere to contractual obligations, and an implication
of city contract to comply with all applicable laws, including those relating to nondiscrimination. We believe our current contract with CSS is quite clear that
this is our right, but please be advised that any further
contract with CSS will be explicit in this regard.”
What was your understanding about the meaning
of this communication from the city?
A. [Witness James Amato] Quite frankly, they were
on a short rope and that referrals—they carry us over
until the program basically dried up in a matter of
months, and we would have no foster-care program.
Q. This last sentence: “we believe our current contract with CSS is quite clear that is our right, but
[Appx.0389] please be advised that any further contract with CSS will be explicit in this regard.” Did this

275a
give an indication that potentially future full contracts, as the city characterizes them, would have different contract terms than you have seen in the past?
A. Yes.
Q. And would you need to review contract terms of
a new full contract to ensure that you could continue
to provide foster-care services consistent with your religious beliefs, as you have done for the last 50 years?
A. Yes.
Q. Is it your position, Mr. Amato, that the product
of a final home study includes a written endorsement
of any relevant relationships of the foster parent?
A. It is.
Q. That’s your sincere belief, correct?
A. It is.
Q. And the sincere belief of Catholic Social Services?
A. Yes.
Q. Now, is it your understanding that evaluation of
the relationships of the parents is required by state
law for a home study?
[Appx.0390]
A. Yes.
Q. I just want to direct your attention to the 3700
regulations dot 64. You are familiar with the requirement under (a)(3)(b)(1) that an agency evaluate, quote:
“existing family relationships added to and expectations regarding the applicant’s own children and parent-child relationships, especially that they might affect a foster child.” Correct?
A. Yes.
Q. And you also understood that under this state
law, Catholic Social Services is entitled and indeed required to evaluate the ability of the applicant to work
in partnership with Catholic Social Services, correct?

276a
A. Yes.
Q. And it was your understanding that this state
law requirement meant that you, to perform an adequate home study, needed to evaluate the relationships of any foster parent living in the same home, correct?
A. Yes.
Ms. Barclay: just one moment, your honor.
Thank you, Mr. Amato. No further questions.
The Court: Any other questions?
Mr. Field: Just two brief questions, Your Honor.
[Appx.0391]
RECROSS-EXAMINATION
By Mr. Field:
Q. Jim, a minute ago, in talking to your counsel you
said that a product of the home study includes a written endorsement of relationships of the parents; is
that correct?
A. Yes
Q. Is that a written endorsement of any relationships that exist in that household that is subject to the
home study?
Ms. Barclay: Objection, Your Honor, asked and answered on his direct.
The Court: Overruled.
The Witness: Yes.
By Mr. Field:
Q. And your counsel just read you a portion of the
3700 regulations. Are you familiar with those?
A. Yes.
Q. And I believe the quote she read you in her
words was ability of applicant to work in partnership
with Catholic Social Services. Is it correct to say the

277a
rights – say the ability of the applicant to work in partnership with an agency?
*

*

*

278a
Appx.0433-0436
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 19, 2018
[Appx.0433]
The Witness [Cynthia Figueroa]: I was on the
phone with Jessica and James Amato and he indicated
that they would not, based on the religious position,
certify same sex homes, or do homes for adoption.
By Mr. Field:
Q. What did you learn from Bethany?
A. They had a similar statement. They indicated
that they actually had same-sex homes that were certified, but their statement said that they were—they
were unclear about their ability to serve same-sex couples.
Q. And did you—you said you contacted other foster-care agencies as well?
A. I did. I called a number of faith-based institutions that same day, and asked them what their position was.
Q. What did you learn from any of them?
Mr. Rienzi: Objection, hearsay.
Mr. Field: She is not offering for the -The Court: Sustained.
By Mr. Field:
Q. Did any of the other agencies tell you that they
would not certify same-sex couples?
Mr. Rienzi: Objection, hearsay.
The Court: Sustained.
[Appx.0434]
By Mr. Field:

279a
Q. Are you aware of any other agencies that—in
foster-care for the city that will not certify same-sex
couples?
A. No.
Q. So what did you do after your conversation with
Jim Amato that you just referenced?
A. So after my conversation with Jim Amato, I was
immediately concerned because it would put the city
in a position of discriminating against one particular
community. I knew that that actually had to be explored further, and I made the determination that we
would have to meet with them to discuss these matters
further, and we would have to do an analysis, too, of
how many children are we talking about, what is the
impact on the kids that we served.
I ultimately decided that it was in the best interest
to close intake, so that I could look more deeply into
this issue.
Q. Best interest of the home?
A. The best interest of the children.
Q. And why, in your view, was it in the best interest
of the children to close intake at that time?
A. So I make determinations around closure regarding best interest, even if they are administrative
[Appx.0435] or programmatic, in order to make sure
that any additional children that we’re putting there
were not going to either be put in harm’s way, or cause
any sort of disruption. In this particular circumstance,
adding additional children to the caseload could be
problematic.
Q. And what -- just so we are clear on what we are
talking about, what does “close intake” mean to you?
A. So “close intake” is that we would not provide
any—we would not send in the way of a referral any

280a
new children to be placed in a catholic social services
foster-care home.
Q. Is that any new children in all circumstances, or
are there exceptions that DHS observes those circumstances?
Mr. Rienzi: Objection, leading.
The Court: Overruled.
You can answer.
The Witness: So exceptions as it related, yes, always since it is in the culture of the agency to look at
kin, so, absolutely, the placement of siblings, the ability to also look to see the history of the child, if they
had a recent placement with that provider.
The Court: Okay. Perhaps this would be an appropriate time to recess until Thursday at 9:30.
[Appx.0436]
Mr. Field: Thank you, Your Honor.
(All rise.)
*

*

*

281a
Appx.0489-0502
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 21, 2018
[Appx.0489]
[By Mr. Field:]
Q. And has DHS offered Catholic Social Services an
alternative?
A. [Witness Cynthia Figueroa]Yes, we have.
Q. And what is that alternative?
A. We offered a limited contract to ensure that they
could continue to search the children who are currently placed in foster care without sending in additional referrals. It was good to hear Mr. Amato state
that they would consider entering into a limited contract.
Mr. Rienzi: Objection, move to strike the narrative.
The Court: Overruled.
By Mr. Field:
Q. Have you been in situations in the past in which
providers are closing or for some other reason unable
to continue long-term providing services?
A. Yes. Unfortunately in my tenure I have had to
experience that a few times.
Q. And in those experiences, what have you done to
work with providers to ensure the best interest of the
children?
A. So in a number of experiences we have actually
negotiated a contract in -- understanding that they
were going to have to close, but understanding also
that we [Appx.0490] needed the staffing and we
needed the ability to assure quality services and the
safety of children. And so we negotiated the staffing
levels and the contracted amounts. In one particular

282a
case we had an individual, and I know this gets very
much into jargon around our contracts, but we pay a
lot of the placement services in what we call a per
diem. So that’s like a set amount of money per child
per day. And then we have the ability to do what is
called a cost reimbursement contract. In one instance
when we knew we were closing the program, we knew
it was not financially viable or in the best interest of
the kids from a programmatic standpoint, they were
not going to be able to keep staff, so we changed it from
a per diem contract to a cost reimbursement, and we
guaranteed them the ability to have a set amount of
staff. In one other instance we actually offered stay bonuses for staff to make sure that we had the exact
staffing pattern we needed until closure.
Q. And do you have any reason to think you would
not engage in negotiations of this sort with Catholic
Social Services?
Mr. Rienzi: Objection, speculation.
The Witness: No.
By Mr. Field:
[Appx.0491]
Q. Would you engage in negotiations of this sort
with the Catholic Social Services?
Mr. Rienzi: Objection, speculation.
The Court: Overruled.
The Witness: Yes, that’s within my purview as the
commissioner, and I would negotiate those terms.
By Mr. Field:
Q. Real briefly, you mentioned when you were first
contacted by a reporter two agencies, Catholic Social
Services and Bethany, I believe?
A. That is correct.
Q. What does Bethany do for DHS?
A. Foster care services.

283a
Q. So it’s a similar contract?
A. Yes.
Q. And did you close intake with regard to Bethany?
A. Yes, I did.
Q. Does it remain closed?
A. As of today it remains closed, yes.
Q. And is it your expectation that Bethany will sign
a full contract for the coming year?
The Witness: Yes.
Mr. Rienzi: Objection, speculation.
The Court: Overruled.
[Appx.0492]
The Witness: yes. It’s my expectation. In communication it has been indicated that we will likely enter
into a full contract with Bethany.
By Mr. Field:
Q. And is it your understanding of the coming fiscal
year contract that it includes a clause that providers
not discriminate in the recruitment and certification
of foster parents?
Mr. Rienzi: Objection, speculation, hearsay and
best evidence rule. The document speaks for itself.
The Court: Overruled.
The Witness: Yes.
Mr. Field: May I have a moment, Your Honor?
The Court: Yes.
Mr. Field: Thank you.
(Brief pause in the proceeding.)
Mr. Field: that’s all I have at the moment, Your
Honor.
The Court: Okay. Cross-Examine.
Mr. Field: Thank you.
The Witness: Thank You.

284a
Mr. Rienzi: Your Honor, can I take a very short recess so that I can confer with my [Appx.0493] co-counsel and look at my notes so I can do this as briefly as
possible.
The Court: I will give you two minutes.
Mr. Rienzi: that’s all I need. Thank you, Your
Honor.
(Brief pause in the proceeding.)
CROSS-EXAMINATION
By Mr. Rienzi:
Q. Good morning, Commissioner Figueroa.
A. Good morning.
Q. You have had a long career doing a variety of
different kinds of social justice work?
A. That is correct.
Q. I believe you said yesterday you went to a Jesuit
college?
A. I did.
Q. And then you started your career in the Jesuit
volunteer corps?
A. Yes, that’s correct.
Q. What inspired you to do that?
A. Mostly my parents and a history -- long tradition. We have believed faith and social justice are good
tenets to ensure that those with less have the same
opportunities that we have been given.
Q. And those experiences probably gave you a good
[Appx.0494] understanding of what Catholic nonprofit service groups are like?
A. Absolutely.
Q. You know that Catholic loses money doing foster
care?
A. No, I am not aware of that.

285a
Q. Do you know that Catholic is a religious organization?
A. I do know that.
Q. And as DHS commissioner would you say that
Catholic has a strong commitment to service?
A. Yes.
Q. And for Catholic that commitment to service is
part of how they practice their religious beliefs?
A. I would not provide that expectation.
Q. Do you think there’s a different reason?
A. There could be.
Q. You have no opinion either way as to whether
they do it for religious reasons?
A. I don’t know that it is for me to say.
Q. I’m asking, do you have an opinion?
A. No.
Mr. Field: Objection, calls for speculation.
The Court: Overruled.
[Appx.0495]
By Mr. Rienzi:
Q. You have been DHS commissioner since when?
A. My tenure began in September of 2016.
Q. Do you have that job for a particular term of
years?
A. No.
Q. You are an at-will employee?
A. I’m an exempt employee with the City of Philadelphia.
Q. How many foster agencies are there in the city
right now?
A. There are 30 agencies in the City of Philadelphia.
Q. Does that include Catholic when you say that?
A. It does.
Q. And Bethany?

286a
A. Yes.
Q. So of those, how many provide home studies for
same-sex couples?
A. To my knowledge, all of them should.
Q. How many do?
A. All of them. Except for Catholic Social Services.
Q. So it is your testimony that 28 today provide
home studies for same-sex couples?
[Appx.0496]
A. Well, actually Bethany does because they have
certified a number of same-sex couples, so I would just
say Catholic.
Q. So today 29 agencies will do home studies for
same-sex couples?
A. From my knowledge.
Q. If Catholic closes their program, how many foster agencies in the city will provide home studies to
same-sex couples?
A. The same -Mr. Field: Objection, calls for speculation.
The Court: Overruled.
The witness: the same number, I presume.
By Mr. Rienzi:
Q. And if Catholic is allowed to resume its past
practice, how many agencies in the city will provide
home studies for same-sex couples?
Mr. Field: Objection, calls for speculation.
The Court: Overruled.
The Witness: 29.
By Mr. Rienzi:
Q. So no matter happens in this case it is your testimony there will be 29 agencies in the city that
[Appx.0497] provide home studies for same-sex couples, correct?
Mr. Field: Objection, calls for speculation.

287a
The Court: Overruled.
The Witness: Yes.
By Mr. Rienzi:
Q. To your knowledge, DHS has received no complaints against Catholic for operating according to its
religious beliefs, correct?
A. That is correct.
Q. To your knowledge, you have received no complaints against Catholic for providing foster care services according to its religious beliefs, correct?
A. None that I am—none that I can recall.
Q. To your knowledge, you have received no complaints against Catholic for failing to perform a home
study for someone who wanted it, correct?
A. I can’t answer that unequivocally.
Q. But you are not aware of any as you sit here today?
A. I am not aware of any, no.
Q. To your knowledge, not a single prospective
LGBT foster parent was unable to become a foster parent because of Catholic’s religious exercise, correct?
A. I can’t answer that.
[Appx.0498]
Q. You don’t know either way?
A. I can’t answer that.
Q. Are you aware of any who are unable to become
a foster parent because of Catholic?
A. I can’t answer that.
Q. You cannot answer because you are not aware of
any, correct?
A. I can’t answer that because I don’t know if anybody was turned away.
Q. So far as DHS is aware, the number of foster
parents turned away by Catholic who wanted a home
study for an LGBT couple is zero, correct?

288a
A. I can’t answer that.
Mr. Field: She just said she is unaware if anybody
was turned away, Your Honor.
The Court: She answered several times.
By Mr. Rienzi:
Q. You said you are responsible for about 1500 employees?
A. That is correct.
Q. To your knowledge, not one of them has told you
about any couple rejected by Catholic because of its religious exercise?
A. Not that I can recall.
Q. On your foster care website you tell prospective
[Appx.0499] parents to look for an agency that would
be a good fit for them, correct?
A. I don’t have it in front of me, so. . . .
Mr. Rienzi: Permission to approach, your honor.
The Court: Yes.
By Mr. Rienzi:
Q. I am handing you a document labeled plaintiff’s
exhibit 14. Do you recognize that document?
A. I do.
Q. What is that?
A. It’s the Philadelphia website. It’s the philly.gov
website.
Q. And you are an employee of the City of Philadelphia?
A. I am.
Q. And DHS is part of the City of Philadelphia government?
A. That is correct.
Q. I would like you to look at the bottom of the second page, please.
A. Second or third?

289a
Q. Bottom of the second says: choose a foster care
agency. Do you see that?
A. Yes.
[Appx.0500]
Q. And that says: DHS works with many state licensed agencies to provide foster care. Browse the list
of foster agencies to find the best fit for you. You want
to feel confident and comfortable with the agency you
choose. This agency will be a big support to you during
your resource parent journey. Once you have found
one that you like, call them to find out how to begin
the certification process. Did I read that correctly so
far?
A. You did, yes.
Q. Is all of that true to the best of your knowledge?
A. Absolutely.
Q. Okay. Why do you want foster parents to find an
agency that they will feel confident and comfortable
with?
A. Because it’s the choice of the family to determine
who they want to be served by.
Q. And why would you like them to be confident
and comfortable?
A. Because it is their decision.
Q. I am not asking whose decision it is. I’m asking
why would you—here it says you would like them to
feel confident and comfortable. Why?
A. Because they are deciding to become a foster
[Appx.0501] parent, so they have to feel comfortable
and confident in their decision.
Q. You would like them to have a good fit with the
agency?
A. I’d like them to be comfortable with their decision.

290a
Q. You would like them to have a good fit with the
agency?
A. I would like them to be comfortable with their
decision.
Q. Would you like them to have a good fit with the
agency?
Mr. Field: Asked and answered, Your Honor.
Mr. Rienzi: Your Honor, she has not answered.
The Court: Overruled. She can answer.
By Mr. Rienzi:
Q. Would you like them to have a good fit with the
agency?
A. Yes.
Q. Agencies are allowed to have different requirements for certifying families, correct?
A. No.
Q. Would you read for me the last sentence of that
[Appx.0502] paragraph we were just looking at,
please?
A. Oh, different requirements, specialties and
training.
Q. It says: each agency has slightly different requirements, specialties and training programs, correct?
A. Correct.
Q. Agencies are allowed to have different requirements, correct?
A. They may only have special requirements as it
relates to medical and specialized behavioral health.
Q. It doesn’t say that on your website, does it?
A. This is meant to provide general information
and does not go into individual regs of all of the specializations.

291a
Q. Is there someplace else that tells agencies that
those are the only different requirements they are allowed to have?
A. Not that I can recall right now.
Q. I believe you testified yesterday and some this
morning that you are familiar with DHS’s contracts?
A. I am.
Q. And you are familiar with the contract under
which Catholic provides foster care services?
A. I am.
*

*

*

292a
Appx.0512-0519
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 21, 2018
[Appx.0512]
ability to comply with the entirety of their contract.
Q. [Mark Rienzi] And for my next question, I want
you to leave that discussion aside because I am not
asking about that discussion. I am asking you about
your job as the person in charge of DHS, and I am
asking about your job particularly as somebody who
has testified that it is your responsibility to ensure
that your agency complies with state, federal and city
law.
A. [Witness Cynthia Figueroa] That is correct.
Q. Is it your opinion that DHS is governed by the
Fair Practices Ordinance when doing foster care work?
A. Could you restate your question.
Q. Is it your opinion that DHS, the agency you run,
is covered by the Fair Practices Ordinance when doing
foster care work?
Mr. Field: Objection to the extent it calls for a legal
conclusion or information learned from counsel.
The Court: Overruled. If you can answer.
The Witness: I don’t feel I have legal training to
answer that question.
By Mr. Rienzi:
Q. Have you ever trained your staff on compliance
with the Fair Practices Ordinance?
[Appx.0513]
A. As a commissioner?
Q. Yes.
A. No, I have not.

293a
Q. In your prior term at DHS have you ever trained
your staff on compliance with the Fair Practices
Ordinance?
A. As a deputy commissioner, no.
Q. In any context at DHS have you ever trained
staff on that issue?
Mr. Field: You mean -- Your Honor, can we just find
out whether he means her personally or her
department?
The Court: Her personally.
By Mr. Rienzi:
Q. I will start with you personally.
A. I’m sorry. I am confused. Can you start over
again.
Q. Sure. And I will back up. I apologize. What I am
trying to get a sense of is whether while you are at
DHS you all are acting like you are covered by the Fair
Practices Ordinance. So my question is -- I will start
with now as commissioner. As commissioner, have you
done anything to make sure that people at DHS follow
the Fair Practices Ordinance when doing foster care
work?
[Appx.0514]
A. Not to my recollection.
Q. And in all of your time at DHS, now over the
couple of different stints that you have had, do you
recall any discussions with anybody about whether
DHS was covered by the Fair Practices Ordinance
when doing foster care work?
A. I answered that it was with our legal counsel.
Q. Yes. I want you to leave aside that discussion.
Other than that, are you aware of any other discussion
about whether DHS is covered by the Fair Practices
Ordinance when doing foster care work?
A. I have not had a reason to.

294a
Q. DHS sometimes considers race when making a
foster care placement?
A. No.
Q. DHS never considers a request from a parent to
foster a child of a particular race when placing
children?
A. That would be the parent’s choice and
perspective to give that request.
Q. And when DHS is meeting that parent’s choice,
it does consider race when making foster child
placements?
A. We can’t always offer the ability to provide the
consideration that has been presented by the parent.
Q. Understood, but sometimes you do, correct?
[Appx.0515]
A. No, I can’t answer that.
Q. You can’t answer it or you don’t do it? I will
break it apart. Are you saying that DHS never
considers the race of a child when making a
placement?
A. I am saying that we consider the request of the
resource parent and that the other factor that we have
to consider is the best interest of the child. Whether
the behavior is -- coincides with the environment in
the household, whether or not there can be no other
child in the home, whether or not the child is medically
fragile. So there are a lot of considerations and they
are all driven by safety.
Q. I am trying to get you to focus on race.
A. Right. And I am telling you the priority of the
department -- Q. I understand that. I am asking -A. -- is children’s safety.
Q. I understand that. But I am asking you a
question about whether the department ever considers
race when making a placement.

295a
The Court: When you say “consider,” do you mean
that's one of the factors or one of many factors?
By Mr. Rienzi:
[Appx.0516]
Q. Yes, just consider it as one of the factors. So you
consider race when making placements sometimes?
A. There’s no formalized way for us to do that.
Q. Do you do it?
A. I don't know that I can answer that.
Q. You don’t know whether your department ever
considers race in making a foster child placement? Is
that your testimony?
Mr. Field: Asked and answered, Your Honor.
Mr. Rienzi: Your Honor, with all due respect, it’s
not actually been answered. I am trying to get to the
answer.
The Court: Overruled.
The Witness: Can you repeat it.
By Mr. Rienzi:
Q. Sure. Is it your testimony that the Department
of Human Services never considers race when making
a child placement?
A. I’m sorry. It sounds like you’re using a double
negative. Can you ask it more directly.
Q. Sure. Does the Department of Human Services
ever consider race when making a foster care
placement?
A. I think what I have answered before, as one of
the many factors that, yes.
[Appx.0517]
Q. So yes, it does, but there are other factors also
considered?
A. That’s correct.

296a
Q. Have you ever had any discussions with
anybody as to whether you are violating Fair Practices
Ordinance to consider race in a public accommodation?
A. It has not come to my attention.
Mr. Field: Assumes facts not in the record, Your
Honor.
By Mr. Rienzi:
Q. Does DHS sometimes consider disability when
making child placements in foster care?
A. Absolutely.
Q. Have you ever considered whether you are
violating the Fair Practices Ordinance if foster care is
a public accommodation?
A. We actually have specialized providers -Mr. Field: Objection.
The Witness: -- that only work with the population
you have addressed.
The Court: Overruled.
By Mr. Rienzi:
Q. And that would be a violation of the Fair
Practices Ordinance if foster care were a public
accommodation, wouldn’t it?
[Appx.0518]
Mr. Field: Objection, calls for a legal conclusion,
Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. You know that sometimes foster agencies
themselves consider race when making foster care
placements?
A. I can’t answer that. I don’t know.
Q. You don’t know whether any agencies consider
race when making placements?
A. I have never had that discussion --

297a
Mr. Field: Assumes facts not in the record
regarding placements, Your Honor.
Mr. Rienzi: It’s a question about whether it
happens.
Mr. Field: The witness has not testified as to
whether foster care agencies provide placements.
The Court: She answered.
By Mr. Rienzi:
Q. Who at DHS would know that?
The Court: who?
By Mr. Rienzi:
Q. Who in DHS would know whether foster
agencies consider race in making placements?
The Court: What does that have to do [Appx.0519]
with this case?
Mr. Rienzi: Plenty, Your Honor. The claim is that
foster care is a public accommodation subject to the
Fair Practices Ordinance. The commissioner has just
told me that the department sometimes considers race
when making placements.
The Court: As one of many other factors.
Mr. Rienzi: Which would be a violation of the Fair
Practices ordinance if they actually believed it.
The Court: That is your opinion.
Mr. Rienzi: Correct. And it’s actually also the Fair
Practices Ordinance, Your Honor. I am simply trying
to get a sense of how they run their foster care
program and whether they allow other considerations
that are not consistent with this apparently new view
that foster care is a public accommodation. So I am
trying to find out how the department handles other
things that if their story were actually correct would
be violations of the Fair Practices Ordinance.
The Court: Well, that is not -- the fact that you
consider a public accommodation and what is required

298a
by the Fair Practices Act is not what this case is based
on, the issue of race.
*

*

*

299a
Appx.0522-0525
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 21, 2018
[Appx.0522]
Think they have obligations under the Fair Practices
Ordinance when doing foster care work?
A. [Witness Cynthia Figueroa] We always remind
individuals to meet the standards in their contracts.
Q. [Mark Rienzi] I am saying other than the contract, have you ever told agencies to do that?
A. Based on the nature of the contract discussions,
then I would say yes because they all sign their contracts as I did.
Q. I am just asking you, other than the contract, do
you ever tell them they must follow the Fair Practices
Ordinance?
A. Not that I recall.
Q. You are not aware of any trainings that your
agency has done to tell people that?
A. Not that I am aware of.
Q. So in all of your time at DHS the first time you
ever heard anybody say foster care was a public accommodation under the Fair Practices Ordinance was in
this particular dispute, correct?
A. Again, that was in conversation with my counsel.
Q. And I am asking you since I know you also observed nonprivileged conversations between your
counsel and Catholic. So I am not asking you to tell me
anything about what your lawyer told you. Prior to
[Appx.0523] March of 2018, you had never taken the
position that foster care work was a public accommodation under the Fair Practices Ordinance, correct?

300a
Mr. Field: objection to the characterization of taking a position, your honor.
The Court: Sustained.
By Mr. Rienzi:
Q. You are not aware of DHS ever telling anyone
that foster care was a public accommodation prior to
2018, correct?
A. We never needed to prior.
Q. That’s not my question. My question is whether
you are aware of anyone at DHS ever taking that position prior to 2018?
Mr. Field: objection to the scope of this, your honor.
She has only been the commissioner since the fall of
2016.
The Court: My understanding is it’s in the contract.
Mr. Rienzi: I understand that that is their claim,
your Honor, and I'm simply saying if you are running
a large system, I am curious to know whether they said
it to anybody else. The Court: when you say “said it to
anybody else,” I mean the fact that it’s laid out in the
[Appx.0524] contract -Mr. Rienzi: Your Honor, the words “Fair Practices
Ordinance” appear in the contract. We have a serious
dispute with the City as to whether that makes foster
care a public accommodation.
The Court: I can appreciate that. All I am saying is,
the fact that it is in the contract, I don't know that it’s
necessary that it has to be said any other way.
Mr. Rienzi: Your Honor, I think that’s a perfectly
fair position to take, and maybe Ms. Figueroa is going
to say that. But my question is just whether she is
aware of anyplace else that they have taken the position that foster care is a public accommodation. She
has been there for many years. If the answer is no,
then that’s fine. I believe the answer was --

301a
By Mr. Rienzi:
Q. Was your answer previously it has not come up
before? Was that your answer?
Mr. Field: Again, Your Honor, I just object because
he referred again to this characterization of taking the
position, which is a legal conclusion.
By Mr. Rienzi:
Q. You have worked at DHS for a total—
[Appx.0525]
A. Well, in my current capacity?
Q. Total.
A. Almost four years.
Q. Prior to 2018 you had never heard anybody at
DHS say that foster care work was a public accommodation, correct?
A. I believe I answered this.
Q. I am asking for a yes or no answer. Prior to 2018,
you had never heard anybody call foster care a public
accommodation, correct?
Mr. Field: I object to the extent it calls for a privileged communication, Your Honor.
The Court: Overruled. You may answer.
The Witness: I believe I answered that prior to this
incident it had not arose.
By Mr. Rienzi:
Q. So no, you had never heard that?
A. No.
Q. Okay. Thank you. I believe you testified on Tuesday that you had heard and agreed with Ms. Ali’s testimony, is that correct?
A. That is correct.
Q. And you know that Ms. Ali stated a -- what she
said was a rule that if a qualified prospective foster
*

*

*

302a
Appx.0532-0533
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 21, 2018
[Appx.0532]
A. [Witness Cynthia Figueroa] I don’t know what
else that -- right now off the top of my head in the 74page document that might be found besides page 2.
Can you repeat the statement you are asking me to
confirm?
Q. [Mark Rienzi] The “How do I become a foster
parent” section does not say that you have a right to
get a home study from whatever agency you want, does
it?
A. In this guide, it does not.
Q. Okay. It says: DHS does not license or approve
foster parents. Who does?
A. The Pennsylvania Department of Human Services.
Q. So Pennsylvania DHS is the one who licenses
and approves foster parents?
A. That’s correct.
Q. Do agencies play a role in that?
A. Based on the information that they provide is
how a parent becomes licensed and approved.
Q. Who do they provide that information to?
A. You are getting into the real technical operational part, so I would have to rely on my deputy commissioner to answer that.
Q. They don’t provide it to you, do they?
A. No. They have to go through the state process.
Yep.
Q. And you have nothing to do with that process,
do [Appx.0533] you?

303a
A. No.
Q. Your office does not review home studies?
A. I can’t answer that.
Q. I’m sorry. You said you can’t answer that?
A. I don’t know.
Q. When agencies do home studies, they are not
acting on behalf of the city, are they?
Mr. Field: Objection, calls for a legal conclusion.
The Court: Overruled.
The Witness: The city pays for the contract for
them to deliver the service. The licensing component
is held by the state. They can’t do the work unless they
have a contract with the City of Philadelphia.
By Mr. Rienzi:
Q. When agencies do home studies, they are not
acting on behalf of the city, are they?
The Court: She answered that question.
When you say on behalf of, it's necessary for them
to get a license, but they can’t -Mr. Rienzi: I am simply trying to figure out if this
is the city’s work that the agencies are doing or if it’s
somebody else’s work.
*

*

*

304a
Appx.0582-0588
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 21, 2018
[Appx.0582]
Inquirer reporter. Do you remember that?
A. [Witness Cynthia Figueroa] I do.
Q. [Mark Rienzi] When you did that investigation,
you only contacted faith-based foster care agencies,
correct?
A. That's correct.
Q. You did not contact any nonreligious foster care
agencies, correct?
A. Actually, I did speak with one other nonfaith
based foster care agency.
Q. Which one was that?
A. Northeast Treatment Center.
Q. Why did you contact Northeast Treatment
Center?
A. I have a good relationship with the ceo and
wanted to ask about their practices.
Q. Did you talk about Catholic's practices?
A. No.
Q. As to all of the other nonreligious foster care
agencies in the city, you did not call them to ask them
their policy about LGBT couple applicants, correct?
A. No.
Q. Have you ever called nonreligious agencies to
ask them whether they perform home studies for
everyone who asked them?
A. Aside from Northeast Treatment Center, no.
Q. Have you ever called nonreligious agencies to
[Appx.0583] tell them they must important perform
home studies for everyone who asks them?

305a
A. No.
Q. Have you ever called nonreligious agencies to
ask if they ever refer home studies to another agency?
A. No.
Q. You had a meeting with James Amato in or
around March 15th, correct?
A. That's correct.
Q. Where did that meeting take place?
A. In Deputy Commissioner Ali's conference room.
Q. That's a government office?
A. It is.
Q. And who attended for the city at that meeting?
A. It was myself, Deputy Commissioner Ali, our
attorney was present, and Jim Black, James Amato,
as well as counsel for the Archdiocese attended.
Q. Did you take notes?
A. I don't recall.
Q. Do you recall if anyone else did?
A. I believe our legal counsel did.
Q. At that meeting you told Catholic that times
have changed, didn't you?
A. I did.
Q. And you told them that it's not 100 years ago
[Appx.0584] anymore, didn't you?
A. Catholic Social Services indicated that they had
been doing this service for 100 years. And I explained
that women didn't have the rights and African
Americans didn't have the rights, and I probably
would not be sitting in the room if it was 100 years ago.
Q. You explained to them that it was not 100 years
ago anymore, correct?
Mr. Field: Asked and answered.
The witness: I indicated, yes, things have changed
since 100 years ago.
By Mr. Rienzi:

306a
Q. You told Catholic that they should listen to Pope
Francis, did you not?
A. I said it would be great if we followed the
teachings of Pope Francis, the voice of the Catholic
Church.
Q. You told Catholic that they should not listen to
Archbishop Chaput on this issue, correct?
A. I don't believe those were my words.
Q. So on one hand you said it would be great if we
would listen to Pope Francis, correct?
A. Um-hum.
Q. Was there anyone on the other side you were
saying they should listen to Pope Francis instead of?
[Appx.0585]
A. I stated the first part of that, that, you know, it
would be great if we listened to the teachings and the
words of our current Pope Francis.
Q. And you said that they should not listen to the
Archdiocese on this issue, correct?
A. I answered this. I don't recall what I said
specifically.
Q. Okay. So you know you said we should listen to
Pope Francis, but you don't recall saying anything
about who would be listening to Pope Francis -Mr. Field: Asked and answered.
The witness: I don't recall saying the Archbishop.
By Mr. Rienzi:
Q. Do you recall saying the Archdiocese?
The court: Overruled.
The witness: No.
By Mr. Rienzi:
Q. Do you recall saying anyone else in distinction
with Pope Francis?
A. No.

307a
Q. You told them that the home study issue was
getting attention at the highest levels of city
government, didn't you?
A. I did.
[Appx.0586]
Q. Okay. And you were referring in part to the
Mayor when you said that, correct?
A. And my chain of command, yes.
Q. So when you said that, you were referring to
yourself as the highest levels of city government?
A. Certainly the managing director's office. So in
the city charter I report in to the managing director's
office and subsequently the Mayor.
Q. You had discussed this issue with the Mayor
before your meeting with Catholic, correct?
A. Briefly.
Q. What did you say?
A. I said that I am working to address the issues.
There is a number of children, and that we will brief
him once we have made decisions about moving
forward.
Q. What did the Mayor say?
Mr. Field: objection, assumes facts not in the
record.
The court: Sustained.
By Mr. Rienzi:
Q. Did the Mayor answer you?
Mr. Field: Objection, assumes facts not in record.
Mr. Rienzi: It's simply a question, Your Honor. She
said what she told the Mayor. I am asking
[Appx.0587] what the Mayor said back.
Mr. Field: Objection, hearsay.
The court: Sustained.

308a
Mr. Rienzi: The city is a defendant, Your Honor.
The Mayor is the Mayor of the city. It's an admission,
Your Honor.
The court: Sustained.
Mr. Field: Objection as well to the extent there was
counsel present.
By Mr. Rienzi:
Q. Did you know the Mayor's views by the time you
sat down to meet with Catholic?
A. No.
Mr. Field: Objection, calls for speculation.
The court: She has answered.
By Mr. Rienzi:
Q. Did you discuss cutting off intake with the
Mayor's office?
A. No.
Q. The Mayor is your boss?
A. He is the head of the city. My direct boss is Eva
Gladstein.
Q. Who is Eva Gladstein's boss?
A. Mike Diberadinis.
[Appx.0588]
Q. Who is his boss?
A. The Mayor.
Q. Who appointed you?
A. The Mayor.
Q. Do you consider yourself part of the Mayor's
administration?
A. I do.
Q. You know the Mayor's views about the
Archdiocese?
A. I do now.
Q. When did you learn the Mayor's views about the
Archdiocese?
A. Through this litigation.

309a
Q. You know that he does not like the Archdiocese
very much, correct?
A. I understand what has been presented, yes.
Q. Do you doubt the truthfulness of what has been
presented?
The court: In regard to -Mr. Rienzi: The Mayor's views on the Archdiocese.
The witness: I'm sorry. Can you repeat what you
are asking me.
By Mr. Rienzi:
Q. When you said you know what has been
presented.
*

*

*

310a
Appx.0616-0619
Excerpt from Fulton v. City of Philadelphia
Preliminary Injunction Hearing Transcript
June 21, 2018
[Appx.0616]
[By Mr. Rienzi:]
that’s a letter from the law department, who are your
lawyers in this case, correct?
A. [Witness Cynthia Figueroa] Yes. This is the
letter prior to sending the award letter. So this is
dated in regards to the line of questions you are asking
me.
Q. I would like to turn to page 2 of that document,
please. In the third full paragraph from the top, the
last sentence of that paragraph reads: we believe our
current contract with CSS is quite clear that this is all
right.
A. Did you say second or third paragraph?
Q. Third paragraph from the top, second page,
third paragraph from the top. The paragraph begins
“please also note.”
A. Sorry, that’s page 3.
Q. I apologize. Sorry about that.
A. Go ahead. Sorry.
Q. The last sentence of the third paragraph reads:
we believe our current contract with CSS is quite clear
that this is all right, but please be advised that any
further contracts with CSS will be explicit in this
regard. Do you see that?
A. I do.
Q. And any future contract that you enter into with
CSS you have told CSS you plan to have a more
explicit [Appx.0617] discrimination policy in that
contract, correct?

311a
A. The clarity regarding the policy will be made
available to all contracted providers, not just CSS.
Q. And when you said Bethany is going to enter
into a new contract, that new contract is not the same
as their old contract, is it?
A. It is the same contract with explicit language
defining the expectations.
Q. So it’s the same, but with different language on
the key issue, correct?
Mr. Field: Objection to the reference “key issue,”
Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. It’s the same with different language that is
being changed in order to more directly address the
question of home studies for same-sex foster couples,
correct?
A. Can you repeat that?
Q. Sure. I am trying to figure out the contract that
you were saying before that DHS would give Catholic
is the same full contract they had before or is a
changed contract on the nondiscrimination issue?
A. I don’t have the contract in front of me, but just
to repeat what was shared with Catholic Social
[Appx.0618] Services, it would be explicit in regard,
in terms to what is required.
Q. The current contract is not explicit, correct?
A. I believe right, it means providing further
clarity.
Q. In the past you have frequently let agencies
continue for months after the expiration of a contract,
is that correct?
A. When there is a renewal expected and it’s been
cleared by both the provider and the city that the

312a
expectation is to move forward in compliance with that
contract, yes.
Q. And in those situations sometimes you operate
for months under the old contract?
A. That is correct.
Mr. Field: That calls for a legal conclusion, Your
Honor.
The Court: Overruled.
By Mr. Rienzi:
Q. You talked earlier about possibly changing
contract terms to shift from per diem to cost
reimbursement. Do you recall that testimony?
A. That was an example what we did with a
provider that was closing, yes.
Q. In that circumstance you are not doing any new
[Appx.0619] referrals, is that correct?
A. That’s correct.
Mr. Rienzi: My last question and I want to make
one proffer, one last document, Your Honor.
By Mr. Rienzi:
Q. My last question, though, is, I believe we talked
before about whether you spoke with the mayor. And
I just want to be clear. Have you had any
conversations with anyone in the mayor’s office about
whether this conflict with the Archdiocese is politically
useful?
Mr. Field: Objection to the scope of the question,
Your Honor.
The Court: Yes, sustained.
Mr. Rienzi: Your Honor, my one proffer. There is
one additional Mayor Kenney tweet that I just want to
make the proffer on. I understand that it will almost
certainly be covered by your prior ruling. May I just
make the offer out loud?
The Court: Yes.

313a
Mr. Rienzi: It’s a April 9, 2015 tweet by Mayor
Kenney at Jim F. Kenney. It says: love this, hashtag
Philadelphia Council, invite all affected by RFRA laws
to City of Brotherly Love, ranked the number one
hashtag LGBT friendly by HRC.
*

*

*

